<html>
<title> - E-RATE 2.0: CONNECTING EVERY CHILD TO THE TRANSFORMATIVE POWER OF TECHNOLOGY</title>
<body><pre>[Senate Hearing 113-115]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-115
 
           E-RATE 2.0: CONNECTING EVERY CHILD TO THE 

              TRANSFORMATIVE POWER OF TECHNOLOGY
=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
85-768                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 17, 2013....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     4
Statement of Senator Schatz......................................    29
    Prepared statement...........................................    30
Statement of Senator Johnson.....................................    30
Statement of Senator Blumenthal..................................    33
Statement of Senator Ayotte......................................    36
Statement of Senator Begich......................................    40
Statement of Senator Markey......................................    44

                               Witnesses

Sheryl R. Abshire, Chief Technology Officer, Calcasieu Parish 
  School System..................................................     5
    Prepared statement...........................................     7
Linda H. Lord, Maine State Librarian.............................    11
    Prepared statement...........................................    13
Patrick Finn, Senior Vice President, U.S. Public Sector, Cisco 
  Systems, Inc...................................................    18
    Prepared statement...........................................    20
James G. Coulter, Co-Chair, LEAD Commission (Leading Education By 
  Advancing Digital).............................................    22
    Prepared statement...........................................    23

                                Appendix

Letter dated July 16, 2013 to the U.S. Senate Committee on 
  Commerce, Science, and Transportation from Mary Kusler, 
  Director of Government Relations, National Education 
  Association....................................................    53
Letter dated July 17, 2013 to Hon. John D. Rockefeller IV and 
  Hon. John Thune from Craig L. Silliman, Senior Vice President--
  Public Policy, Verizon.........................................    54
John D. Harrington, CEO, Funds For Learning, LLC, prepared 
  statement......................................................    54
Response to written questions submitted to Sheryl R. Abshire by:
    Hon. Amy Klobuchar...........................................    83
    Hon. Mark Pryor..............................................    84
    Hon. Mark Warner.............................................    84
Response to written questions submitted to Linda H. Lord by:
    Hon. Mark Pryor..............................................    87
    Hon. Amy Klobuchar...........................................    88
    Hon. Mark Warner.............................................    90
Response to written questions submitted to Patrick Finn by:
    Hon. Mark Pryor..............................................    92
    Hon. Amy Klobuchar...........................................    92
    Hon. Mark Warner.............................................    93
Response to written questions submitted to James G. Coulter by:
    Hon. Mark Pryor..............................................   138
    Hon. Amy Klobuchar...........................................   138
    Hon. Mark Warner.............................................   139


                   E-RATE 2.0: CONNECTING EVERY CHILD

                      TO THE TRANSFORMATIVE POWER

                             OF TECHNOLOGY

                              ----------                              


                        WEDNESDAY, JULY 17, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:50 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. My apologies. The Senate works in mysterious 
ways. I was perched, 5 minutes ago, dutifully on the Senate 
floor, ready to do the first of two votes, for which I was told 
there was an agreement. And then the agreement dissipated. So, 
now I'm told it's at 3 o'clock, which is very shortly. So, 
let's just hope that they meant 5. And I do apologize to you, 
because you're all heroic.
    In--and where's our--where are all our people? Where are 
our people? This is a big-deal hearing.
    Senator Pryor. I think they had the same idea you did, Mr. 
Chairman, go over, vote, and come back.
    The Chairman. I didn't see a soul over there.
    [Laughter.]
    The Chairman. OK. Anyway, I apologize, particularly to the 
panelists, and to everyone.
    In 1996, I brought a 16-year-old high school girl from 
McDowell County, West Virginia. She was a high school 
sophomore, Jessica Lambert. And I brought her up here to 
testify before the Commerce Committee about her success with 
something called ``distance learning.'' Now, this is 1996. John 
Thune was 12.
    [Laughter.]
    Senator Thune. A little older.
    The Chairman. A little older, OK.
    And an amazing thing happened. Nobody really understood 
what ``distance learning'' meant, but she told us, because, 
from one of the poorest counties in the United States of 
America, she came up and spoke to us, and spoke to us, in part, 
in Japanese. Why? Because she had gone online, with University 
of Nebraska, to take a course. And she's kept on with that, has 
moved on through Chinese and goodness knows what else, and 
she's sort of the Shakespeare of Asian languages. That was 
stunning to me. That was stunning to me. At the time, linking 
up classrooms via technology was an extraordinary idea or 
event, activity--not just the coalfields of southern West 
Virginia, but all across the country.
    In 1996, this Committee saw the power that technology has 
to transform a person's life. Making sure that every child in 
America has that opportunity is a giant cliche underwritten by 
an even greater and more giant truth. And that is, we owe 
that--we owe making sure that every child in America has the 
opportunity to fulfill their dreams even before they know they 
have dreams. And if they've picked out a field, which is 
unlikely, this'll help them do it. And we glory in that.
    And all of this was really the reason I worked so hard with 
a wonderful Republican by the--well, I mean, there are many 
wonderful Republicans, but this one was Olympia Snowe and then-
Congressman, now-Senator, Ed Markey, who is actually sitting 
way down there. He's hard to see.
    [Laughter.]
    The Chairman. He has been in the House for 37 years, but 
this is his second day in the Senate, so he's sitting way down 
there.
    And we got something called--on a very bipartisan basis--
the E-Rate Program. The impact of the E-Rate's Program on our 
schools has been nothing short of revolutionary. Since its 
creation 17 years ago, E-Rate has provided more than $30 
billion to connect the overwhelming majority of schools to the 
Internet. Now, it doesn't give you a computer, it doesn't give 
you a trained teacher, it doesn't give you software, but it 
gives you the connectivity.
    For example, in 1996, when the Telecommunications Act was 
signed into law, only 14 percent of all classrooms in this 
country were connected. And therefore--to the Internet--
classrooms. Among the poor schools, only 5 percent of 
classrooms were connected. The most recent statistics for 
classroom connection are amazing. Over 92 percent of all 
classrooms are connected, and 95 percent of the poorest 
classrooms--previously 5 percent--95 percent are now connected.
    As impressive as these statistics are, they're only part of 
a marvelous story. What's even more notable is the story of 
what schools have been able to do with this connectivity. 
Through their Internet connections, schools in the U.S. have 
been able to conduct virtual field trips to international 
places, at their will. And if people have home computers and 
connection, they can do it all day--to the Great Barrier Reef 
in Australia, where I've never been and have no immediate plans 
to go. And at least one school has taken a virtual field trip 
into outer space, when they visited the International Space 
Station.
    I believe E-Rate has done more than just connect our 
schools; it has spurred a broadband revolution--insufficient, 
but, nevertheless, a broadband revolution--that has been a 
catalyst for widespread adoption of broadband technology.
    E-Rate is also connecting our nation's libraries. Why 
libraries? Because we knew that, if we connected the schools, 
that would take care of a younger population, but what about 
adults? We count, too. And the best place to do that is from 
something called a library, which most small communities and 
large communities, obviously, have. And they remain the center 
of our communities, and hubs of lifelong learning; now even 
more so. Our libraries remain on the forefront of public 
institutions that are adopting new technologies to meet the 
virtual demands of our communities.
    Long lines. You go down to McDowell County, in a little, 
tiny library, and you will see long lines. Libraries with 
connectivity give children and adults an opportunity to access 
computers and the Internet so that they are not at a 
disadvantage when they're doing their homework and their 
research. For those seeking work, at the library they can 
access job postings, many of which are posted only online. And 
those in need of government services can use their community 
library to complete applications online.
    All of this is possible because of the critical funding 
that the E-Rate provides to libraries. E-Rate is 
transformational. It's not all good--the Internet, that is--
because it has brought us cybersecurity. So, in the mid-1990s, 
we took off. Let's just hope that we can do this cybersecurity 
thing, which the Ranking Member and I are determined to do.
    But, we cannot sit back and simply enjoy this extraordinary 
success. Just as technology continues to evolve, so must the E-
Rate Program. Several months ago, I called on the FCC to begin 
a process for creating E-Rate 2. I want to commend the FCC for 
moving quickly on this. A program designed nearly 17 years ago 
needs to reflect the connectivity and technology needs of our 
schools and libraries today and, indeed, into the future. And 
the bipartisan LEAD Commission, whose guide force, Jim Coulter, 
is in my eyes right now--he's one of the panelists--is here 
today, has made it clear that, without significant investment 
in high-capacity Internet connectivity, the wireless networks 
in schools will fail our children.
    I know that we will hear from some who say that we cannot 
afford to do this. Skeptics will ask, Where will the money come 
from? It's a fair question. What should we be asking is, I 
think, Can we afford not to do this?
    Cost comes from two directions. Can we afford to let our 
kids fall further and further behind their global peers in math 
and science? It's embarrassing now, and will get worse. Can we 
afford to deny our teachers the tools they need to educate the 
next generation? That's a complicated business, of teaching all 
of this. Can we afford not to give every child the abilities to 
succeed in a global economy? That's often used as a throwaway 
line, but think about it. We are a global community. Our global 
economy demands an increasingly educated workforce with higher 
skills and strong backgrounds in science and math and 
technology and engineering. Technology continues to offer new 
tools for raising the quality of education for all students, if 
we will give it a chance.
    For so many of our schools, an Internet connection gives 
them access to an unparalleled amount of information they could 
otherwise not afford to have, and did not have. Technology has 
been the great equalizer in our society--the sociological 
statement--and every child deserves to be connected to the 
promise that this technology holds, no matter of income, 
location in our country, topography, or anything else.
    With the right investment in high-capacity, high-speed 
Internet connections, we can expand E-Rate so that it will be 
available to provide future generations of children the 
opportunity to compete in an increasingly interconnected and 
data-driven world. There's no doubt in my mind that E-Rate is 
the program that is giving more students a brighter future, and 
one that we absolutely know that is the future is within their 
reach.
    I am very passionate about this. And I'm very proud to 
have, as my Ranking Member, Senator John Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    And I want to thank our witnesses, our panelists who are 
here today, for being with us and sharing your perspectives and 
insights with us.
    And, Chairman Rockefeller, I want to start by complimenting 
you in your success, nearly 20 years, to include language in 
the 1996 Act that laid the groundwork for E-Rate. While we 
might disagree on some of the particulars on how to modernize 
the program today, your commitment and determination, then and 
now, to deliver the promise of technology to our nation's 
schools and libraries is a very laudable one, and you deserve a 
lot of credit for your great work and vision, way back at that 
time.
    The goal of the E-Rate Program is to connect America's 
classrooms. And, by and large today, they are connected. E-Rate 
has played a role in this development, and I agree with 
champions of the program, like our new colleague, Senator 
Markey, who note that the original goals of E-Rate have largely 
been met.
    I also agree that the program needs to be reformed. E-Rate 
is nearly two decades old, and, like many of our communications 
laws, it could better reflect today's digital reality. Like 
you, I am pleased that the FCC plans to move forward on Friday 
with a rulemaking to begin the modernization of E-Rate. Online 
activity in schools will no doubt continue to increase, as it 
will throughout our society. But, I hope E-Rate will avoid 
prioritizing reaching debatable speed goals for some schools at 
the expense of necessary connectivity in others. As we consider 
ultrafast broadband in American classrooms, we must not lose 
sight of those schools and students that still need more basic 
communication services.
    The President's ConnectED initiative includes the goal of 
connecting 99 percent of America's primary and secondary 
students with high-speed broadband and wireless within 5 years. 
We should keep in mind, however, that the unreached 1 percent 
in this case amounts to over half a million students. And that 
assumes the goal is met. So, the real number could be much 
higher.
    As a Senator from a very rural state with just 147,000 
schoolchildren, the parents, teachers, and students that I 
represent would like to know where they stand as a priority for 
this Federal program, moving ahead.
    The fact is, schools in remote areas are simply more 
expensive to reach with service than their counterparts in more 
populated areas, which are typically located much closer to 
network infrastructure. This has always been the underlying 
issue at hand with universal service, and I look forward to 
seeing how the FCC addresses this reality through E-Rate 
reform.
    I also want to draw particular attention to FCC 
Commissioner Pai's speech, delivered yesterday, in which he 
outlined several reform ideas for the Commission to consider. I 
am intrigued by many of Commissioner Pai's proposals, such as 
providing more simplicity, transparency, and accountability for 
the E-Rate Program and its beneficiaries. I am also pleased by 
his focus on local decisionmaking and flexibility, allowing 
schools to meet their own needs, which may not always be what 
Washington assumes.
    Finally, I want to applaud his suggestion that reform be 
achieved within the current resources available to the 
Universal Service Fund. The President, in rolling out his 
ConnectED initiative, also directed the Federal Government to 
make better use of existing funds to get Internet connectivity 
and educational technology into classrooms. I agree with 
Commissioner Pai and the President, because it is very 
important for all government programs to stay within their 
means in this difficult fiscal and economic environment.
    Again, Mr. Chairman, thank you for holding today's hearing. 
I look forward to working with you to continue our committee's 
oversight of the FCC and its E-Rate rulemaking.
    And I--as we have votes later today, I also have an Ag 
Committee oversight hearing with the CFTC, and it is an issue 
that is important in my state, so I will probably be trying to 
bounce back and forth.
    But, I appreciate us having the hearing and, again, the 
panelists who are with us today, and I look forward to what you 
have to say.
    Thank you.
    The Chairman. Thank you, Senator Thune.
    Let's go directly to Dr. Sheryl Abshire. And she's the 
Chief Technology Officer--and I have to pause here to get this 
right--at the Calcasieu Parish School System, which is the 
fifth-largest system in the State of Louisiana. And she's a 
real expert on this. And I--we all look forward to your 
testimony.

   STATEMENT OF SHERYL R. ABSHIRE, CHIEF TECHNOLOGY OFFICER, 
                 CALCASIEU PARISH SCHOOL SYSTEM

    Dr. Abshire. Thank you so much, Mr. Chairman and members of 
the Committee.
    It's my great privilege to testify before this committee 
once again about the importance of the E-Rate Program, not only 
to my school district, but to my state and the entire Nation. I 
want to personally thank the Chairman for having the foresight 
to found this now 15-year-old program and the wisdom to 
advocate for needed changes.
    My name is Sheryl Abshire, and I've been the Chief 
Technology Officer for the Calcasieu Parish Schools in Lake 
Charles, Louisiana, for the past 15 years, and a public 
educator in that system for over 40 years. Currently, I work 
with the Consortium for School Networking and the International 
Society for Technology and Education, as a member of those 
organizations. I've just completed a 4-year term as the K-12 
representative on the Schools and Libraries Committee of USAC.
    This hearing today comes at a pivotal point for the 
program. The E-Rate has achieved its interim goals of providing 
at least basic connections to the Internet for all of our 
nation's schools and libraries, regardless of where they're 
located and the socioeconomic status of the communities that 
they serve. E-Rate supported networks that have facilitated 
educational attainment, personalized in virtual learning 
courses, and online professional development for millions of 
students and teachers. However, unless significant steps are 
taken to bolster the E-Rate, and they're not taken promptly, I 
fear that the sun will set on this incredibly successful 
program.
    Today, I join with the voices of Chairman Rockefeller and 
FCC Commissioner Jessica Rosenworcel in declaring a need for E-
Rate 2.0. Any serious effort to change the program will start, 
I believe, with increasing the E-Rate's annual support for the 
long term. For years, my colleagues and I have shouted from the 
rooftops that E-Rate was in danger of evaporating because of 
the escalating need for its support, with no significant 
funding increase to match. Now, we stand on the threshold of 
internal connection support becoming extinct and telephone and 
Internet access support facing cutbacks. We cannot let this 
happen.
    My district is the fifth largest district in Louisiana, and 
we have nearly 5,000 employees and more than 33,000 students, 
covering more than 75 buildings. Six months after I testified 
before this committee in 2005, my parish, our public school 
system, and all of our schools were wiped out by Hurricane 
Rita. But, thanks to 14 dollars--$14 million in E-Rate support, 
we were able to rebuild our network and expand it to meet the 
district's growing need for bandwidth. Today, our district's 
wired network infrastructure supports 35,000 network devices 
over a wide-area network. Our wireless infrastructure supports 
a network of 3,000 wireless access points; and, on any given 
day, peak usage of our network's infrastructure reaches 95 
percent of its capacity, with over 9,000 users accessing the 
network at any single time. Even more, in excess of 250,000 e-
mails are exchanged on our network each day.
    And all of this has made a huge difference to our students. 
Between 1999 and 2011, proficiency levels on state exams for 
Louisiana students with special needs, low-income students, and 
African-American students have grown between 26 and 31 
percent--percentage points. E-Rate truly has helped some of our 
most impoverished schools.
    Example: At Nelson Elementary School, an urban Title I 
school with in excess of 50 percent of their students on free 
and reduced lunch, and 17 percent of their students having 
English as a second language, every classroom is equipped with 
at least 10 iPads, a Promethean Board, and a variety of 
cutting-edge technology school--tools. Parents check grades 
online, they view student assignments, and students work online 
24/7 via our Online Learning Portal. Between 2008 and 2012, 
Nelson's average state school performance score increased by 16 
percent. Nelson is now designated as a school of recognized 
academic achievement.
    However, our work is not complete. Calcasieu needs more 
bandwidth to support forthcoming online assessments to ensure 
reliable connectivity for our video security systems and our 
door-entry systems that we are beginning to install in the wake 
of the Newtown crisis. We need to make sure our students and 
our teachers gain access to the very best educational online 
content, services, and tool available.
    Unfortunately, our and the Nation's need for more E-Rate 
support is colliding with the reality of E-Rate's inadequate 
funding today. The program's $2.25 billion cap was set, back in 
1998, well before tablets and smartphones existed. It is simply 
insufficient to meet school and library demands, some 15 years 
later. Indeed, this year's estimate of program demand, about $5 
billion, is more than double the available funds. And alarming 
is the fact that the growth in Priority 1 services demand, a 
10-percent increase in this year alone, is truly leading to de 
facto elimination of Priority 2. And if the trend of increasing 
demand for priority one holds true next year, even priority-one 
applicants may have to receive reduced discounts.
    I submit to you, this afternoon, that we cannot allow E-
Rate to slowly expire. I strongly agree with Chairman 
Rockefeller and FCC Commissioner Jessica Rosenworcel and the 
President that we need a plan to put E-Rate back on track--an 
E-Rate 2.0, if you will. For me, that plan starts with more 
funding. In my opinion, we need a permanent increase in E-
Rate's annual cap that, at a minimum, meets current demand. 
Additionally, I believe the FCC should consider establishing a 
rather lookback period--a formal lookback period, regularly--
every 5 years, perhaps, to assess whether the program's funding 
levels adequately meet demand.
    Additionally, I agree with Commissioner Rosenworcel that 
bandwidth targets are an important part of E-Rate 2.0. When the 
program began in 1998, we only measured the fact that classroom 
and library connections were there, and we were thrilled when 
virtually all schools and libraries achieved some kind of 
Internet connection. However, a low bandwidth connection 15 
years ago does not meet the immense bandwidth needs entailed by 
this explosion of online content, assessments tools, services, 
and communications in our classrooms.
    I believe we need to set well recent achievable goals for 
classrooms and device connectivity that reflect the needs of 
modern education. I think it's vital these goals be based on 
demand and data, and that they take into account the different 
needs and demands of rural, urban, and suburban schools and 
libraries. Like E-Rate's funding level, I support these 
periodic reappraisals and adjustments of these bandwidth goals.
    I want to thank the Chairman for holding this hearing on 
this very important subject, and I look forward to supporting 
his and the FCC's efforts to protect and preserve the E-Rate 
Program. And I will entertain questions, if it's appropriate, 
later.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Abshire follows:]

  Prepared Statement of Sheryl Abshire, Chief Technology Officer and 
  District Administrative Coordinator of Technology, Calcasieu Parish 
                             Public Schools
    Thank you, Mr. Chairman and members of the Committee. It is my 
great privilege to testify before this Committee once again about the 
importance of the E-Rate program to my school district, my state and 
the entire nation. For me, this is a particularly special honor as it 
affords me the opportunity to personally thank the Chairman for having 
the foresight to found this now 15-year-old program and the wisdom to 
advocate for changes that will modernize it and secure its long-term 
future.
    My name is Sheryl Abshire and I have been the Chief Technology 
Officer (CTO) for Calcasieu Parish Public Schools in Lake Charles, 
Louisiana for the past 15 years. I have been an educator for more than 
40 years, starting as a second grade teacher in 1973, working as a 
Librarian/Media Specialist during the 1980s, and serving as a Principal 
for two elementary schools during the 1990s. In 1998, I moved into my 
current role as my district's CTO, where I created and implemented my 
district's technology program and coordinate its annual E-Rate 
applications process.
    This hearing today comes at a pivotal moment for the program. E-
Rate has achieved its interim goals of providing at least basic 
connections to the Internet for all of our Nation's schools and 
libraries, regardless of where they are located and the socioeconomic 
status of the communities that they serve. E-Rate supported networks 
have facilitated educational achievement, personalized and virtual 
learning courses, and online professional development for millions of 
students and teachers. And E-Rate supported networks have allowed 
library patrons to gain access to employment opportunities and 
government services. However, unless significant steps to bolster the 
E-Rate are not taken promptly, I fear that the sun will set on this 
incredibly successful program.
    I am here today to join my voice with the voices of Chairman 
Rockefeller and FCC Commissioner Jessica Rosenworcel in declaring the 
need for an E-Rate 2.0. In my view, any serious effort to change the 
program must start with increasing E-Rate's annual support for the long 
term. For years, my colleagues and I have shouted from the rooftops 
that E-Rate was in danger of evaporating because of escalating need for 
its support with no significant funding increase to match. Now, we 
stand on the threshold of internal connections support becoming extinct 
and telephone and Internet access support facing cutbacks. We cannot 
let this happen.
    Just as important as more funding are new goals for the program. E-
Rate needs to move beyond assessing whether a classroom or library has 
an Internet connection to determining whether that connection's speed 
meets the needs of users who seek to access and use the most up-to-date 
digital content, courses, resources, services and tools. Clear goals 
that do not meet that standard will not effectively chart E-Rate's into 
the future.
    My recommendations on E-rate 2.0 arise from my long history with 
the program as well as in state and national education policy. 
Currently, I serve as a Board Member of the Consortium for School 
Networking, a non-profit organization that was instrumental in securing 
the E-Rate's passage. I have also participated in the refresh of the 
National Education Technology Standards as a member of the 
International Society for Technology in Education, a large ed tech non-
profit that was also deeply involved with the launch of the E-Rate. 
Finally, I just completed a four-year term as one of the K-12 education 
association representatives on the Schools and Libraries Committee of 
the Universal Service Administrative Company (USAC), which administers 
E-Rate and the other Universal Service programs.
    Please allow me to give you a little background on my district and 
its network, why technology infrastructure matters to our district, how 
we paid for this all, and where we need to go from here.
Calcasieu and the Network
    Today, Calcasieu is the fifth largest district in Louisiana, where 
nearly 5,000 employees educate more than 33,000 students, working out 
of 59 schools and 17 district office sites. Our district's wired 
network infrastructure supports 35,000 network devices over a Wide Area 
Network (WAN) connection that delivers broadband Internet access at 100 
mbps. Our network is supported by a fiber optic backbone to all sites 
that is interconnected by over 1200 network switches and 65 virtual 
servers and 53 physical servers. The services that Calcasieu's network 
provides include:

  <bullet> Internet resources

  <bullet> Network storage

  <bullet> Wireless access

  <bullet> Student information systems

  <bullet> Virtual learning platforms

  <bullet> Voice Over IP (VoIP)

  <bullet> Environmental controls

  <bullet> Online testing

  <bullet> Video security systems

  <bullet> Access control systems (door entry)

  <bullet> E-mail

    Aside from our wired connections, Calcasieu's robust wireless 
infrastructure supports a network of 3,000 wireless access points. As 
the number of mobile devices increases with the implementation of Bring 
Your Own Device and 1-to-1 initiatives, this wireless connectivity is 
becoming a resource that is required for student learning devices.
Why Technology Infrastructure Matters to Calcasieu
    Why must Calcasieu have such a robust network? The answer is 
simple: unbelievable demand for online educational resources and the 
need to communicate. Overall, on any given day, peak usage of our 
network's infrastructure reaches 90-95 percent of its capacity with 
over 9,000 users accessing the network at the same time.
    What do Calcasieu's users access? For one thing, they use Calcasieu 
virtual learning system, which offers a rich learning environment 
conducive and supportive of today's students and educators. Beyond 
accessing content, today's students--and their teachers!--are also uber 
communicators and they make heavy use of the network for e-mail. At 
Calcasieu, all staff and students having access to e-mail accounts and 
a total number of 35,000 e-mail accounts exist on our network. Even 
more staggering, 250,000 e-mails are exchanged on Calcasieu's network 
each day.
    Where is the proof that this network matters educationally? If 
testing is any measure, student test scores have improved dramatically 
with the advent of technology in Calcasieu and across the entire state. 
Between 1999, the year after the E-Rate began, and 2011, student 
subgroups that traditionally struggle on exams--students with special 
needs, low-income students and African-American students--saw their 
academic proficiency on state exams grow, respectively, by 31 
percentage points, 26 percentage points and 26 percentage points. In 
Calcasieu, over the past five years, we have seen measurable progress 
in proficiency as well;

  <bullet> English/Language Arts improved 6 percentage points--71 
        percent in 2009 to 77 percent in 2013;

  <bullet> Math improved 4 percentage points--70 percent in 2009 to 74 
        percent in 2013;

  <bullet> Science improved 4 percentage points--68 percent in 2009 to 
        72 percent in 2013;

  <bullet> Social Studies improved 4 percentage points--71 percent in 
        2009 to 75 percent in 2013.

    While all of these gains are not directly attributable to our 
network and the E-Rate, there is no question in my mind that technology 
and broadband access have played a significant role. Two examples from 
Calcasieu make this case well:

  1.  Frasch Elementary in Sulphur, a rural Title l school with over 50 
        percent of its students on the Federal Free and Reduced Price 
        Lunch Program, immerses its students in a high-tech 
        environment. Teachers and students have robust Internet access 
        and unlimited access to technology tools, hardware, and 
        software. Perhaps most importantly, Frasch staff make ample use 
        of just in time/job embedded staff development in the strategic 
        use of technology to improve student achievement. As a result 
        of this strong technology implementation, the school has 
        experienced huge gains in student achievement over the past six 
        years, with its School Performance Score growing from 108.4 to 
        121.8 points. Indeed, Frasch has grown to be recognized as an 
        ``A'' school in the Louisiana accountability system.

  2.  Nelson Elementary School is an urban Title 1 school with in 
        excess of 50 percent of their students on free and reduced 
        lunch. In addition to its high poverty challenges, 17 percent 
        of Nelson's students have English as their second language. 
        Like Frasch, Nelson has sought to improve its academics with a 
        strong technology program. Thus, every classroom is equipped 
        with at least 10 iPads, a Promethean Board and a variety of 
        other cutting edge technology and interactive tools. The school 
        also has five ACTIVtables, two Laptop Labs and one Successmaker 
        Desktop Lab. Parents are able to check grades online and view 
        student assignments and student work via its online learning 
        portal. The school library has a rich resource of e-books 
        available online. Also like Frasch, this high tech model has 
        yielded significant results: its 2012 state School Performance 
        Score of 118.4 represents a 16 percent increase since 2008; it 
        received a state designation as a school of Recognized Academic 
        Achievement and a High Gains Award; and it has now been 
        designated as a Model Inclusion school.
How Calcasieu built the network
    Eight years ago, I testified before this Committee about how vital 
the E-Rate program had been in transforming Calcasieu from a technology 
backwater into a nationally recognized digital district. At that time, 
Calcasieu had received $4 million in E-Rate support to establish 100 
mgps connections for the 11,000 desktop computers that we had then 
(about a third of what we have today). Back then, I indicated that the 
vast majority of these funds had been used to support plain old 
telephone service, cellular phone service, the installation and upgrade 
of a high-speed network to all of our 59 schools, and the bandwidth 
used by our compressed video services. Mobile wireless devices like 
tablet computers, which are proliferating in schools nationwide, did 
not exist then, nor did online assessments. I concluded my statement in 
2005 by calling E-Rate ``a blessing for my district'' and stating: 
``Our students, teachers, library/media specialists and administrators 
have all benefited greatly from the distance learning courses, online 
professional development, and the wealth of Web-based material that the 
E-Rate has put at their fingertips. We continue to make significant 
progress academically in our schools, which, in no small measure, is 
helped by the E-Rate.'' Given all that has happened in Calcasieu since 
then, truer words I have never spoken.
    In 2005, six months after I testified here, Hurricane Rita ravaged 
Calcasieu Parish and its public schools and tore apart much of the 
infrastructure that Calcasieu had spent eight years building. E-Rate 
supported infrastructure played a significant role in helping the 
district react quickly to the disaster, allowing the district's still 
operational internal networks and e-mail system to make payroll for its 
more than 4,000 employees just days after the hurricane and 
facilitating communication and online learning amongst students, 
parents and educators that Rita had scattered. However, the damage to 
the network we built was substantial.
    Fortunately, the E-Rate was there to come to our rescue. Over the 
past seven and a half years, we relied on E-Rate support to rebuild our 
network and expand its reach. Using $14 million in E-Rate support 
received since 2006, we upgraded our network to serve more than three 
times as many devices as we were serving before Hurricane Rita and 
established a robust wireless network to support the burgeoning number 
of mobile wireless devices in our schools today. Specifically, E-Rate 
helped us defray the network costs for over 1,200 network switches and 
over 3,000 wireless access points. It allowed us to upgrade our wired 
infrastructure to broadband levels. Additionally, E-Rate support proved 
critical as we converted the district's telephone system to Voice Over 
IP (VOIP), which now includes over 1,300 VOIP phones and network 
storage for voice-mails associated with all telephone extensions. 
Without E-Rate, we might never have recovered from Rita and could not 
have expanded our network to serve the district's learning and 
technology needs.
Where Calcasieu and E-Rate go from here
    Even with E-Rate's incredible support and the high quality network 
in Calcasieu that it helped build and maintain, my job--and E-Rate's--
in Calcasieu is far from completed. Calcasieu's need for still more 
bandwidth far into the future is readily apparent. Right now, we are 
preparing for online academic assessments, requiring even greater 
levels of bandwidth, which will be arriving as soon as next year in 
Calcasieu and Louisiana. Moreover, in the wake of the tragedy at New 
Town in Connecticut, we are stepping up our technology security 
measures, installing video security systems and door entry systems, 
both of which require reliable network connectivity. Finally, our 
students and teachers are interacting with new and valuable online 
educational content, services and tools each day, all of which place 
still greater bandwidth demands on our network. Thus, our need for E-
Rate goes on.
    Unfortunately, Calcasieu's need--as well as the Nation's need--for 
more E-Rate support is colliding with the reality of E-Rate's 
inadequate funding. The program's $2.25 billion annual cap was set back 
in 1998, well before tablets and smart phones existed, and is simply 
insufficient to meet school and library demand some 15 years later. 
Indeed, this year's estimate of program demand--$4.986 billion--is more 
than double available funds. Based on my experience, that demand is 
actually lower than actual need as many districts forego applying for 
Priority 2 services as they know they have almost no chance of 
receiving support. Even more alarming is the fact that the growth in 
Priority 1 services demand--a 10 percent increase this year alone--is 
leading to de facto elimination of Priority 2. Experts expect that the 
increased demand for Priority 1 services this year, $260 million more 
than last year for a total of approximately $2.7 billion, will likely 
lead to no available funding for Priority 2 internal connections 
services. And if the trend of increasing demand for Priority 1 holds 
true next year, even Priority 1 applicants may have to receive reduced 
discounts.
    We cannot allow E-Rate to slowly expire. I agree with Chairman 
Rockefeller, FCC Commissioner Jessica Rosenworcel and the President 
that we need a plan to put E-Rate back on track--an E-Rate 2.0, if you 
will. For me, that plan starts with more funding. And when I recommend 
more funding, I am not talking about a one-time surge that, when it 
ends, returns E-Rate to current funding levels. In my opinion, we need 
a permanent increase in the E-Rate's annual cap that, at a minimum, 
meets current demand. Additionally, I believe that the FCC should 
consider establishing a regular look-back period, perhaps every five 
years, to assess whether the program's funding levels adequately meet 
demand.
    Aside from more funding, I agree with Commissioner Rosenworcel that 
bandwidth targets are an important piece of E-Rate 2.0. When the 
program began in 1998, we only measured the fact of classroom and 
library connections and were thrilled when virtually all schools and 
libraries achieved some sort of Internet connection. However, a low-
bandwidth connection 15 years ago does not begin to meet the immense 
bandwidth needs entailed by the explosion of online content, 
assessments, tools, services and communications present in today's 
classroom. For E-Rate 2.0, I believe we need to set well-reasoned, 
achievable bandwidth goals for classroom and device connectivity that 
reflect the needs of modern education. I think it vital that these 
goals be based on data and that they take into account the different 
needs and demands of rural, urban and suburban schools and libraries. 
Like E-Rate's funding level, I support periodic reappraisals and 
adjustments of these bandwidth goals.
Conclusion
    I thank the Chairman for holding this hearing on this most 
important subject and look forward to supporting his and the FCC's 
efforts to protect and preserve the E-Rate program. Calcasieu, 
Louisiana and the Nation are fully behind the E-Rate.

    The Chairman. No, thank you very, very much, Ms.--Dr. 
Abshire. I apologize.
    Next is Ms. Linda Lord, State librarian, Maine State 
Library. And, obviously, you've got to think immediately of 
Olympia Snowe. But, also, Ms. Lord is the current chair of the 
American Library Association's E-Rate Task Force and as the E-
Rate liaison for the Association of State Library Directors.
    We're happy that you're here, Ms. Lord. And please proceed.

       STATEMENT OF LINDA H. LORD, MAINE STATE LIBRARIAN

    Ms. Lord. Thank you. Good afternoon. I am Linda Lord, the 
Maine State Librarian. I want to thank Chairman Rockefeller, 
Ranking Member Thune, and members of the Committee for this 
opportunity to testify on the success of the E-Rate Program and 
the needs of our 16,000-plus public libraries across the 
country who serve 30 million people each week.
    The E-Rate Program has transformed libraries and the 
technology resources we offer our communities. In 1996, only 28 
percent of our public libraries provided public Internet 
access, compared with nearly 100 percent today. E-Rate has been 
fundamental to ensuring equity of service to online 
educational, workforce, and government resources for all of our 
citizens.
    Frankly, we're at a turning point where we can continue to 
watch demand overwhelm the E-Rate Program or we can step boldly 
forward with a proactive vision for meeting the educational and 
learning needs of our communities for the next 15 years and 
beyond.
    How information is delivered and shared is changing at an 
incredible rate. Learning in libraries and schools increasingly 
relies on interactive online experiences, and capacity needs 
are also growing as job training, continuing education, and 
Government agencies use streaming media and Web-delivered 
videos to reach our communities.
    When the Maine School and Library Network was formed, in 
1996-1997, we were thrilled to connect our schools and 
libraries with 56-kilobit-per-second connectivity and FRADs, 
frame relay access devices. And when people from Cisco said, 
``You need to think ahead to routers,'' we said, ``Oh, no we 
don't. We're so thrilled with this connectivity we have.'' We 
didn't have the vision to begin to see how quickly things would 
move.
    A single patron watching a high-definition video today will 
consume nearly all of a T-1 connection, leaving other patrons 
limited access to the Web. Inadequate bandwidth stifles a 
library's ability to provide new services, such as interactive 
online homework help or digital learning labs. I'm old enough 
to remember when it took 20 minutes to achieve a dial-up 
connection. In fact, while I'm confessing, I'm old enough to 
remember telephones mounted on the wall, where you cranked to 
reach the operator, and, if the person wasn't home, you said to 
the operator, ``Where are they?''--and they told you. It was--
--
    [Laughter.]
    Ms. Lord. Things have certainly changed since my youth.
    In 1998, I could not have envisioned the program libraries 
offer today. For instance, in Maine we are using interactive 
videoconferencing technology to connect rural Mainers with 
volunteer attorneys who offer clinics to library patrons on 
topics like filing taxes or debt counseling. So, a lawyer comes 
into the Maine State Library, does an hour-long presentation, 
answers questions from videoconferencing centers from around 
the state. And then, on May 1, we had a day when every county 
in Maine had at least two libraries with lawyers in them, where 
people could meet with the lawyers and get free legal help. I 
think that's probably one of the original things that's 
happened in the country. I can't guarantee that, but I don't 
know of other states who have done it.
    Libraries provide technology-rich programs for young 
people. And an example of this comes from the Cherryfield 
Public Library. And, frankly, in Maine terms, with all due 
respect to Cherryfield, it's in the willy wacks. There are 
1,200 citizens in Cherryfield, but that little library, through 
videoconferencing, brought in 28 elementary students to view a 
live program on flight from the Smithsonian Institution. This 
would not have been possible even 5 years ago.
    Libraries are also keys to the success of nontraditional 
students, such as Maine's 5,000 homeschoolers. Learners of all 
ages use libraries to take online courses. They cover areas not 
available locally. And students use libraries and online data 
bases to prep for GED courses, the ASVAB tests, and other 
tests. We also help adults who need to improve and develop 
their job skills and take necessary courses to qualify for 
better jobs. Public libraries serve everyone from preliteracy 
to Medicare Part D. And I do mean that literally.
    Chairman Rockefeller really gave my testimony, but I 
thought, since I'm here, I might as well keep going with it.
    We had a young man in Holton who went to McDonald's to 
apply for a job. And I'm sure you all know, even though nobody 
here has applied for a job at McDonald's, that you have to 
apply online. Well, this young man didn't have a clue, but he 
did know, if he needed help, he should go to his library. They 
found the forms for him. They helped him apply online. And 
then, the last thing he read on the application was, ``We will 
notify you of an interview, if you receive one, by e-mail.'' He 
didn't have an e-mail address. He didn't know how to get an e-
mail address. The library set him up. He went back to the 
library each day to check his e-mail to see if he had an 
interview. And that's happening all over the country. It's an 
incredibly wonderful service libraries offer.
    Maine is the least-densely populated state east of the 
Mississippi, but our Maine School and Library Network reaches 
even the most remote citizens. The public library in Maine is 
the only place for free Internet access in 77 percent of our 
communities. We're not exactly studded with Starbucks.
    Our libraries and schools would have not have connectivity 
and all that it brings to their communities if it were not for 
E-Rate. And I highlighted that sentence in my remark. I mean 
that most sincerely. We would not have connectivity and all 
that it brings to our schools and libraries if it were not for 
E-Rate. However, it's not enough to be connected; we need high-
speed, reliable connections, like the one at the Omaha Public 
Library, for example, that ensured one patron could Skype into 
three interviews with Boeing before being offered a job. And we 
also need upload capacities that rival download speeds for 
small businesses to upload large packets of information into 
the Cloud.
    In 2010, the FCC report on the E-Rate Program said that 80 
percent of applicants reported their connectivity was 
inadequate. The current level of telecommunications and 
information services demands E-Rate 2.0. Today, through the 
ConnectED initiative and the upcoming E-Rate proceedings, we 
have an opportunity to address this shortfall and lay the 
groundwork to meet future needs.
    In closing, libraries are vital community technology hubs, 
and we simply cannot allow inadequate bandwidth to be the 
limiting factor for what our students and our nations can 
achieve.
    And, in conclusion, I do want to acknowledge the bipartisan 
effort and support for the E-Rate Program by Chairman 
Rockefeller and Maine's original E-Rate champion, Olympia 
Snowe, as well as to others who have supported this critical 
program over the years.
    Thank you for this opportunity to share the library 
experience at this very formative time in the E-Rate Program.
    Thank you, Chairman.
    [The prepared statement of Ms. Lord follows:]

       Prepared Statement of Linda H. Lord, Maine State Librarian
    Good afternoon. Thank you Chairman Rockefeller, Ranking Member 
Thune, and members of the Committee for inviting me here today to 
testify about how the E-Rate program has enabled libraries to connect 
our communities and how we might further strengthen the program to 
better support digital learning.
    My name is Linda Lord, and I am the Maine State Librarian. Before 
joining the state library 14 years ago, I spent 16 years as a school 
librarian at the Mount View Junior/Senior High School in Thorndike, 
Maine. Today I am honored to speak on behalf of Maine's libraries, part 
of the more than 16,000 public libraries in the U.S., about the role of 
the E-Rate program in helping libraries ensure that no one is excluded 
from digital opportunity.
    This hearing is focused on the role of E-Rate in maximizing access 
and use of technology to benefit every child in America. I am proud of 
the role that both our libraries and schools play in giving our young 
people the opportunity to develop the critical thinking and 
technological skills they need to succeed in today's economy and 
prepare them for tomorrow's economy too.
    I would be remiss if I did not pause here to acknowledge the 
bipartisan support for the E-Rate program by Chairman Rockefeller and 
Maine's original E-Rate champion, former Senator Olympia Snowe, that 
lead to the establishment of the E-Rate program. The citizens of Maine 
are deeply indebted to the foresight and commitment of these two 
leaders as well as to others who have supported the program over the 
years.
    It has been my pleasure to work with students and their parents in 
rural Maine (Thorndike, population 890) and now, as State Librarian, to 
serve the 1.3 million residents across our state. Our libraries serve 
everyone, from the remote areas in western Maine, to Downeast 
Washington County (which is a county the size of Delaware and Rhode 
Island combined but with a population of just 32,000), to Portland, our 
most populous City of 66,000.
    Though Maine is the least densely populated state east of the 
Mississippi, our library system reaches citizens in the most far-flung 
parts of the state. In the summer months, our libraries allow visitors 
to stay longer, relying on the Internet at the local library so they do 
not have to completely ``unplug'' from work. Speaking as someone very 
familiar with the phone-as-an-appendage for all teenagers, we know that 
while parents are responding to work e-mails, their kids are staying in 
touch with friends and often using the library Wi-Fi to read the latest 
thread on Tumblr. I actually heard a story that a teen was on the 
library porch reading a Stephen King book on her iPhone using the 
library's Wi-Fi connection instead of reading the print book from the 
library. How people use our libraries and our internet-enabled services 
continues to change every year.
    I've been involved with the E-Rate program since the beginning, and 
I have witnessed the tremendous positive impact it has had throughout 
Maine and indeed nationwide. As State Librarian, I am also a member of 
the Chief Officers of State Library Agencies (COSLA) and regularly hear 
from my colleagues about the role E-Rate has in their own states. In 
Nebraska, for instance, a resident of the Dundee neighborhood has been 
coming into the Sorensen Branch of the Omaha Public Library with her 
laptop to Skype into job interviews. I'm thrilled to report she 
ultimately received a job offer from Boeing. Web and videoconferencing 
are amazing--and bandwidth-intensive--tools for closing distances 
across our vast nation.
    I have also served as Chair of the American Library Association's 
E-Rate Task Force for the last four years and thus have a deep 
appreciation for the intricacies of the program, the issues that most 
concern library applicants, and how the program has only become more 
vital to libraries in a more complex technology landscape. I will be 
sharing share some E-Rate successes with you today.
    I'm old enough to remember the days of dial-up when you had to 
listen to that annoying modem sound and hope that you could get a 
connection. Clearly, we are in a different place today. So are our 
libraries. In 1996, only 28 percent of public libraries provided public 
Internet access, compared with over 99 percent who report this is the 
case today.
    The E-Rate program has transformed libraries and the technology 
resources we offer our communities since 1998. According to a 2013 Pew 
Internet Project report the availability of computers and Internet 
access now rivals book lending and reference expertise as vital library 
services. Seventy-seven percent of Americans say free access to 
computers and the Internet is a ``very important'' service of 
libraries, compared with 80 percent who say borrowing books and access 
to reference librarians are ``very important'' services.\1\
---------------------------------------------------------------------------
    \1\ http://libraries.pewinternet.org/2013/01/22/library-services/
---------------------------------------------------------------------------
    The most recent downturn in the economy has further established the 
critical importance of the E-Rate program. The downturn hit Maine hard, 
as it did so many communities across the country. We see the lingering 
effects in our libraries. In 2012, 60 percent of public libraries 
reported an increase in use of their public access computers from the 
previous year (on top of the 69.8 percent increase reported in 2010-
2011 and the 75.7 percent reported in 2009-2010). Librarians consider 
the provision of public Internet services to job seekers the most 
important service to their communities, followed by access to 
government services and providing educational resources for K12 
students. Ninety-two percent of all libraries report they provide 
access to jobs databases and other job opportunity resources.\2\
---------------------------------------------------------------------------
    \2\ http://www.ala.org/research/plftas/2011_2012
---------------------------------------------------------------------------
    Many of our residents struggle with inadequate resources to meet 
basic necessities and depend on the library to stay connected. Families 
come to the library so that their kids can work on homework 
assignments, some bringing their own laptops to use the library's Wi-
Fi. More people use our computers and Internet access to look for and 
apply for jobs or to recertify for a new position. In Maine the public 
library is the only place people can go for free Internet access in 77 
percent of our communities. Nationwide, 62 percent of libraries report 
this is the case. When so much of what we do today is dependent on 
having a high quality Internet connection, the library has become a 
lifeline. Our libraries could not provide this basic service without E-
Rate.
    As we all hoped in 1996, the E-Rate program has transformed 
libraries for the digital age. It remains a critical Federal 
telecommunications funding source that goes directly to libraries, and 
it has done a tremendous job in connecting them. Today we can boast 
that nearly all libraries provide public Internet access and about 91 
percent provide access to Wi-Fi, an increasingly important service in 
our communities. Though our libraries are connected at some level, the 
issue today is the quality or speed of that connection, which is often 
inadequate.
    We must strengthen and add to the capacity of the E-Rate program to 
ensure libraries and schools are equipped to engage students and 
learners in the 21st century. I would like to share with you some 
examples that illustrate the internet-enabled services supported by the 
E-Rate program that libraries provide their communities. I will also 
talk about what we see on the horizon.
    The nature of how information is delivered and shared is changing. 
Education increasingly relies on networked and online experiences. 
Whether it's checking for an assignment through a course management 
system, watching a biology video on YouTube, or practicing French 
pronunciation via a librarian-selected tutoring website, K12 students 
at the library are eating up the available bandwidth. This problem is 
exacerbated as job training programs, continuing education instruction, 
and government officials (e.g., local, state, and Federal elected 
officials) increasingly rely on streaming media and Web-delivered 
videos to reach individuals across the country and they often promote 
the library as the place to receive this information. A single patron 
watching a high-definition video will consume nearly all of a 
traditional T-1 (1.5 Mbps) connection, leaving other patrons using the 
library's other computers or personal laptops with intermittent or no 
access. Inadequate bandwidth also limits a library's ability to 
effectively provide new Internet services, such as interactive online 
homework help or videoconferencing, let alone the full spate of 
emerging technology-enabled services, some of which we have not yet 
imagined but for which we need to be prepared.
    As you know, the Internet is a vastly different place than it was 
in 1996 with the proliferation of social media and production tools 
pushing the envelope of what we expect to be able to do online--
Facebook, Flickr, and Gmail began in 2004, YouTube in 2005, Twitter in 
2006, Google Docs in 2007, and now Instagram and Pinterest, which to 
tell you the truth, I am not even sure how to use, though our young 
people are adept at all of them.
    In 1998, the first year of the E-Rate program, I could not have 
envisioned a new program we now offer through Maine libraries. We use 
videoconferencing technology to connect rural Mainers with volunteer 
attorneys in our ``Lawyers in Libraries'' program. We offer clinics in 
real-time on various legal topics like filing taxes, renter's rights 
and responsibilities, and debt counseling to any public library patron. 
Our program also allows low-income residents to set up private 
consultations using the same video conferencing technology.
    Even our small libraries can provide connections to information and 
experiences outside their local communities. The director of the 
Cherryfield (Maine) Public Library, which serves a population of about 
1,200, told me about a partnership with the Smithsonian's Interactive 
Video Conference Program here in Washington. The library hosted 28 
elementary students to view in real-time an exhibit at the Smithsonian. 
These students would otherwise not be able to experience the resources 
available through these virtual field trips. This library also has had 
a video conferencing program with the IRS for small businesses.
    I couldn't be more impressed with what our libraries are doing, and 
know similar things are happening in other states. As a matter of fact, 
the Jessamine Public Library in Nicholasville, Kentucky recently 
partnered with one of its local elementary schools to offer a virtual 
field trip for students and their families to the Texas State Aquarium 
located in Corpus Christi. The aquarium has video cameras located 
around the facilities that allow the audience to experience their 
exhibits live. Guided by a docent at the aquarium, students visited the 
various habitats and saw the birds, sea turtles, river otters, fish, 
sharks and dolphins that make up some of the attractions. Enabled by 
strong and reliable Internet connection, these children could take part 
in a unique educational experience.
    These stories should be commonplace in the coming years and, in 
fact, can be if libraries have access to affordable high-capacity 
broadband connections. I know it is the backbone of E-Rate support that 
lets the library provide these dynamic services, but the message here 
is that there is a group of kids that were connected outside of their 
small community to a learning opportunity that would not have been 
possible even five years ago. Librarians think this is just the 
beginning.
    But there aren't nearly enough of these stories and there could be 
many more with adequate bandwidth. In a 2010 FCC report on the E-Rate 
program, 78 percent of applicants reported their connectivity was 
inadequate. There is clearly more work to be done, and the ConnectED 
initiative provides a perfect and timely opportunity to ensure that 
libraries and schools are prepared to meet the 21st century needs of 
their patrons and students. As we consider changes necessary to build a 
robust and sustainable E-Rate program for everyone, we must also be 
mindful of some of the unique challenges our small and rural libraries 
have in securing adequate bandwidth and securing the E-Rate funding 
they require. Though progress has been made, there are still areas 
where libraries just can't get the bandwidth they need because it isn't 
there or the costs are too high to reach where it is. And, when it 
comes to the E-Rate application process we must consider processes that 
encourage smaller libraries to apply. We must not let bandwidth be the 
limiting factor in the services libraries can provide our communities.
    I would like to talk a little about Maine's most precious resource 
and one we are pinning our hopes for the future on--our young people. 
Among all the challenges they face upon leaving high school, whether 
it's to enter the workforce or go on to higher education, we must make 
sure that they are equipped with the skills necessary to be successful, 
to be engaged citizens, and to contribute to the well-being of their 
communities as well as our global economy. In reality this means that 
they must have access to high-quality and technology-rich educational 
experiences at the snap of the fingers--or really with the tap on a 
device.
    Maine was a forerunner in the one-to-one computing trend with then-
Governor Angus King working hard to provide all our middle-school 
students with laptop computers. Since then we have seen the program 
blossom not only in Maine, but also in other states. As most anyone 
visiting their public library in the afternoon knows, many of these 
students head to the library after school to connect via the library 
Wi-Fi, to work on homework assignments and research resources, and to 
get assistance from librarians. Public libraries support learners at 
all ages and stages. We are the wrap-around support network that 
supports K12 students after the school bell rings and after the school 
doors close for the summer. Through data from the Pew Internet and 
American Life Project we know that 70 percent of parents report that 
their child visited the public library in the past 12 months.\3\ Of 
these, 77 percent of children ages 12-17 went to the library to do 
school work; this is true of a majority of all children. Together 
libraries and schools ensure that learners have access to technology-
enabled and personalized educational opportunities during the school 
day--and beyond--via libraries. Through this partnership, our students 
have the broad support they need, and always have learning 
opportunities in front of them.
---------------------------------------------------------------------------
    \3\ http://libraries.pewinternet.org/2013/05/01/parents-children-
libraries-and-reading/
---------------------------------------------------------------------------
    In addition to supporting traditional K12 education, libraries are 
a key ingredient to the success of our non-traditional students, such 
as home-schooled students that now number more than 1.5 million. In the 
Santa Maria (Calif.) Public Library, for example, there are two 
classrooms in the library, run by local high school teachers, which are 
dedicated to the Santa Maria Joint Union High School District home 
school program.
    Students--particularly those in rural areas who may not have access 
to AP or specialized STEM classes--taking distance education courses to 
augment the local curriculum, regularly turn to the library for 
Internet access to take these classes. In many cases, libraries also 
serve as proctoring centers. We have numerous examples, such as in 
Florida, where K12 education is becoming a hybrid model that includes 
online learning. We anticipate seeing more of these students in our 
libraries. Many students also prepare and take practice tests--
including for the GED or SAT--in our libraries, and we expect to see 
increased use as the GED test is revamped and more states switch to 
computerized GED testing, which will be only online beginning in 2014.
    Libraries also support adult learners and continuing education for 
those who may not have received the education they needed early in life 
or need to retool for new job prospects. At one of the branches of the 
Chattahoochee Valley Libraries system in Georgia, for example, a patron 
taking online classes needed to take an online, proctored test. This 
also involved a device to monitor him and take a fingerprint. The 
library staff set up the necessary device and installed the software he 
needed in one of the offices so that he would have privacy. The library 
reported he passed his test and is so pleased that he hasn't yet 
stopped telling anyone who will listen, ``how much [the] library cares 
about our education.'' Libraries are essential for making sure everyone 
has the skills they need to be part of the 21st century workforce.
    We cannot contemplate fulfilling the needs of these students (or 
adult learners) unless our libraries have access to affordable, 
reliable, high-speed broadband connectivity. From my colleagues across 
the country I hear stories from their local libraries about needing 
more bandwidth. In Wisconsin one regional library system relied on the 
E-Rate program to add an additional 100 Mbps of bandwidth when the 
network reached capacity for its 49 member libraries. In Indiana, a 
library director said she used to think a T1 line was sufficient, but 
quickly found that it was nowhere near enough. The library doubled, 
then tripled its broadband capacity, then jumped to 15 Mbps as staff 
reported that patrons quickly used capacity as it was added. By 
revamping the E-Rate program we have an opportunity to address this 
shortfall and lay the groundwork to address future bandwidth needs.
    Now let's look a little into the future. Just as libraries in 2013 
are not the library we remember in 1998, we are beginning to see other 
emerging trends. Libraries are providing innovative services that are 
technology-rich and build on developing skills learned in the formal 
classroom setting. One form this is taking is the creation of digital 
media learning labs and makerspaces. For example, The Labs at the 
Carnegie Library of Pittsburgh offer young people an opportunity to 
produce rich, multi-media products using the latest technology tools 
while connecting these learning experiences directly back to school and 
careers. There is a specific emphasis on STEM education, and the Lab 
devotes significant resources to developing interest and ability in 
STEM areas. Digital learning labs are not confined to large urban 
libraries, however. The Allen County Public Library in Fort Wayne, 
Indiana, provides a maker space to encourage innovation and 
entrepreneurship. In collaboration with the John D. and Catherine T. 
MacArthur Foundation, the Institute of Museum and Library Services is 
funding the creation of up to 30 learning labs.
    Libraries are also beginning to leave their physical spaces and 
find opportunities to bring their services out into the community. In 
Philadelphia, the Free Library brings its services into the community, 
literally. The Hot Spot Techmobile brings Internet access, computers, 
and digital literacy training to where the city's most vulnerable 
citizens are.
    These and services like them are sprouting up in libraries across 
the country and are part of the wave of the future in library service. 
Libraries feel the urgency that schools, colleges, and businesses feel. 
We must have students prepared for the competitive global economy as 
they are the key to the future success of our country. The momentum is 
now, and we must seize the opportunity to ensure the E-Rate program 
continues to support libraries and schools so that we can do our job by 
the current and future generations of young people.
    As with people, there are ``early adopter'' libraries beginning to 
leverage gigabit networks, as well as libraries that are farther down 
the technology curve. We must take lessons from both of these groups. 
And, we must find solutions that help libraries bridge this gap by 
ensuring libraries have access to affordable, high-capacity broadband 
no matter if they are in a rural remote or urban location or somewhere 
in between.
    As we embark on E-Rate 2.0 to keep pace with the technology 
platforms our students access today, as well as plan for tomorrow's 
needs, we must lay the groundwork carefully and with purposeful goals. 
E-Rate has meant a world of difference to libraries, but it was 
designed in a vastly different technology landscape. We know now that 
the connectivity needed to support our K12 students and our broader 
communities is far greater than we might have imagined 17 years ago. We 
also know the need is far greater than the current program can support.
    The original mission of the E-Rate program--to provide libraries 
and schools with advanced services--is still valid and necessary. But 
the technological landscape continues to push the boundaries of 
libraries' Internet capacities, and as Cisco's Internet traffic 
measurement studies demonstrate, there is no end in sight to the demand 
for high-capacity Internet access. Many libraries are going to need 
fiber optic cable connections that can provide a ``future-proof'' 
platform for increasing capacity simply by changing the electronics at 
either end of the fiber. Investment in fiber will pay dividends for 
decades into the future and will ensure that libraries do not have to 
keep playing catch-up with the emergence of every new application.
    Due in no small part to the leadership of Senators Rockefeller and 
Snowe, the E-Rate program from its inception focused on providing high-
capacity transmission services to libraries and schools. The purpose of 
the E-Rate program is to ensure that libraries and schools have the 
underlying telecommunications and broadband capacity to carry the next 
generation of Internet-dependent services. This focus on transmission 
provides a foundation for future growth and the development of new and 
innovative services. Without question the job is not over. As 
technologies continue to change, the E-Rate program must adapt as well. 
The current level of telecommunications services demands an E-Rate 2.0. 
Revisiting the E-Rate program with the goal of bringing the highest 
capacity broadband possible into communities across the country was 
initiated through the National Broadband Plan in 2010 with the 
recommendation that communities have access to 4 gigabit service so 
that anchor institutions, like libraries, can provide advanced and 
innovative services to all who need them.
    The fundamental question before us today is how do we most 
effectively harness the opportunities enabled by technology for the 
benefit of our young people and, through them, our society? While our 
vision for the future may differ in some fashion, and the path forward 
may have variations, I think we can concur that it will be technology 
rich and heavily dependent on a robust broadband infrastructure. We 
already see a trend towards more diffuse networking capabilities in 
large swaths of the population which means more demand for technology-
based services.
    This is an exciting opportunity for libraries as we contemplate new 
avenues to serve our communities. It's a critical juncture for our 
Nation. For libraries, what we can achieve for K12 students and our 
communities depends to a great degree in the continued success of the 
E-Rate program which in turn depends up on how we shape E-Rate 2.0.
    In closing, libraries are vital community technology hubs, and we 
simply cannot allow inadequate bandwidth to be the factor that limits 
what our students and our Nation can achieve. We are at a turning point 
with ever changing technology and the need for a 21st century workforce 
where we can continue to watch demand overwhelm the E-Rate program or 
we can step boldly forward with a proactive vision for meeting the 
educational and other learning needs of our communities for the next 15 
years and beyond.
    But like the true Mainer I am, I believe in not losing sight of 
what works while at the same time allowing for the space to for 
necessary changes. As we re-envision the E-Rate program for the future, 
we should be mindful of bringing along the successful elements and 
build on that firm foundation. Libraries are committed to making sure 
our communities have access to technology and broadband and the skills 
to turn these tools into opportunity for years to come.
    Thank you for this opportunity to share the library experience at 
this formative time in the E-Rate program. I look forward to responding 
to your questions.

    The Chairman. Thank you, Ms. Lord.
    And we go now to Mr. Patrick Finn, who is the Senior Vice 
President at a little company called Cisco Systems.
    [Laughter.]
    The Chairman. And he's here today, standing in for Cisco's 
Chairman and CEO, John Chambers, who could not be here today. 
And he's a native West Virginian, so that--you know----
    Mr. Finn. Yes, sir.
    The Chairman.--everything he says is bound to be truthful.
    [Laughter.]
    The Chairman. Please, sir.
    Mr. Finn. Good----
    The Chairman. And we do have votes coming up, and so we 
want to maximize our time, as well--as best as we can.
    Mr. Finn. Great.
    The Chairman. Was I subtle?
    Mr. Finn. Say again?
    The Chairman. Was I subtle in saying that?
    Mr. Finn. Yes.
    The Chairman. Thank you.
    [Laughter.]

       STATEMENT OF PATRICK FINN, SENIOR VICE PRESIDENT, 
            U.S. PUBLIC SECTOR, CISCO SYSTEMS, INC.

    Mr. Finn. Good afternoon, Chairman Rockefeller, Ranking 
Member Thune, and members of the Committee.
    Our nation's children are in the fight of their lives and 
their future livelihood. In this globally connected world, our 
children aren't just competing against the kids down the street 
for a job or a spot in a college, they're competing with kids 
around the world.
    To compete and succeed, our children need to have the 
latest technology in their hands and access to the world's 
libraries at their fingertips. And this access should not be 
limited to the privileged few, but to all kids, whether in San 
Jose or Shepherdstown or Sioux Falls.
    That's where the E-Rate Program comes in. E-Rate is the 
foundation for Internet access in schools and libraries across 
America. Since its inception, 15 years ago, E-Rate has 
connected over 100,000 schools to the Internet in all 50 
States, and the results have been nothing short of amazing.
    After Hurricane Katrina, Cisco provided $80 million to fund 
the 21st Century Schools Initiative and provide the latest 
network technology to rebuilt schools in Mississippi and 
Louisiana. In Jefferson Parish, the math scores of 8th-graders 
increased by 16 percent between 2005 and 2009. Significant 
gains were also seen in English, science, and social studies at 
all levels. And when Morrisville School District in North 
Carolina invested in wireless technology, the digital devices, 
and digital textbooks, individual students showed 20-to 40-
percent improvements in reading, math, and science test scores. 
Graduation rates increased by 22 points.
    Similarly, videoconferencing technologies allow teachers in 
Long Branch and Fresno School Districts to share best practices 
in realtime. The results? Two thousand more students tested as 
proficient or advanced in math than the year before. That's 
2,000 lives improved through better education and better 
collaboration.
    So, the impact of E-Rate has been significant. But, the 
simple truth is, the technology has dramatically changed over 
the last 15 years, and E-Rate needs to keep up with the times. 
School networks need to be able to handle increased traffic 
from video and digital textbooks, video collaboration, and 
iPads, laptops, and other mobile devices.
    Additionally, these networks should enable remote learning 
and remote network access, especially in rural areas. In these 
areas, graduation rates are less than the national average by 
almost 10 points. This requires high-speed communications at 
speeds far greater than many schools and libraries have today.
    Furthermore, the current E-Rate Program primarily focuses 
on providing a broadband Internet connection to the school and, 
secondarily, to deploying a network within the school. This 
model is no longer sufficient. We need to consider all elements 
of a network, including broadband Internet access, individual 
school networks, and district-level wide-area networks. This is 
how businesses build networks to be cost-effective and to meet 
their communication needs. School networks should operate on 
the same principles.
    So, policymakers should consider three things in 
modernizing the E-Rate Program:
    First, program funding levels have barely changed since 
1998, while the bandwidth and networking needs of the schools 
have dramatically increased. Today, 80 percent of schools and 
libraries believe that bandwidth does not meet their current 
needs. In the early years of the program, the funding met the 
majority of the requests from applicant schools and libraries. 
In recent years, funding has only been available for about half 
of the requested amounts. Funding levels should meet the needs 
of more schools and students, not fewer.
    Second, minimum bandwidth requirements should be adopted, 
based on the size of a school, to ensure that all schools have 
both in-building and district-wide networks that are capable of 
supporting modern educational technologies and devices.
    Third, current E-Rate rules which fund Internet 
connectivity first as Priority 1 services and then send the 
leftovers to fund priority-two networking inside the schools no 
longer make sense. Internet access is an important element of a 
network. Both school districts have to be able to access 
content of their own servers for distribution within the 
district, and the content is meaningless if it cannot be 
delivered to students and teachers through efficient in-
building and district-wide networks. So, the outdated 
distinction between Priority 1 and Priority 2 should be 
eliminated.
    In summary, I believe that our nation's children are in the 
fight for their futures in the context of a globally connected 
world in a rapidly changing technology environment. Modernizing 
the E-Rate Program is a critical investment, which will benefit 
our children and our country by creating a future where we 
build a workforce focused on innovation, competitiveness, and 
job creation.
    Thank you for your attention on this important matter 
today, and I look forward to answering your questions.
    [The prepared statement of Mr. Finn follows:]

      Prepared Statement of Patrick Finn, Senior Vice President, 
                 U.S. Public Sector Cisco Systems, Inc.
    Good afternoon Chairman Rockefeller, Ranking Member Thune and 
Members of the Committee.
    Our nation's children are in the fight of their lives.
    In this globally connected world, our children aren't just 
competing against the kids down the street for a job, or a spot in 
college. They are competing with kids around the world.
    To compete and succeed, our children need to have the latest 
technology in their hands and access to the world's libraries at their 
fingertips.
    And this access shouldn't be limited to the privileged few, but to 
all kids--whether in Silicon Valley, or Shepherdstown, or Sioux Falls.
    And that's where the E-Rate program comes in. E-Rate is the 
foundation for Internet access in public schools and libraries across 
America. Since its inception 15 years ago, E-Rate has connected over 
100,000 schools to the Internet--in all 50 states.
    And the results from connecting schools have been nothing short of 
amazing.
    After Hurricane Katrina, Cisco created the $80 million 21st Century 
Schools initiative to provide the latest networking technology in 
rebuilt schools on the Gulf Coast. In Jefferson Parish, Louisiana, 8th 
grade students' math test scores jumped by 16 percent between 2005 and 
2009. Significant gains were also seen in English, Science, and Social 
Studies at all grade levels.
    And when Mooresville School District in North Carolina invested in 
wireless networking, digital devices and digital textbooks as part of a 
turnaround program, individual students showed 20-40 percent 
improvement in reading, math and science test scores. The school 
district's ranking jumped by 13 points, and graduation rates increased 
by 22 points.
    Similarly, video conferencing technologies allowed teachers in the 
Long Beach and Fresno school districts to share best practices in real 
time. The result: 2,000 additional students tested as proficient or 
advanced in math than the year before--that's 2,000 lives changed 
through better education and better collaboration.
    So the impact of E-Rate has been significant.
    But the simple truth is that technology has changed dramatically 
over the last 15 years, and the E-Rate program needs to keep up with 
the times.
    School networks need to be able handle increased traffic from 
digital books and video, video collaboration technologies, and a wide 
array of mobile devices like iPads and laptop computers.
    Additionally, these networks should enable remote learning and 
remote network access--especially for rural areas, where graduation 
rates are less than the national average by almost 10 points and access 
to specialized instructors who can offer courses not available 
everywhere is extremely limited.
    All this and more requires high-speed connections at speeds far 
greater than many schools and libraries offer today.
    Furthermore, the traditional E-Rate program primarily focused on 
providing a broadband Internet connection to a school, and secondarily 
on deploying a network within the school. This model is no longer 
sufficient.
    We need to consider all aspects of a network--including broadband 
Internet access, individual school networks, and district-level wide 
area networks--when designing a structure for E-Rate for the next 15 
years. This is how medium and large businesses build networks to be 
cost effective and to meet their communications needs. School networks 
should operate on the same principles.
    So policymakers should do three things to modernize the E-Rate 
program.

  <bullet> First, program funding levels have barely changed since 1998 
        while the bandwidth and networking needs of the schools have 
        dramatically increased. Today, 80 percent of schools and 
        libraries believe their broadband connections don't meet their 
        current needs.

    In the early years of the program, the funding met the majority of 
        the requests from applicant schools and libraries. In recent 
        years, funding has only been available for about half of the 
        requested amounts. Funding levels should meet the needs of more 
        schools and students, not fewer.

  <bullet> Second, minimum bandwidth requirements should be adopted, 
        varying based on the size of a school, to ensure that all 
        schools have both in-building and district-wide networks that 
        are operationally capable of supporting modern education 
        technology and devices. Just as our expectations for broadband 
        have evolved, so too should the capacity of networks deployed 
        in schools.

  <bullet> Third, current E-Rate rules--which fund Internet 
        connectivity first as ``Priority 1'' services and then send the 
        leftovers to fund ``Priority 2'' networking inside the 
        schools--no longer make sense. Internet access is an important 
        element of a network, but districts have to be able to access 
        content on their own servers for distribution within the 
        district. And that content is meaningless to teachers and 
        students if it cannot be delivered via effective in-building 
        and district-wide networks. So the outdated distinction between 
        Priority 1 and Priority 2 should be eliminated.

    In summary, I believe that our Nation's children are in a fight for 
their future in the context of a global connected world, rapid changes 
in technology and the digital divide. Our view is that investment in 
technology and an enhancement of the E-Rate program will benefit our 
children and our country by creating a future where we are building a 
competitive workforce focused on innovation, competitiveness and job 
creation.
    The bottom line is this: Modernizing the E-Rate program is a 
critical investment in the future of our nation, and Cisco looks 
forward to working with this Committee, the FCC, and the schools to 
provide our children with the best education possible.
    Thank you for your attention to this important matter today, and I 
look forward to answering your questions.

    The Chairman. Thank you very, very much for that.
    And then, finally, Mr. James Coulter, who is the cofounder 
of TPG Capital. He and I had a conversation. He also, as 
importantly, or maybe more importantly to me, co-chairs the 
bilateral LEAD Commission, which is hooked up into this whole 
future of E-Rate discussion in a very major, major way--
creative way. He has devoted a lot of time to this. He has 
spent a lot of time in other countries, so he has a sense of 
what they're doing and what we're not.
    We're very glad that you're here, sir.

   STATEMENT OF JAMES G. COULTER, CO-CHAIR, LEAD COMMISSION 
            (LEADING EDUCATION BY ADVANCING DIGITAL)

    Mr. Coulter. Chairman Rockefeller, Ranking Member Thune, 
members of the Committee, thank you for the opportunity to 
speak to you today.
    I want to begin by recognizing the extraordinary leadership 
Congress showed, nearly 20 years ago, in passing the E-Rate 
Program. Under the leadership of Chairman Rockefeller, former 
Senator Snowe, then-Congressman Markey, and others, the 
decision was made to invest in the technology of our schools 
and libraries. It's widely acknowledged, by everyone on this 
panel, it was a monumental success. From 1996 to 2004, schools 
connected to the Internet increased from 14 percent to 95 
percent.
    However, technology marches on, and so does the need for 
the technological support of our schools. Today, I urge you to 
strengthen and modernize the E-Rate Program. I believe that 
modernization of E-Rate is critical to providing our nation's 
students with the education they need to compete in today's 
technology-enabled economy.
    As the Chairman told you, I appear before you today as one 
of the four chairs of the bipartisan commission, Leading 
Education by Advancing Digital, or LEAD. The LEAD Commission 
was formed 16 months ago to answer a challenge from the FCC and 
the Department of Education to create a national roadmap for 
the adoption of educational technology.
    Our work involved hundreds of interviews, product 
demonstrations, school visits, travels around the world. LEAD's 
findings suggests we are at a transformative moment for our 
nation's education system, a moment filled with promise, yet 
fraught with risk. Allow me to share four brief observations:
    First, an international educational technology race is 
swiftly developing: South Korea is eliminating paper textbooks 
by 2016; 100 percent of Singaporean schools are wired for 
broadband; 100 percent of Korean teachers are technology-
trained; Turkey is seeking to supply 10 million tablets to its 
students by 2015; next year, the Thailand Government will 
distribute hand-held computers to 13 million children. In 1957, 
the Soviet Union launched the first satellite, Sputnik, 
striking fear into Americans that we could fall behind in the 
space race. LEAD's work suggests this is a Sputnik moment in 
education. We risk losing the international race to educational 
technology.
    Second point, a technological tipping point is driving all 
this. Five years ago, I couldn't have suggested this. The 
national implementation of educational technology would have 
been prohibitively expensive. Today, plummeting costs of tablet 
computers, Cloud-based software, and Wi-Fi make the 
implementation affordable. Technology-enabled schools today are 
driving extraordinary results. LEAD's work shows the long-held 
promise of educational technology is poised to become an 
affordable reality.
    Our third observation. Without a clear, concerted action, 
we risk falling behind. America lacks a clear national plan for 
digital education. We approach the challenge at 16,000 separate 
school districts. Absent a national plan and collaborative 
action, we bear the risk of exacerbating the digital divide. 
Four weeks ago, LEAD released a five-point national blueprint 
to accelerate the deployment of digital learning. The first, 
and, in my view, most critical, point in the plan is a call for 
a national effort to ensure sufficient connectivity to our 
schools.
    Chairman, as you've noted, in a time where we demand free 
broadband in our coffee shops, it's shocking how little 
bandwidth is available in our schools. Only 23 percent of 
schools are wired for today's broadband demands, and less than 
10 percent are wired for 2017 needs. It's 100 percent in Korea 
and Singapore.
    We need to move the average schools from 20 megabits, 
enough bandwidth for a handful of students to watch one video, 
to 1 gigabit, enough for all the students in the school to take 
advantage of digital learning.
    In the last century, it would have been unimaginable to 
send our children to schools without heat and electricity. 
Broadband is, in our opinion, the heat and electricity of 21st-
century learning. We are falling woefully short in filling our 
students' needs.
    Our fourth, and final, observation. A modernized E-Rate is 
essential to address our infrastructure challenges. E-Rate 
successfully addressed the issue of access. We must now 
strengthen E-Rate to address the problems of capacity and 
speed. A modern E-Rate should focus on Internet infrastructure, 
increased transparency, be much easier to use, and should drive 
down school technology costs.
    In the private sector, we know we must invest in 
technological infrastructure to remain competitive. E-Rate can 
be the vehicle to encourage and support the same type of 
investment in our schools.
    In conclusion, our work demonstrates we create substantial 
long-term risks to our national competitiveness if we fail to 
invest in educational infrastructure. Just as America needed 
the Federal Aid Highway Act of 1956 to widen our roads, we need 
Federal action today to widen broadband in our schools. We 
invest tens of billions of dollars a year to reduce the traffic 
jams on our roads. Shouldn't we invest a fraction of that, 
through E-Rate, to reduce the digital traffic jams developing 
in our schools?
    Chairman Rockefeller, today's hearing is a call to action. 
We are facing a Sputnik moment in education. We must act. I 
urge this committee to continue its bipartisan tradition and 
support a modernized E-Rate.
    Thank you for the opportunity to testify, and I look 
forward to taking any questions.
    [The prepared statement of Mr. Coulter follows:]

   Prepared Statement of James G. Coulter, Co-Chair, LEAD Commisson 
                (Leading Education by Advancing Digital)
Introduction
    Chairman Rockefeller, Ranking Member Thune, Members of the 
Committee, thank you for the opportunity to speak with you today on 
this important national issue.
    My name is Jim Coulter and I am a father of three, a career 
businessman, an entrepreneur, and an American deeply passionate about 
our education system.
    I want to begin by recognizing the extraordinary bipartisan 
leadership that Congress showed nearly 20 years ago in passing and 
implementing the E-Rate program. It was under the leadership of 
Chairman Rockefeller, former-Senator Snowe, then-Congressman Markey and 
others that the decision was made to initially invest in technology in 
our schools and libraries. It is widely acknowledged that E-Rate has 
been a monumental success: from 1996, when E-Rate was first 
implemented, to 2004, schools connected to the Internet increased from 
14 percent to more than 95 percent.\1\ This Committee's support of the 
E-Rate program has provided tremendous benefits for rural and urban 
schools, public and private.
---------------------------------------------------------------------------
    \1\ Rosenworcel, Jessica. ``Remarks of Commissioner Jessica 
Rosenworcel.'' Washington Education Technology Policy Summit. 
Washington, D.C.. 11 Apr 2013. Address.
---------------------------------------------------------------------------
    However, just as technology marches on, so does the need for 
technological support for our schools. Today, modern teaching methods 
utilizing digital tools are poised to revolutionize education around 
the world. Initially, technology was only in the principal's office; 
now it is on the teacher's desk and is moving into the hands of 
students. We are increasing our bandwidth users from five million 
teachers and administrators to 55 million students. Sadly, in spite of 
E-Rate's success, today fewer than 25 percent of our Nation's schools 
have the high-speed bandwidth necessary to support this technology 
evolution.\2\
---------------------------------------------------------------------------
    \2\ EducationSuperHighway, Internet Infrastructure for America's K-
12 Students, 2012.
---------------------------------------------------------------------------
    I am here today to urge you in the strongest terms to support an 
expanded and strengthened E-Rate program. I believe expanding and 
strengthening E-Rate is a critical component for providing current and 
future generations the education and skills they need to compete in 
today's global and technologically-enabled economy.
LEAD Commission Findings
    I was invited to appear before you today as one of the four co-
chairs of a bipartisan commission, Leading Education by Advancing 
Digital, or ``LEAD''. The LEAD Commission is also chaired by Lee 
Bollinger, President of Columbia University, Margaret Spellings, former 
Secretary of Education, and Jim Steyer, founder of Common Sense Media. 
LEAD was formed over 16 months ago to answer a challenge from the FCC 
and the Department of Education to create a national roadmap for the 
adoption of educational technology. We released the LEAD Commission 
recommendations four weeks ago.\3\
---------------------------------------------------------------------------
    \3\ http://www.leadcommission.org/
---------------------------------------------------------------------------
    The LEAD Commission's work involved hundreds of interviews and 
product demonstrations, school visits, and travels throughout the 
United States and around the world. We spoke with a broad cross-section 
of teachers, parents, students, government officials, school 
administrators, and educational technology industry leaders. This 
extensive work has made it clear to me that we are at a critical, 
transformative moment for our Nation's education system, a moment 
fraught with both opportunity and risk. Allow me to share four 
observations.
LEAD's First Observation: Other countries have moved rapidly and 
        decisively to make educational technology a national priority.
    I have met with Education Ministers in Singapore and South Korea 
who report 100 percent broadband wiring of their schools. South Korea 
is eliminating paper textbooks in 2016. One hundred percent of 
Singaporean teachers are technology trained.\4\ Over the last few 
months, Turkey's Prime Minister has been on a tour to identify a 
technology provider that will supply 10 million tablets to Turkish 
students by 2015.\5\ Thailand's ``One Tablet Per Child'' policy aims to 
reduce the education gap between the Nation's urban rich and rural 
poor. By the end of 2014, the Thai government will have distributed 
handheld computers to 13 million school children.\6\
---------------------------------------------------------------------------
    \4\ Digital Trends, South Korean school textbooks will be all 
digital by 2015, July 5, 2011
    \5\ http://www.invest.gov.tr/en-US/infocenter/news/Pages/200513-
turkey-fatih-project-tender-process-start.aspx
    \6\ http://www.japantimes.co.jp/news/2013/06/19/asia-pacific/
tablet-computers-thrust-thailand-classrooms-into-digital-era/
#.UeQtk5zfLKc
---------------------------------------------------------------------------
    These countries believe the earlier they put technology in the 
hands of students and make it an active part of their education the 
better prepared those students will be to participate in an 
increasingly tech savvy work force.
    In 1957, the Soviet Union launched the first satellite, 
``Sputnik'', into space, striking fear in Americans that we could lose 
the space race and nationally spurring us into action. LEAD's 
observation of initiatives around the world has led us to believe today 
is a ``Sputnik Moment'' for education in this country. Our country 
already does not perform well on international tests, ranking 31st in 
math, 23rd in science and 17th in reading.\7\ If we do not find the 
national will to move forward with technology in the classroom, we risk 
falling further behind and creating a challenge to our long-term 
competiveness. The E-Rate program we are discussing today can and 
should play a vital role in meeting this challenge.
---------------------------------------------------------------------------
    \7\ OECD Program for International Student Assessment. ``What 
Students Know and Can Do: Student Performance in Reading, Mathematics 
and Science.'' 2009 Database. http://www.oecd.org/pisa/46643496.pdf
---------------------------------------------------------------------------
LEAD's Second Observation: There is evidence that we are at a 
        technological and teaching practice tipping point that will 
        allow the long-held promise of educational technology to become 
        a transformative and affordable reality.
    Five years ago, the national implementation of educational 
technology in a large-scale fashion would have been prohibitively 
expensive with $1,000 work-stations, shrink-wrapped sub-par software 
and torn up walls to wire school buildings. Today, thanks to the 
plummeting costs of tablet computers, innovative cloud-based software 
and enterprise Wi-Fi technology, implementation is affordable and 
achievable.
    Mooresville, North Carolina, a community outside of Charlotte, has 
risen as an example of the power of a digitally enabled school 
district. Walk into any classroom in Mooresville and you will find a 
student with a laptop working with a teacher equipped and trained to 
use the latest online tools to provide students with a personalized 
interactive learning experience. One of North Carolina's poorer school 
districts, Mooresville has risen to become one of its most effective 
and efficient. Since making the digital transition three years ago, the 
district pass rate on state tests in reading, math and science has 
increased from 73 percent to 88 percent.\8\ In addition, Mooresville 
ranks 100th out of 115 districts in North Carolina in terms of dollars 
spent per student, but is now third in test scores and second in 
graduation rates.\8\ Mooresville and numerous other innovative school 
districts are showing us the technology exists, teachers are deploying 
it with vigor and creativity, and learning environments are being 
transformed for the better with measurable improvement in student 
achievement.
---------------------------------------------------------------------------
    \8\ Mooresville Graded School District's Digital Conversion Report, 
April 2011.
---------------------------------------------------------------------------
    LEAD's Third Observation: While the U.S. remains a hub of 
educational innovation, we face the risk of falling far behind in the 
deployment of digital learning technologies.
    We are uncoordinated and lack a clear national plan for digital 
education. We currently approach the challenge as 16,000 independent 
school districts. Absent a national plan and collaborative action, we 
bear the risk of further exacerbating the digital divide that troubles 
the Nation's poor and rural communities.
    The primary reason for this national risk is that our school 
technology infrastructure is inadequate to meet the demands of 21st 
century learning. In today's world, where we expect fast Wi-Fi access 
with our coffee, it is troubling how many of our schools rely on slow 
and outdated Internet connections. According to EducationSuperHighway, 
a highly-respected non-profit focused on removing the roadblocks to 
high-speed Internet in our schools, only 23 percent of schools are 
sufficiently wired for today's broadband demands and less than 10 
percent are wired with the broadband that will be needed in 2017.\9\
---------------------------------------------------------------------------
    \9\ EducationSuperHighway, Internet Infrastructure for America's K-
12 Students, 2012.
---------------------------------------------------------------------------
    Four weeks ago, LEAD released a five-point national blueprint to 
accelerate the positive deployment of digital learning. The plan is 
both ambitious and attainable, offering significant long-term gains for 
our children. We have included the blueprint as an addendum to this 
statement. In summary, our five points are:

  <bullet> Broaden School Broadband

  <bullet> Deploy Devices Nationally by 2020

  <bullet> Accelerate Digital Curriculum Adoption

  <bullet> Fund and Celebrate Model Schools

  <bullet> Train Teachers for Digital teaching

    It is no accident that our first and perhaps most critical point is 
a call for a national effort to broaden the total broadband available 
in our schools. According to EducationSuperHighway, broadband 
availability in our schools must increase from two and a half terabits 
today to 55 terabits by 2017.\10\ In other words, we need to move the 
average school from 20 megabytes, or enough bandwidth for a handful of 
students to stream a single video, to one gigabyte, or enough for all 
students in the school to take advantage of digital learning. In the 
last century, it would have been unimaginable to send our children to 
schools without heat and electricity. Broadband will be the ``heat and 
electricity'' of 21st century learning solutions. It is imperative that 
we unlock the promise of digital learning: broadband is the key.
---------------------------------------------------------------------------
    \10\ EducationSuperHighway, Internet Infrastructure for America's 
K-12 Students, 2012.
---------------------------------------------------------------------------
    America is known world-wide as the home of information technology 
and the birthplace of tomorrow's innovations. However, our connectivity 
limitations and our lack of national coordination on this issue will 
have a direct impact on learning outcomes, the education ecosystem and 
our Nation's ability to prepare current and future generations for a 
highly competitive global workforce. If we don't act now, we risk 
losing our position as the global leader.
LEAD's Fourth Observation: E-Rate provides an invaluable tool for 
        addressing the Nation's educational technology infrastructure 
        challenges. It is time for a coherent, collective effort to 
        modernize E-Rate and to implement the digital learning 
        technology essential for 21st century schools.
    We are fortunate as a country that Senator Rockefeller and others 
saw fit to lead the Nation's schools and libraries into the digital era 
with E-Rate in the 1990s. Likewise, the country will be well served if 
this committee supports the efforts to upgrade and modernize E-Rate 
currently in front of the FCC. We would hope E-Rate modernization would 
reflect the following objectives.
    First, E-Rate has already successfully addressed the issue of 
access; E-Rate must now address the problem of capacity and speed. We 
recommend E-Rate update its goals to focus on Internet infrastructure. 
Curriculum development will lag and private sector investment will 
languish if the infrastructure remains inadequate. It will simply be 
less attractive for educators and businesspeople to drive educational 
technology innovations if only 10 to 20 percent of schools are wired to 
use them.
    Second, we need to enable districts to invest in fiber connections 
to their schools. E-Rate currently supports operating expenditures but 
does not incentivize long-term investment in fiber. Businesses 
regularly make the decision to invest upfront capital in order to 
significantly lower ongoing operating expenses. We must empower schools 
to do the same in order to get them the bandwidth they need while 
maintaining a reasonable E-Rate budget.
    Third, we hope modernization of the program will increase 
transparency, simplicity and accountability. We need an E-Rate that 
encourages broadband adoption because it is easy to use. We need an E-
Rate that makes data and pooled purchasing available to schools, 
allowing them to drive down costs.
    This country has a long and successful history of Federal action to 
aid infrastructure development and ensure universal access to 
communication technologies. Just as America needed the Federal Aid 
Highway Act of 1956 to widen our roads, we need Federal action today to 
widen broadband in our schools. If America can invest tens of billions 
of dollars a year to reduce traffic jams on our roads, shouldn't we 
invest a fraction of that to reduce traffic jams in our schools? \11\ 
E-Rate is the key. It worked to solve the problem of access. We can 
call on it again to solve the educational broadband needs of our 
country.
---------------------------------------------------------------------------
    \11\ http://www.artba.org/faqs/#7
---------------------------------------------------------------------------
Conclusion
    While technology is not a panacea, it transforms almost every 
industry it touches. In my day job as an investor I realize that it 
would be long-term economic suicide not to provide our companies with 
the technological infrastructure and tools to compete in an 
increasingly global and competitive marketplace. Likewise, it would 
create substantial long-term risks to our national competitiveness if 
we fail to make a national investment in educational technology 
infrastructure. Fortunately, E-Rate gives us an affordable and 
effective path to make sure we give schools and teachers the digital 
learning tools they need to prepare our children and our country for 
the future.
    We Americans pride ourselves on always being solution seekers, no 
matter how difficult the problem. Yes, our U.S. education system faces 
significant tests and tough international competition, but just like 
after the Sputnik launch, we as a nation can rise to the challenge. 
Today, we are facing a ``Sputnik Moment'' in education. It is time for 
our country to collectively say ``modernizing our schools is a national 
priority.''
    Thank you for the opportunity to testify today, and I look forward 
to responding to any questions.
    For more information, please visit the LEAD Commission website: 
http://www.leadcommission.org/

    The Chairman. Thank you very much, Jim Coulter.
    I should inform my colleagues--is that a vote? A vote is 
just imminent, and--oh, 10 minutes, OK. What I plan to do is 
miss the first vote. And so, I will stay here, unless this is 
not agreeable to my colleagues, so we can keep this going. The 
upside is that we keep it going; the downside is, if you're 
voting, you--and you probably don't want to miss the first 
vote--then the second vote, I will go to. But, we'll do the 
best we can.
    Let me just start with a--sort of a catch-me question. The 
thing that's amazing to me is that, when we started this 
program, when you said ``E-Rate and connectivity,'' everybody 
assumes, myself included, that that means that the whole thing 
was working, that there was a teacher there, the software was 
there, there was a computer there, et cetera, et cetera. And, 
of course, that was wholly untrue. It just meant that it was 
physically available, it was wired to receive any of those 
necessary parts to the E-Rate. And so, Ms. Lord, when you 
talked about, you know, how far we've come and how far we have 
to go, I always try to bear that in mind.
    So, I would like to ask, Mr. Coulter, if--you talked about 
the speed--what, we get up to 100 times faster speed return if 
we do the right things, if it's in our will--and also the new 
technology. And then you said something that was very important 
to me, and that is that the competition between technology 
companies is such that prices are coming down, to the extent 
that it's becoming more affordable. Could you expand, starting 
on that last one, and then talking a little bit about what we 
have to add on to the connectivity, which has since been 
supplemented by States and privates, you know, others, to give 
us computers and teacher training? I know not.
    Mr. Coulter. Yes. If you look the LEAD plan, it has five 
parts. A necessary condition to any of those parts is that the 
schools are wired. If you are an investor and are thinking 
about investing in educational technology, it's hard to make 
that investment when you realize only 10 percent of your 
customers could use it, even if you had the perfect product 
today.
    So, I would note that E-Rate was a success. And at the time 
it was built, these technologies were not available at a cost 
that would have made sense for schools. So, E-Rate did the 
right thing at the right time. We're asking it to do the right 
thing at this right time now.
    The technological change from wired walls to Wi-Fi and 
tablets--we have to remember, the iPad was delivered for the 
first time in April 2010. So, this change is new, and people 
around the world are realizing that it will bring down costs to 
the point where educational technology can be delivered within 
textbook budgets. That's a very different situation than where 
we were when E-Rate was first created.
    In addition, competition for this market, if we get it to 
scale, will drive down costs farther. It's interesting to see 
what Turkey is doing. The Prime Minister of Turkey is in 
Silicon Valley, touring technology companies, asking them to 
compete with each other for a $7-billion contract to take 
American technology over into the schools of Turkey. I 
guarantee you, they will get a pretty good price when they are 
asking for that size of a technological contract.
    So, it is a new era. E-Rate has to reflect that new era. 
And the good news about the new era is, the technology that 
you've enabled over time has come to a cost area that it can 
now be a reality within our nation.
    The Chairman. Thank you, sir.
    I would call upon my friend and colleague, Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    And I would direct this to the panel, whoever would like to 
comment. E-Rate support is not based on the actual cost of 
delivering the service, but rather provides discounts based on 
the percentage of a school's student population eligible for 
the National School Lunch Program, with a small additional 
increase for rural schools.
    As we discuss modernizing E-Rate, and specifically setting 
bandwidth goals, does that current distribution method 
equitably provide for schools that may have fewer poor students 
but dramatically higher costs of service?
    Whomever.
    The Chairman. I join in that question. We both suffer, as 
rural States, particularly under the sequester.
    Mr. Coulter. As you know, I'm a big fan of E-Rate, but I 
also believe, in business, that there are few things that can't 
be made better and more efficient. I think, as you open up E-
Rate in the FCC process, issues of fairness should be looked at 
in all areas--across States, across rural and non-rural, across 
poor and wealthy. And, just as technology has changed over 
time, there may be good ideas that are available to you today 
to address some of these issues, Senator.
    I would highlight, however, that one thing we've learned in 
business is, if you have something that works, don't mess with 
it too much. So, while we look for an even better and 
modernized E-Rate, I hope we will learn from the success we've 
had.
    Mr. Finn. Senator, it's a good question, and I'm not an 
expert on the distribution of various schools, but what I would 
say is, the recommendation that we've made and are focused on 
is really to build the minimum standards in bandwidth for 
schools based on the number of students, whether they be in a 
rural area or an urban area, so that we're actually not just 
driving the connectivity to the school, we're driving the 
connectivity and the benefits to the student. And I think that 
that's really the clear focus as it relates to: How do we 
ensure that all students are participating in the technology 
advancements that can be benefited from a new E-Rate Program?
    The Chairman. Please.
    Dr. Abshire. I would just say that my direct experience 
over the last 15 years in our district is, it's a--our district 
covers 1,036 square miles in southwest Louisiana, so we have 
urban areas, we have suburban areas, and we have deep rural 
areas, down in the Bayou and in the rice fields. And what E-
Rate has done with that formulaic approach to it is that we 
have been able to build out, in last-mile initiatives, to our 
rural communities, where, I think, as Mr. Coulter or Mr. Finn 
expanded upon, that it has been a community-wide effort. So, as 
we have grown and had that connectivity to our schools, the 
fiber has been laid that's allowed the entire community to grow 
and expand and have opportunities that were not there before.
    So, I would say, for the most part, the approach is working 
well. I think there's some tinkering to be done with that. But, 
I have confidence that the FCC and USAC, with the massive 
amount of data that they have, can examine and look at the 
metrics and make good, reasonable, reasoned proposals that will 
do this last bit of work that's to be done.
    But, we have gone tremendous lengths to reach out into our 
rural communities, I know, in our state, and it has made a 
difference--for the economic development in the entire state.
    The Chairman. In order of appearance, the next question 
will come from Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairman, and thank you, Ranking 
Member.
    Thank you, Chairman, for working on this over the years. 
Certainly, the State of Hawaii, over the last couple of years, 
has really benefited through our applications. And, in the 
interest of the--in the interest of time, I'll go straight to 
one of my questions.
    The FCC's definition of ``rural areas for schools and 
libraries'' is one that is located in a non-metropolitan 
county, as classified by OMB's list of metropolitan statistical 
areas. The problem with that is that the island of Oahu, which 
contains Honolulu, the entire island is considered urban, which 
is just not true, as a matter of common sense. And so, I wonder 
if any of the testifiers could offer some insights with respect 
to what kinds of modifications could more accurately reflect 
the true nature of communities and how broadband ought to be 
distributed through those communities.
    Ms. Lord. I would only respond, Senator, that that's a very 
complex question, and I hope that the Notice of Proposed 
Rulemaking, which the FCC is releasing soon about both the E-
Rate Program, would give us a chance to study that and address 
it.
    The complexities of the E-Rate Program are, as you well 
know, that if you change one tiny thing, there can easily be a 
domino effect in unanticipated consequences. So, I wouldn't 
hesitate to give any--I would hesitate to give any specifics 
here.
    Senator Schatz. I just have one quick additional question, 
for Mr. Coulter. You said something very intriguing, which is 
that, ``Educational technology can eventually be delivered 
within the textbook budget.'' In that, do you--are you talking 
about just curricula and programs, or do you imagine that 
eventually it will be--it'll basically be an all-in cost 
covered by the current cost of textbooks?
    Mr. Coulter. The most recent data I have on this is--L.A. 
Unified School District did a recent tablet RFP. They required 
those tablets to be loaded with usable curriculum; in this 
case, from Pearson. Those tablets were delivered for under 
$700--about $680--include with insurance, et cetera, fully 
loaded with curriculum, insured for 3 years. So, think of that 
as $230 a year. If you look at the textbook budgets in the 
school district, that's below the textbook budget.
    Senator Schatz. Thank you.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Schatz follows:]

   Prepared Statement of Hon. Brian Schatz, U.S. Senator from Hawaii
    Thank you, Chairman Rockefeller, for holding this hearing and your 
leadership on the E-Rate program. Every student should have the 
opportunity to develop the skills that they need to be competitive in 
the workplace, no matter where they live or go to school. The E-Rate 
program is the cornerstone of bringing technology to schools and 
libraries.
    Rural areas in Hawaii rely on E-Rate to provide telephone and 
Internet connectivity. Schools located in these areas tend to have low-
income communities where 60 percent of students are on the free and 
reduced price lunch program. Last year, the state received record 
breaking funds--$17.8 million--through E-Rate because of its efforts to 
upgrade the network in schools. On the rural western coast of Oahu, E-
Rate has helped to implement network upgrades that provide real time 
data to personalize instruction for the student. According to Wendy 
Takahashi, Principal of Nanakuli Elementary School:

        ``Now every student has access to online instruction and 
        teachers have access to student data throughout the school day. 
        These upgrades have provided wireless access to the entire 
        school, whereas previously our coverage was inconsistent and 
        sporadic throughout the day.''

    The E-Rate program has also modernized schools' daily operations. 
School attendance, announcements, and student assessments are done 
electronically. As an island state, videoconferencing has become an 
essential communication tool for teachers and principals. For instance, 
one Complex Area in Maui County includes schools from West Maui, Hana 
(East Maui), and the islands of Molokai and Lanai. With budget 
shortfalls and the high cost of inter-island flights, video 
conferencing provides ease of access and ultimately saves faculties' 
time and schools' money.
    Digital learning technologies are transforming the classroom 
learning experience. The Hawaii Department of Education is looking to 
purchase and distribute digital instructional materials and devices to 
each student. For students where English is their second language, the 
state is implementing an online learning program to increase their 
English proficiency.
    One of the state's goals is to increase science, technology, 
engineering, and mathematics proficiency statewide. E-Rate makes it 
possible for students to access STEM carts, which provide interactive 
lessons in science, mathematics, and engineering to students. As the 
state continues to implement digital curriculum, more robust levels of 
connectivity are needed.
    In Hawaii, I have heard of instances of when classrooms are not 
able to use the Internet while other grade levels are conducting online 
testing because of insufficient bandwidth. Clearly, we must continue to 
work toward increasing the bandwidth in order for schools to handle 
increased traffic to their networks. This is why I support President 
Obama's ConnectED Initiative to connect 99 percent of students to 
broadband and high-speed wireless. Improving connectivity in the 
classroom is a critical step to preparing our students to compete in 
the global economy.
    I appreciate the witnesses for testifying today, and I look forward 
to working with Chairman Rockefeller and the FCC to update the E-Rate 
program.
    Thank you, Mr. Chairman.

    The Chairman. Thank you, Senator.
    Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    Based on my briefing, it would have been nice to have 
somebody from the FCC that could maybe answer these questions 
directly, but it does look like there are some problems with 
the program. For example, that apparently there is currently $5 
billion in the E-Rate account. There are certainly backlogs, in 
terms of appeals that date back to 2003, a backlog for funding 
commitments go back to 2010.
    Are any--anybody on the panel aware of some of those 
problems with the program that they can speak to?
    Mr. Coulter. As I said earlier, I'd be surprised if there 
weren't a number of things we could do to make this 
longstanding, successful program more efficient.
    One of the things I'd note--and it's perhaps a bit ironic--
is that E-Rate is predominantly a paper-based program for 
applications. And those paper-based applications have become so 
complicated that one estimate has $50 million to $100 million 
of consultants are used by schools just to figure out how to 
use the paper-based processes.
    Senator Johnson. So, you're----
    Mr. Coulter. I'm sure that----
    Senator Johnson. Right, you're dealing with a Federal 
program, here, and that's part of my problem, my skepticism of 
this.
    Mr. Coulter. I think that can be fixed in this process.
    Senator Johnson. Well, that--you know, I hear that all the 
time, you know, that we just--there's a government reform right 
around the corner. And it's amazing how many decades have gone 
by without that reform.
    Mr. Finn, how much--how many sales does Cisco have to the 
school market?
    Mr. Finn. Well, we don't break it up specifically by 
segment. I am responsible for U.S. public sector, which 
includes the State/local education and the Federal business. 
And our business is about a $5-billion business.
    Senator Johnson. Out of that $5 billion, can you give me an 
estimate of how much of that is funded by local school 
districts, possibly states, versus the Federal Government?
    Mr. Finn. I don't have that breakdown with me, Senator. I'd 
be happy to provide that to you and the Committee.
    That's not the way we measure our business. Our real 
focus----
    Senator Johnson. OK, the reason I ask is, as I look at the 
figures I have, of total spending on education, we spend an 
enormous amount on education in this country--over a trillion 
dollars this year. About 6 percent comes from the Federal 
Government. I, personally, think education is, by and large, a 
local issue. And when you take a look at the problems in the E-
Rate Program--again, you know, I mean, we're spending a couple 
of billion dollars, there's a $5-billion backlog; it's a paper 
system. I'm not quite sure why we'd want to expand this program 
if it's not really working all that well.
    And I have to also challenge--when you take a look at test 
scores over the years--I was involved, in a local basis, in 
local education. We did something called an Academic Excellence 
Initiative. This was probably about 10 years ago. I typed into 
the computer--back then, probably Yahoo!--``educational 
productivity.'' Zero results.
    So, I guess my--I understand it all makes wonderful sense 
and technology can drive productivity. I just don't see the 
results, truthfully--I mean, I see anecdotal evidence, but, I 
mean, overall, test scores are flat. I guess I'd to talk to Dr. 
Abshire about that.
    Dr. Abshire. Thank you, Senator. I'd be happy to comment on 
that.
    Let me, first, begin by saying that I would say that the E-
Rate Program, in its infancy, which--I began processing 
applications as a local district person responsible for that in 
year one--has undergone what I--substantive changes, in terms 
of paperwork. As an example, last year, when we filed our 
applications, we did not use any paper at all. Many, many 
applicants have gone to the online. While the paper option is 
still there, I would say that, for the most part, that's people 
that are just getting into the program. Those of us that have 
been filing for several years, USAC has made tremendous 
progress, in terms of their online applications process.
    What used to take us, really, 2 weeks, myself and an 
administrative assistant, now took us, this year, about 4 
hours. And so, the productivity and the efficiency component 
for the online application has been considerably improved. And 
that's come from the field, people like myself, practitioners 
that do this work every day and every year, that have made 
recommendations to the FCC and to USAC, and that's begun to 
tighten up.
    So, in that aspect, I think we've seen growth. Does that 
mean that we don't have improvements that could be, and should 
be, made? Absolutely not. But, this is a continuous improvement 
process. And, from when we began to where we are now, the two 
processes don't even resemble each other. I'd take that for 
your consideration.
    Senator Johnson. Why shouldn't this be, really, a local 
control and local funding, where--again, if it's locally 
controlled, locally funded, aren't you going to make sure that 
you're going to have the most efficient and effective system--
--
    Dr. Abshire. Well----
    Senator Johnson.--versus just relying on Federal Government 
funding?
    Dr. Abshire. Well, let me share with you, in terms of local 
control--all of us have local technology plans that are adopted 
by our community and our board. And those plans drive our E-
Rate application process.
    So, as an example, my district was one that was put through 
a full audit, several years ago. And part of that audit 
required going back into the board minutes and me providing the 
alignment between our local-controlled plan, funding, 
cofunding, and the pieces that we requested for E-Rate, and 
then went down into the schools to look at how the equipment 
was being used, how were we supporting it, in terms of teacher 
training, computers at the end of the wire, and professional 
development for all of our staff. And so, you know, we came out 
and reported very well, because we had that local decision.
    It is my decision, along with my staff and our board, as to 
what we apply for, in terms of needs assessment and based on 
the types of connectivity and digital content that we need, and 
online assessment.
    So, I would say that there is a great deal of effort being 
expended locally to make those decisions, and only requesting 
from E-Rate what we can support, the non-discounted portion.
    Senator Johnson. OK.
    Thank you----
    Dr. Abshire. I hope that helps, Senator.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    I would begin by taking issue, with all due respect, with 
my colleague from Wisconsin and his statement that the program 
isn't working all that well. You know, at a time when we bemoan 
and criticize government, this program is a real American 
success story--the government providing resources and shared 
responsibility for a means of communication that is vital to 
many under-served and technological needy parts of our country.
    So, I want to thank and commend the folks who are here 
today to give us their insights and to reinforce that view.
    I want to thank our Chairman for really pioneering and 
championing this program, E-Rate, along with a new member of 
our committee, Senator Markey, who is attending this committee 
for the first time. But, most particularly, Mr. Chairman, thank 
you for holding today's hearing so that we can amplify and 
really emphasize the importance of improving the program, as 
our witnesses have said, where it's necessary to do it, to make 
a success story even more successful.
    And certainly in Connecticut, the E-Rate Program has helped 
provide $370 million to Connecticut schools and libraries in 
need, connecting communities and improving learning 
opportunities. The impact is not on a few handfuls of students 
here and there; it is literally on tens of millions of students 
across the country.
    And rather than focusing on the negative, I really want to 
elicit from you, perhaps, your comments on how the application 
process for these communities can be made less time-consuming 
and burdensome. I'm going to be limited, in terms of my time, 
but I hope you will give us--both you, Ms. Lord and Dr. 
Abshire, and our two other witnesses the benefit of your views 
on that subject, because you've really been there in the 
trenches, working for this program.
    And I want to just emphasize another point that has been 
made, because I am Chairman of a subcommittee called 
Competitiveness, Innovation, and Export Promotion. And if there 
is an area where we need to be more competitive--and both of 
you put your finger exactly on that point--other countries are 
moving ahead of us, which is just unconscionable for the 
greatest nation in the history of the world, the most 
technologically advanced--to have its children learn less than 
other children through this means of technology, is just 
unforgivable.
    So, maybe if you could share your insights, Ms. Lord and 
Dr. Abshire.
    Ms. Lord. Thank you. I'll try to be fast.
    In Maine, we give a tremendous amount of support to our 
libraries and our schools with the paperwork. And, in fact, we 
do a consortial application that includes over 900 schools and 
libraries. And what the schools and libraries need to do is 
sign a letter of agency, that's very carefully crafted, that 
gives the Maine School Library Network, which is run by a group 
called Network Maine, the authority to apply for the Federal E-
Rate Program on their behalf. So, they have to do practically 
nothing; they have to sign a letter. This works really, really 
well for us. There's no school or library in Maine, to the best 
of my knowledge, that's ever been accused of waste, fraud, or 
abuse.
    And the reason that we are so pleased to hear your words 
and so desperate for E-Rate 2.0 is that we still have lines, 
waiting for our computers, just as Senator Rockefeller said. We 
still have video latency, where a student can be taking a 
course and all of a sudden the video freezes and you have to 
wait for it to proceed. These are kids that are used to HDTV. 
That doesn't impress them at all. We still have time limits on 
our computer use in our libraries. The Bangor Public Library 
sees 800 people a day, and so they have to limit the amount of 
time anybody can be on a computer. That's a little bit aside 
from your question, but I think----
    Senator Blumenthal. No, it's very valuable. Thank you.
    Ms. Lord. Thank you, sir. I think it depends on how much 
support the State can give, and we give a tremendous amount of 
support.
    Senator Blumenthal. Thank you.
    Dr. Abshire. Senator, thank you for the opportunity.
    I would say, just as our country has changed and evolved, 
our schools have changed and evolved, and E-Rate is changing 
and evolving. And your question around, you know, ``What are 
the things that we could do?''--one of the things, I think, 
that would be very helpful--and many groups that I'm a member 
of and, you know, have worked with these organizations, that 
are my peers--ISTE and CoSN--we've proposed the concept of an 
Evergreen 470, which would allow those of us that have long-
term contracts already in place for pieces of business, that 
that process would be shortened in somewhat--a little bit more 
concise around doing that. And I know that's being considered.
    There's--you know, we have a great opportunity, with the 
opening of the rulemaking process. And I know that those of us 
that do this work in the field every single day, and have done 
it for--you know, going on two decades now, have a lot of 
feedback and input that we're going to provide to that process. 
And we are delighted that the FCC and USAC will afford us those 
opportunities.
    The other thing I was going to just mention very briefly is 
what you mentioned about the global competitives and the 
concept that we cannot fall behind. In my role as the past 
Board Chair of the Consortium for School Networking, which is 
the membership organization for my peers--have the opportunity 
to very--visit South America, spent some time in Uruguay. I was 
blown away by the concept of--every student in a very poor 
country now has a device, and they have built a wireless grid 
across that country. Wherever those children are, and their 
parents, they have access to a broadband connection for 
learning, 24/7. While they have not eclipsed us, in terms of 
learning capacity yet, they are on their way. And to drive down 
the road and to see very, very poor communities, that really 
didn't even have basic sanitation, and the children were 
sitting out on porch steps, connected with a device, working at 
7 or 8 or 9 o'clock at night--was something that was a wake-up 
call for me, as a person who has spent 40 years being very 
passionate about children and learning.
    And we have our work cut out for us, but, as you said, this 
is the greatest nation in the world, and, if not now, when, 
and, if not us, who?
    Senator Blumenthal. I thank all of you for being here 
today. I hope the FCC hears you and hears us. And thank you.
    Thank you, to our Chairman, for your historic contribution.
    Thank you. Forgive me, I've got to go vote.
    The Chairman. You've got to scram.
    Senator Blumenthal. Thank you.
    The Chairman. Well, I guess I get to ask a question, don't 
I?
    [Laughter.]
    The Chairman. A couple of things I'd like to clarify. We 
always talk about America falling behind. And then we have 
plenty of data which shows that that's happening in math and 
science and other things--languages, whatever. But, then when I 
hear that South Korea and others are--actually, I remember when 
we--when the E-Rate started--something I still haven't figured 
out; one of you can help me on this--there was a lot of, sort 
of, fulminating and ``What's going on here?'' and, you know, 
``Where's the computer and where's the teacher?'' Houston went 
wireless and was--achieved 100 connectivity in one day. I don't 
know how that was possible, but that's an example of America 
not falling behind. Whoever that superintendent was, it--of 
education in Houston--he did something extraordinary.
    So, when we talk about falling behind--Mr. Coulter, I'll 
call again on you and others--Korea, Japan, other countries--
it's not really a matter of national pride. You know, if 
somebody doesn't score a touchdown, it isn't any big deal. In 
fact, I was very pleased to read--I think it was in the Wall 
Street Journal the other day--that, in this mania of sports 
which has overtaken our nation, to the detriment of education, 
only 4 percent of Americans watch something called baseball; 2 
percent watch hockey. Puts things in perspective. Everybody 
goes to school.
    So, what--I'll go again to you, Mr. Coulter--what, on the 
international side--what price do we pay, in terms of not being 
able to do what others have either achieved or are much more 
aggressively going after than we are?
    Mr. Coulter. As I said, I had my Sputnik moment when I sat 
with the Minister of Education and Technology--note that's a 
single agency--in Korea, and I asked him where he goes for 
innovation. Without a moment of hesitation, he went--he said he 
goes to the United States.
    So, we remain the hub of educational technology innovation. 
But, in many industries, we have a--seen situations--
semiconductors, for example--where things invented here are 
deployed, creating jobs in other countries. And we bear that 
risk here, that our innovation will be better deployed 
elsewhere.
    So, essentially, the risk to us is not that they are more 
innovative than we over time, I believe; it's but that they 
have a better deployment mechanism. And the reason is, Korea 
acts centrally on education. I think we have been very well 
served by being 16,000 individual school districts, on most 
issues--local involvement in education. However, technology 
requires scale. And places like Korea and Turkey can scale more 
quickly.
    So, the long-term risk to us is this. When I spoke to the 
Korean Education Minister and asked him about, you know, how he 
was thinking about the tradeoffs between paper and technology, 
he stopped me and said, ``I just believe that if we get 
technology into our kids' hands, they will do wonderful things 
with them--with it, and they will be more prepared for the jobs 
of the future.''
    Our children today live largely in a technologically 
enabled world, and we send them to school with 40-pound 
backpacks filled with paper. And that risk to us will play out 
in any number of ways. We bear the risk of losing a generation 
of technologically enabled students and a technologically 
enabled workforce if we don't act more quickly than we have so 
far.
    So, that's the long-term risk, is that our skills and 
innovation somehow fall behind. They haven't, so far. I hope 
they won't in the future. But, this is an investment we can 
make to protect that.
    The Chairman. Thank you for that.
    It occurs to me--and Senator Ayotte has come in, and I want 
to call on her--and I think you answered this question very 
well, Dr. Abshire--you keep improving what you've got, what was 
put in place a couple of decades ago. And it's not always even 
a conscious decision; it's just that you have to, and you do, 
and you get--and Louisiana's not a rich state, so the State 
funding that you get is precious to them. And so, I think what 
we're talking about here--and I get this sense from the 
panelists--that we need to look for what isn't working well in 
the E-Rate system, but the focus, assuming, therefore, that we 
are honorable people and will do this--and many people will do 
it for us, advise us--but, to focus on the future. If we get 
dragged down into some of the kinds of questions that I can 
imagine--I mean, I could ask all kinds of questions about West 
Virginia, and I am sure that Senator Ayotte could, too, about 
funding-formula fairness and small states.
    And I will, and I want to see that change, and I want to 
see that better. But, if we are going to get to where we need 
to go, we have to concentrate on--not because he's the 
President, but what he suggested and what you, sir, suggested 
in your--are going to suggest when your report comes out--and 
that is that we go to E-Rate 2--and getting there is going to 
be major, fundamental for our country, a huge challenge, 
something we absolutely cannot miss in that opportunity.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today.
    And I do have to say, up front, that New Hampshire happens 
to rank 50th out of 50, in terms of what we get on our return 
for the E-Rate Program. So, this issue of fairness is very 
important to me, in terms of not only how the funding formula 
is used, but also access: access for smaller states. I know the 
Chairman shares this concern for rural communities. And so, I 
hope that we will work on this issue from the broader context 
of how states are treated under it.
    I hope that we will also, at some point, hear from the FCC 
on this issue. They aree about to undertake an important 
rulemaking on this, and they have an important role in front of 
this committee on E-Rate.
    I had a chance to meet with Mr. Coulter in advance of this 
hearing, and something that we talked about, and that I've been 
thinking a lot about--in terms of how E-Rate operates right 
now. How can we be more efficient in how E-Rate is operating, 
because the application process seems like a real challenge. 
And I certainly would like to hear the perspective from Dr. 
Abshire, as well as, I'm sure Ms. Lord has a perspective on 
this, too, about how we can better accomplish what we all want 
to accomplish--bringing technology into the school systems, and 
making sure that kids can take advantage of that technology.
    So, I will start with Mr. Coulter.
    Mr. Coulter. We had had some discussion already of the 
evolution that's necessary in the application process to make 
it less painstaking and more accessible, particularly to 
schools who can't use some of the infrastructure that places 
like Maine have put in place, wisely, over time.
    A couple of other areas I would point out:
    First of all, I would hope that E-Rate 2.0, if that's what 
it becomes, has more transparency. We know, broadly, everywhere 
today, the value of data. There is massive data within E-Rate, 
and we don't offer it to schools as openly as we might. Schools 
in the same district may be buying from the same provider--
excuse me for this----
    Mr. Finn. That's fine.
    Mr. Coulter.--but, they may not know what the other 
provider--what they're paying. That information, if it were 
broadly available, I think will drive savings beyond the 
program itself. So, if we can create some transparency to get 
market data about what's right--there are schools out there, 
outside of E-Rate, that are paying probably four times market 
for broadband connections just because they don't know. And we 
can--I think we can go a long way to solving that. It would be 
extraordinarily effective.
    Second, within E-Rate today, there are priority levels that 
are set up for access that don't work exactly correctly for 
Internet infrastructure. They separate getting the wire to the 
school and then spreading the Wi-Fi into the school. So, I 
think we can create some efficiencies just by looking at the 
problem in today's way. And I know the FCC is on this, and I am 
optimistic that they will make progress on it. But, the issue 
of fairness, the issue of efficiency, Senator, I'm exactly 
aligned with you on that, and I think this modernization effort 
gives us the path to get those things done.
    Senator Ayotte. Great. Thank you.
    And I certainly would like to hear the school and the 
library perspectives, as well, from those who've had to work 
their way through this.
    Dr. Abshire. Thank you, Senator. I'd be happy to provide 
some remarks on that.
    I think, as we mentioned a little bit earlier in the 
hearing, those of us in the field that are filing for E-Rate 
every year, responsible and accountable for the dollars and the 
services that come into our district, are keenly aware of the 
growth in the program over almost two decades. As I said 
earlier, the predominantly paper process has made extreme 
changes, in terms of online filing. There are still pieces that 
can bring more efficiency, but I would----
    Senator Ayotte. I'm sure we've already talked about the----
    Dr. Abshire. Yes.
    Senator Ayotte.--irony of----
    Dr. Abshire. Yes.
    Senator Ayotte.--the technology issue and the paper filing 
for E-Rate.
    Dr. Abshire. Yes. Well, to--the good news piece of this is 
that many, many of us use--are now in a fully online filing 
process. So, that's the good-news piece. There's still room to 
improve, as in any process. But, the improvements have been 
dramatic.
    The other efficiency piece, the concept of filing every 
year, there are several service pieces of E-Rate that we could 
file a multiyear application, which would do several things. It 
would reduce the burden on the district, which is significant 
during certain periods of time. It would also reduce the 
burden, at USAC, on having to process all the paperwork, and 
the personnel that are required to look at the applications. 
So, I'm strongly in favor of a multiyear application.
    And I think that--the keyword for me in this whole process 
is ``opportunity.'' What an opportunity we have to look back 
and use the data, as Mr. Coulter has mentioned, that is there. 
I know that many State purchasing consortiums have come to be. 
I know, in Louisiana, we have a State E-Rate coordinator, and 
all of the CTOs and COs in our State work together and 
regularly meet to discuss these processes to be able to fine-
tune and to provide in-State efficiency.
    So, I hate to say this, but it has always been about 
leadership. And the leadership in some states and some 
districts is strong. But, I look forward to renewed and 
increased leadership at the Federal level with the FCC and USAC 
and certainly with Congress taking a look at this again. 
Because I can say, unequivocably--because I've been doing this 
for 40 years, so I'm one of those more mature individuals that 
remembers when there was no Internet in schools. And----
    Senator Ayotte. I think almost everyone up here would be in 
that position.
    [Laughter.]
    Dr. Abshire. Well, I didn't want to--I didn't want to be 
bold and say that----
    [Laughter.]
    Dr. Abshire.--Senator.
    But, to see what has happened, transformationally, in our 
schools, and to watch--because I--every week, I'm in 
classrooms. I'm not a figurehead that sits in a central office 
and signs papers; I'm in school with children and with teachers 
and with principals, and I know firsthand what has happened, in 
terms of educational attainment and achievement. And, while we 
can't quantify and say, ``Well, absolutely, definitively, this 
is E-Rate that made that difference''--and some of it is 
anecdotal, but I can tell you firsthand, I've seen it happen 
classrooms with preschool students and high school students 
that are more connected at home than they are in our school. 
And these aren't children from wealthy families; these are 
children that are in Title I schools, but still have 
connectivity in the community, and they have a smartphone, and 
they are extremely connected, in terms of knowledge and 
information and research. And maybe they're just Googling 
something about the entertainment industry, but they're reading 
at phenomenal rates. And, as a former librarian myself, I'm OK 
they're reading online. I'm OK with reading online.
    [Laughter.]
    Dr. Abshire. So, I hope that helps, Senator.
    Senator Ayotte. Well, I have a 5-year-old and an 8-year-
old, so I'm experiencing this myself, and they're much more 
tech-savvy than I am.
    I don't know if you wanted to add anything, Ms. Lord. I 
know my time's up, but I certainly want to hear your 
perspective if there's anything.
    Ms. Lord. Thank you.
    We have spent an awful lot of time, in Maine, educating our 
schools and our libraries about the E-Rate participation, the 
return on investment from that fairly minimal participation. If 
somebody can spend a day filling out paperwork and get $20,000 
for their school district or their library, it's just a--it's 
just a no-brainer.
    I would love to meet with you, aside from this, and go into 
the details about how we have done that in Maine, because 99 
percent of our libraries are connected to the Internet, and 
there's--something like 96-98 percent also have wireless 
connectivity.
    But, back to your question about how the process could be 
altered, we do a statewide consortium that includes over 900 
schools and libraries. And, because we submit a consortial 
application, our application is one of the last reviewed by the 
SLD. And we wish that there was some way to expedite looking at 
these large consortial applications. We've been submitting them 
now for--since--I think it's 1998 or 1999. And the same thing 
about the extended contracts that you mentioned, there's never 
been any question of waste, fraud, or abuse, and we sure would 
love not to have to be at the tail end of getting that money 
approval. We find schools and libraries applying for the needs 
and not having a clue of when funding is going to come in for 
what they need for the very next year. So, that would be my 
suggestion, on expediting the process.
    And I'm so glad the NPRN is coming out--NPRM is coming out, 
because I'm sure that there are other ways that it can be done, 
and we'll have time to study those and formulate responses.
    Senator Ayotte. Good.
    Well, my time is expired. And, Mr. Finn, I'm not picking on 
you. I'm probably doing you a favor, actually, by not asking 
any questions.
    [Laughter.]
    Mr. Finn. That's OK.
    Senator Ayotte. But, thank you all for being here, and I 
look forward to New Hampshire not being 50th on the rate of 
return for our E-Rate contributions.
    [Laughter.]
    Senator Ayotte. So, thank you.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich presiding. Thank you very much, Senator 
Ayotte.
    I appreciate you all being here. Senator Rockefeller will 
be back momentarily; he had to go down and vote. And I know we 
have another vote in progress, a second vote right now 
occurring. Yes, I--yes, that's why I wanted to make sure, so 
you wouldn't miss that one.
    So, let me, first, say, again, thank you all for being 
here. I want to, obviously, thank the Committee for having 
this.
    In Alaska, all school districts, eight private schools, one 
State school, 74 libraries, and two education service agencies 
apply for E-Rate funding on a regular basis. The average 
discount for Alaska is 78 percent, to give you a sense of the 
high cost and the capacity. And so, we're very familiar with 
this program, more than probably we'd want to be, but it's 
important for our livelihood and ability to do the work in 
Alaska.
    I know, Sheryl, you made some interesting--in your written 
statement, I really appreciated, and I can't agree with you 
more, and many of you, that--on your testimony, that I was able 
to step and also read. In Alaska, 90 percent of our libraries 
are connected; 40 percent of our schools are connected, at 1.5 
megabit. To achieve 1 gigabit will be a huge challenge for us. 
I mean, no question about it. Four, kind of, simple things we 
think are a part of the equation, and then I have one or two 
quick questions for you all.
    One, we think the availability to offer this level of 
connectivity on the part of the service providers is very 
important. Improved infrastructure, including upgrades to 
videoconferencing--we utilize, as you can imagine in Alaska, 
videoconferencing, video health services, as a driver in our 
rural communities and in schools and libraries, to make sure 
they can handle this, so the infrastructure is there to handle 
this capacity.
    And also, the dollars. We appreciate the 78 percent, but, 
honestly, in a rural village which has no property tax base, 22 
percent is just an unbelievable burden. When you think of the 
high cost to deliver--even though we debate the FCC recently, 
and we think they should correct this, and I think they will--
when they made the claim that it was cheaper to build in Alaska 
than in the Lower 48, which--I missed that, in all my life, 
being born and raised in Alaska. So, they're a little confused 
on that, and we're working with them to help them see the 
light. But, also the continuation of universal service for 
universal health as well as education, this is very important.
    You know, the idea--and I think--again, Sheryl, you talked 
about modernization, which we agree, and I don't know if you're 
familiar with the recent comments filed from FCC on Funds for 
Learning. I don't know if you're familiar with that at all, but 
here's what it does. In the filing, the group suggests that the 
program move to a per-pupil allocation at an E-Rate formula. 
And you can imagine--I have a small village community, Pelican, 
17 students--basically, they ain't getting any E-Rate that's 
going to do anything. I mean, at that kind of formula. You 
know, raising the program cap to $4.5 billion is great, but, 
you know, it's long overdue, and there's a lot more that needs 
to be done here.
    And so, when you think about this issue--and I know you're 
kind of in the trenches, and I appreciate that; and, as a head 
librarian, you're head of the library association in Maine. I 
mean, I--you understand it, also. We have to be careful. And I 
know sometimes it's easy for FCC--and this is more of a 
commentary, and just--if you have any response, that's fine--
for the FCC to kind of get a one-size-fits-all, because it's 
easy to manage and it's easy for the--you know, honestly, for 
the companies to manage. But, the reality is, when you have 80 
percent of the villages not accessible by road in Alaska, and 
you have communities that are in desperate need of this 
technology in order just to survive, or it takes one day to 
download a video, right now--one day to download the video that 
the school will use, if they can use it--you can imagine what 
that does and what it--what the--gap.
    So, at the end of the day, you know, we need to make sure 
that it's truly a universal system, not based on who can invest 
the most, who's closer to the proximity of the service 
provider. And I'd be interested in, first, maybe, Sheryl, if 
you want to respond, on the Funds for Learning, if you're 
familiar with this per-pupil ratio that they're--that has been 
kicked around, if you have any comments, or this--then, 
generally, any comments you all have.
    I know I've read your testimony, and I appreciate that. I 
knew I'd be in and out of this meeting, so I wanted to take a 
glance at that. But, maybe if you want to make any comments. 
And again, thanks for your--did you say 40 years in----
    Dr. Abshire. Forty, uh-huh.
    Senator Begich.--in the trenches? Appreciate it.
    Dr. Abshire. It's a lot of good hair color that----
    Senator Begich. Yes.
    Dr. Abshire.--helps me get through the----
    [Laughter.]
    Senator Begich. My parents were teachers, my sisters are 
teachers, my sister-in-law is a teacher--one just retired after 
26 years in the trenches, working with students and creating 
capacity of learning. So, thank you.
    Dr. Abshire. Well, it's an honorable profession. I know 
that your parents raised you well if you came from educators, 
so you certainly understand.
    Senator Begich. I don't know if they'd say that at times, 
but I appreciate that.
    [Laughter.]
    Dr. Abshire. I'm going to bet they would say that. I have a 
daughter that teaches in Texas, so I know the pride in having, 
you know, a child that's in education.
    I am somewhat familiar with that proposal, and I think what 
I would say, Senator, is that--again, I sound like a broken 
record, but this whole concept of opportunity. I think the more 
conversation that comes to the table about E-Rate and the 
opportunity to finesse and to tweak a system that has, quite 
frankly, had tremendous and phenomenal success in such a large-
scale way, is a little bit overdue. So, we're having the 
conversation now. I think that proposal--I think what we have 
to do in--when we look, in terms of goals, that we make sure 
that they're crafted to fit the need. I also have, in my school 
district and certainly my state, very small rural schools, that 
that process might not work optimally without some type of a 
floor----
    Senator Begich. Right.
    Dr. Abshire.--some type of a process that helps take that 
into account.
    The other thing that I know you're keenly aware of, coming 
from your state, is the fact that we've got to figure out a way 
where the rural communities cannot be left out of this Priority 
2 internal connections piece. There are lots of ideas floating 
around, but I'd go back again to Mr. Coulter's earlier comments 
about the fact that, with the tremendous amount of data that we 
have on this program, the concept of transparency and 
quantifying that data in some way that helps us really look at 
state-by-state, district-by-district, and parsing that data in 
a way where we can make what we--what everyone tells us in 
school districts to do, make data-driven decisions--I think 
that we need to apply that same rationale to these processes.
    So, I think we've mentioned, several times, you know, the 
proposed rulemaking process is going to be active and engaged. 
And I think all of us welcome that, because it's only through 
this connected and serious dialogue about, ``How do we get from 
A to B to C and remain competitive, but yet understand the 
responsibility that we all have with this process around E-
Rate?'' that we're going to come to consensus and middle ground 
that, at the end of the day, is going to do what the fund was 
originally crafted to do, which is to provide access and equity 
to every child in America, no matter where they live, no matter 
where their parents work, and no matter where they go to 
school, and in such strategic ways that we can point with pride 
to the program, as we do now--you know, I'm very proud of 
what's happened in this program. And I know that we have an 
opportunity to continuously improve it and have it make sense 
for everyone. But, we're not all going to get what we want. We 
know that.
    Senator Begich. Sure.
    Dr. Abshire. But, I think it's the data--is the key piece, 
Senator.
    Senator Begich. And is it fair to say, when you say 
``equity,'' you mean also universal, that it doesn't matter 
where you live, who you are, how remote, how urban, that you 
should have equal access and speed and otherwise----
    Dr. Abshire. I think that--I think--yes, sir, I think that 
goes without saying. It--again, I come from a state--I have--we 
have a K-12 school that sits, surrounded by rice fields, and it 
doesn't get any more rural than, perhaps, in Alaska, on a 
mountaintop. But----
    Senator Begich. Right.
    Dr. Abshire.--we have significant problems there, and E-
Rate has been the solution to inform and engage that entire 
community with connectivity.
    Senator Begich. Fantastic.
    Any other comments? Sure.
    Ms. Lord. There are two organizations that are looking 
carefully at all States and their needs, and with the aim of 
exactly what you just said: equity for all.
    I'll quickly mention that Maine, my home state, has an 
issue with islands that are populated----
    Senator Begich. Yes.
    Ms. Lord.--unbridged islands with schools on them, and 
getting equal connectivity for them is a huge challenge, as you 
might imagine.
    I belong to an organization, because I am the Maine State 
Librarian, called the Chief Offices of State Library Agencies, 
and I'm the liaison between the Nation's State librarians and 
the American Library Association Office of Information 
Technology Policy. And I chair their E-Rate Task Force. And we 
talk to the E-Rate coordinators from every state that has one, 
and most states do, monthly and share common concerns and 
common issues. And we're very aware of the challenges that your 
state meets, and we hope that, in the Notice of Proposed 
Rulemaking, that we can make a point about this equity of 
access and to provide what people need.
    We have tiny libraries in Maine that may be open 15 hours a 
week and run by volunteers. They're happy with the T-1. They 
may be happy with the T-1 forever. But, we have others who 
already have a gigabit of connectivity, because that's what 
they need. This program has always been based on basic 
connectivity, and that definition has changed radically, as we 
all know.
    Senator Begich. Right.
    Ms. Lord. So, just to let you know that State librarians 
and the Washington ALA Office are watching this whole scene.
    Senator Begich. Thank you very much.
    Mr. Coulter. For Senators worried about the rural issues, I 
would suggest you keep your eye on three things:
    First of all, we understand that the digital divide is a 
large discussion today. We need to make sure the digital divide 
isn't just about income, it's about location also.
    Once you define the digital divide correctly, you get to my 
second point, which is, the data emerging shows that we may 
make large investments on one side of the digital divide, but 
the payoff is highest moving those people across the digital 
divide. Any of the people on the right side of the digital 
divide today will find these services anyhow, so the payoff of 
making the larger investments into these rural communities is 
actually higher.
    The third thing to keep an eye on is, there is a 
disproportionate cost as you get more rural. I believe that we 
have to bear that. So, as people try to cap the expansion of 
the program, we have to understand that that pressure will put 
disproportionate pressure on people on the wrong side of the 
digital divide.
    Senator Begich. Yes, it's a good point. I mean, when you 
think of, maybe, the interstate system or the power or 
telephone or rail, you know, we made the decision, in those 
public policy decisions, that, you know, we're going to 
electrify the country, and no matter where you are. And the 
costs may be higher to get to some and less than others, but, 
overall, the benefit will be higher than it is without it, no 
matter where you live.
    So, you know, where I think a lot of people are still 
grappling with the fact that we--this technology is no longer 
an ``extra,'' it's the basis. And in the generation next, if 
someone has a landline, it'll be a miracle. So, we have to 
think of all this as a longer value-add. And so, it's a good 
point you make there, so thank you.
    Let me--I'm going to turn to staff, because the Chair isn't 
here, and I might have the chance to adjourn the meeting, but I 
don't want to get the Chair upset. That would be bad, as a 
member.
    [Laughter.]
    Senator Begich. So, let me pause for just one second. 
Excuse me.
    [Pause.]
    Senator Begich. What we'll do--look at that. See, it's all 
about buying enough time--oh, and we got two members; this is 
even better.
    Senator Rockefeller, I have made agreements with all of 
them on all kinds of issues. They're----
    [Laughter.]
    Senator Begich. They're very excited about your support. 
And----
    [Laughter.]
    Senator Begich.--I appreciate that all telecom in Alaska 
will now be coming from West Virginia.
    [Laughter.]
    Senator Begich. It's back to you. I just finished, 
actually, so perfect timing. I'm going to go vote.
    The Chairman presiding. Have you ruined our--you'd better 
hurry----
    Senator Begich. I know. I----
    The Chairman.--before they finish the vote.
    Senator Begich. You know, if we actually used technology in 
the Senate to vote, we might be able to vote easier. But, 
that's another story for another day.
    [Laughter.]
    Senator Begich. Some of us--others--never mind, I'll stop 
there.
    The Chairman. Thank you very, very much.
    I want to call on the distinguished Edward Markey while 
officially welcoming him to this committee. He has been doing 
this for 27 years in the House--30. And he was, right at the 
very start, one of the--along with Olympia and myself--on the 
House side, the E-Rate champion. And it just so happens that 
he's on the Commerce Committee, which make his Chairman very, 
very happy.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman. And--I have to 
learn how to--I have to push the button.
    The Chairman. That happened to me the first time.
    Senator Markey. Thank you.
    The Chairman. I couldn't eat for a week.
    [Laughter.]
    Senator Markey. Thank you, Mr. Chairman. It is an honor to 
be on the Commerce Committee with you and to know that you 
played, along with Senator Snowe, the key role, over here in 
the Senate, in making sure that the E-Rate is available to 
children in America, to libraries in America, to making it 
possible to say that there is a democratization of access to 
opportunities through access to the educational tools, which 
the Internet provides.
    As we were debating all of the big globalization issues in 
the 1990s, it was obviously critical that the children of 
America have access to the skill set which they were going to 
need in order to compete in that global economy. So, as we sped 
up the speed of change, we also had to speed up the rate at 
which young people got access to the tools they were going to 
need.
    And so the E-Rate is a big part of that. And, in fact, 
the--access to the Internet in schools is the first educational 
technology to have ever been deployed at the same rate for 
affluent children as it was for the children of the poor. And 
that's quite a statement about a piece of legislation that has 
now actually allocated well more than $30 billion.
    And, while you and Senator Snowe were working on that over 
here, I was doing the same work, over on the House side, to put 
together the coalition that would make it possible for this 
incredible program to be there so that kids would have access 
to it.
    And it's my honor to be here on the Commerce Committee with 
you. I've admired you for so long, and I thank you for your 
historic work on this legislation.
    So, I--and I love the fact that my first hearing in the 
Senate is about the E-Rate, because, in a lot of ways, it is 
the educational program of the last 18 years in America. It's 
well over $30 billion. It's targeted toward those who need the 
extra funding most. And you can see, in the hands of any kid, 
regardless of income, regardless of race, that, once you put 
the technology in front of them, they're going to be adapting 
to it just as fast as a kid in the most affluent neighborhoods 
of the country. And, ultimately, that is what is going to help 
to ensure that we are competitive in the 21st century, because 
education is what it is that makes our country great.
    I actually had a conversation with George Lucas about this, 
back in 1993. We had lunch, talking about how we could do 
something that ensured that every child had access to it. And 
it was actually built into the 1994 Telecommunications Act, 
which passed the House, but, unfortunately--and we now know 
it's obsolete, but it got filibustered to death in the Senate 
in 1994. But, we're taking care of that now over here. And then 
Senator Rockefeller and Senator Snowe took up that cause in 
1995 and 1996, and here we are, kind of enjoying it.
    So, let me ask this. In terms of--and maybe you've already 
answered these questions--what should the FCC do to improve 
connections inside schools, including Wi-Fi, across 
Massachusetts, but around the entire country? Would one of you 
want to address----
    Mr. Finn. Yes----
    Senator Markey.--that question?
    Mr. Finn.--Senator. First of all, congratulations and 
welcome. And I congratulate you and the Chairman for the 
historic work on E-Rate. I think that this is the foundation in 
which we can answer your question, because what we've been 
talking about this afternoon has really been a critical 
investment and then, how do we ensure that we're getting the 
results and the efficiencies that are required in order to keep 
our children competitive and ensure that we're creating the 
workforce of the future, not just for this country, but that we 
are globally competitive and having global workforce? So, the 
work that you've done in the past, and the work that's required 
in this legislation is really to focus on that.
    One of the things that I think we need to ensure that we're 
looking at is, not just the connectivity of the schools, but 
the connectivity of the students, in order to put the 
technology in the hands of the students. It's easy to put 
technology in the hands of a student. So, you can put a cell 
phone in the hands of the student, but, without the battery, 
it's providing no value. And we have to make sure that we're 
focused on, not just the connectivity of the school, but also 
the value it's bringing to the student, in order to ensure 
they're participating in the education of the 21st century.
    We've talked about minimum standards. One of the largest 
fears I have is that we focus on the negative, the waste. I'm 
from a family of 12 brothers and sisters, and one of the things 
that I've learned through that process--and it truly is a 
process--is that you can spend a lot of time focused on the 
wastefulness of more than you need, but if you don't focus on 
the wastefulness of less than what you need, you're in equal 
difficult situation.
    And so, one of the things that we want to ensure that we're 
providing with technology and the policy for a student who can 
visit Africa, England, and South America from their desktop, 
whether they're in a rural community or in an urban community, 
becomes important. And so, I think that we're on the right 
track. I think the modernization of E-Rate is important for the 
children, it's important for the country, and it's important 
for our competitiveness.
    So, thank you for the work that you've done.
    Senator Markey. So, on wireless----
    Mr. Finn. Yes.
    Senator Markey.--do you have a specific plan for wireless?
    Mr. Finn. Most of the education systems around the country, 
and most of the--and many of the E-Rate expenditures--is 
focused on wireless in order to ensure that these devices are 
really the devices of the future, in order to provide that 
access to the world. And I think that the architectural 
approach of, not just the wired, but the wireless really is a 
focus on ensuring that we're connecting the student and that we 
are in a mobile world and that the benefits do land in the 
hands of the students.
    Senator Markey. Yes. So, I'm the author of the National 
Broadband Plan.
    Mr. Finn. Sure.
    Senator Markey. So, I built that into the 2009 stimulus 
bill. And the National Broadband Plan included a number of 
important recommendations on E-Rate: setting goals for greater 
speeds--the issue today is not one of access, it's one of 
speed----
    Mr. Finn. That's right.
    Senator Markey.--improving Wi-Fi and other internal 
connections in schools. If coffee drinkers assume there will be 
a Wi-Fi at Starbucks, then students should assume the same when 
they walk into a school.
    And, third, streamlining the E-Rate application process for 
schools. Educators should spend their time educating, not 
filling out the paperwork.
    So, I commend the FCC for the work which they have been 
doing. And I praise the President's commitment to making sure 
this is a high priority. But, I think it's time for us to 
establish a plan so that we maintain our excellence, and that 
it's an articulated plan that mothers and fathers can 
understand, and the country can understand, so that we ensure 
that our country is number one, looking over its shoulder at 
number two and three in the world. And the best way of doing 
that is ensuring that we take the E-Rate plan and move it to 
the 21st century in a way that everyone can understand.
    Mr. Coulter.
    Mr. Coulter. Yes. Since I have two visionaries left in the 
room, here, I would give you a vision to think about as you 
watch the FCC's action, going forward. We originally defined E-
Rate as access into the school as priority one and then 
classroom as priority two. What we're saying here today is that 
we ought to expand that all the way to the classroom.
    There's still a missing piece. Other countries have defined 
the connection all the way to the device. So, Turkey is out 
buying the device at a national level. We probably can't do 
that. But, if you can find ways, within modernization, to 
really complete the connection somehow, I think that would be 
of great purpose. We have misdefined the idea of 
``connection,'' once you get to educational technology.
    The good news is, I believe that, if we define it into the 
classroom, that there'll be enough competitive juices among the 
device-makers that maybe it'll help us open that market. But, 
there may be some things that you can do to help that happen.
    Senator Markey. OK, great.
    Dr. Abshire?
    Dr. Abshire. Thank you. Thank you, Senator, and 
congratulations. We all watched your movement to the Senate 
with great pride, and so we're glad you're here and certainly 
supporting Senator Rockefeller in this work in this new 
capacity.
    The concept of the wireless connectivity, I think, is one 
that is important. As the use of technology in classrooms has 
changed today--primarily, when we first began this process, we 
had a lot of desktop computers sitting in classrooms with wired 
connections. With the advent of the tablets, the iPads and--and 
I would bring a point up that we haven't talked about yet this 
afternoon, is--the student devices sometimes referred to as 
``bring your own technology'' or ``bring your own device'' is 
growing at exponential rates, because the price of the device 
is becoming so much more affordable that many students, even in 
economically depressed areas, come to school with more than one 
device. They may have a phone and then they may have a tablet. 
And so, I know, in Louisiana, and certainly my district in Lake 
Charles, we've paid a lot of attention to what has happened, in 
terms of the shift between a wireless and a wired connection, 
and we've used E-Rate, I think, very, very wisely to cost-shift 
some of the dollars as we've been able to move away from the 
wired connections and the expenses that that entailed and 
shifted that to wireless connectivity.
    So, in all of our schools, all 70 of our campuses, you can 
park in the parking lot, you can walk outside, you can go into 
the gymnasium or the cafeteria, and you're going to have a 
connection, because that's what 21st-century education demands: 
kids that are always on. It's not just when you're in 
classroom.
    So, I really appreciate that question, because I think it 
points to the fact that things have shifted. And so, in 
districts, with leadership, we've been able to cost-shift away 
from textbooks and move those costs into wireless connectivity, 
digital content that provides relevant, current information to 
students when they need it, not when we want to teach it.
    So, I really appreciate the question, and I think it's a 
valuable point, and I think it shows that the evolution of the 
E-Rate is--and the fund is doing what it needs to do. The only 
problem is that pesky cap. If we could just increase the cap, 
then I think we could see the type of expansion that's needed 
and that you refer to.
    Senator Markey. Thank you.
    So--would you like to add something, Ms. Lord?
    Ms. Lord. Yes. I'm ready to burst, and you recognized it. 
Thank you so much. I never in a million years thought I would 
be sitting here with you, Senator Markey and Senator 
Rockefeller, talking about E-Rate and its impact on libraries. 
I am so honored----
    Senator Markey. Neither did we.
    [Laughter.]
    Ms. Lord. I am so honored to be here talking to you.
    First of all, a lot of the conversation this afternoon has, 
rightfully and understandably, focused on schools, but I beg 
you to remember the 30,000 people each week who use our 
nation's 66,000 libraries. I think I just said that number 
wrong, because I'm so excited. Sixteen-thousand libraries who 
serve 30 million----
    Senator Markey. There it is, yes.
    Ms. Lord.--people each week. And that is a critical number. 
And it isn't just students whose worlds are changing, it's 
adults whose worlds are changing, too. People don't have the 
same jobs anymore. People need to reeducate themselves and 
train for jobs, and our libraries are helping them do that.
    And, in terms of wireless, 91 percent of our libraries 
across the country do have wireless. And, in Maine, it's a 
higher ratio than that. In fact, in the capital of Augusta, 
where I work, one night watchman got relieved from his duties 
because he parked in front of the State Library every night and 
was online. And once somebody figured that out, the poor 
gentleman lost his job. Now, that's certainly not a plus of E-
Rate, but I mention it.
    [Laughter.]
    Ms. Lord. Some of you may be aware of now-Senator King's 
effort for one-on-one student devices when he was the Governor 
of Maine and was one of the first people in the country to say, 
``Our students need one-on-one personal devices.'' And that 
worked in so beautifully with the E-Rate Program, it was the 
perfect merging, or a perfect storm, if you have.
    Libraries are open when schools aren't. And children do 
come to libraries after school. Children do use libraries in 
the summer. Children do use libraries on the weekends. So, I 
want you to remember that, too, please.
    And libraries provide to students and to adult learners all 
kinds of online resources. Connectivity is great, but you've 
got to have some content there. You just have a line running 
around the country--you understand what I'm saying. I don't----
    Senator Markey. Yes.
    Ms. Lord.--need to belabor it.
    So, we have all kinds of newspapers online, periodical 
articles online, and reference books online, which are much, 
much less expensive than every library purchasing them for 
themselves and which are available to all schools and libraries 
in Maine.
    So, please, I beg you--and Senator Rockefeller said it 
beautifully in his opening remarks--libraries, there are fewer 
of us, but we are critical to the people that we serve, in 
terms of reaching out to the world, in terms of self-education. 
And I could sit here and tell you stories, for the next hour, 
about individual lives, people who have gotten jobs because of 
the training they had at the library or the online resources at 
the library; businesses in Maine that could upload huge files 
of information at the library; small businesses, which are the 
backbone of the Maine economy, who would not be surviving if 
they could not go to a library with a broadband connection and 
upload those files; tourists who come to Maine and stay because 
they can stay in touch with their businesses. And we've had 
people actually say, when they came to a library, in Rangeley, 
for example, a beautiful lake region, and the librarian said to 
one gentleman who came in every morning for 2 weeks, ``I feel 
so sorry you have to do this on your vacation,'' and he said, 
``Are you kidding? If I didn't have this connectivity, I could 
only stay here a week. Because of this connectivity, I can stay 
here several weeks with my family.'' So, that's the kind of 
thing I can go on and on about all night.
    Senator Markey. And we thank you for doing it. We----
    [Laughter.]
    Ms. Lord. Well, I thank you for listening. Schools are 
important. I taught in schools for 15 years. I just finished a 
term on a school board. I think I'd rather be in the Senate 
than on a local school board, I'll be honest with you.
    [Laughter.]
    Ms. Lord. So, I understand and support, completely, the 
needs of the schools. But, for goodness sakes, please don't let 
libraries get buried in all this. And we will be so active and 
put so much thought into the Notice of Proposed Rulemaking that 
comes up, and do our very best to support citizens who are not 
in our public schools, as well as the citizens that are.
    Senator Markey.--thank you.
    And thank----
    Ms. Lord. Thank you.
    Senator Markey.--you all. Thank you all so, so much.
    Mr. Chairman, thank you for your leadership on this issue. 
We need greater speed, better Wi-Fi, a more streamlined process 
for applications. We've got to make this whole thing work even 
better, because we have to keep pace with the change that's 
going on. Our competitors are out there around the world, and 
they know that this is key. And, in a lot of ways, it is the 
proxy, it is the measurement by which a nation is going to be 
able to determine how successful it will be in the future.
    And so, this question, whether it be Massachusetts or West 
Virginia, is the same one. What are we giving to these kids? 
You know? And that's our obligation. You just don't take home 
your books in a book bag anymore. You have to just continue to 
move on. And the Chinese, the Indians, the Germans, and others, 
they have a plan. And we don't have to fear these nations, but 
we should respect them. When America has a plan, America wins. 
And so, we just need a plan that's articulated, that mothers 
and fathers understand, and that every community in the 
country, whether it be in West Virginia or Massachusetts or any 
other place----
    Ms. Lord. Or Maine, and that includes libraries.
    [Laughter.]
    Senator Markey. And libraries. I think the Rockefeller 
family appreciates libraries.
    [Laughter.]
    Senator Markey. I think they helped to--I think they've 
helped to construct enough for the country. I think we know----
    Ms. Lord. Thank you, Senator Markey.
    Senator Markey.--there's a preexisting bias toward 
libraries.
    And so, for me, Mr. Chairman, I'm so glad that I had this, 
you know, as the first hearing, because I don't think there's 
anything that either of us will ever do that really matches the 
impact that the E-Rate can have upon the families of every 
single citizen in our country.
    Thank you.
    The Chairman. Thank you, Senator Markey.
    Do you think we've said enough nice things about each other 
for about----
    [Laughter.]
    Senator Markey. I'm not allowing a graciousness gap to open 
up, here. OK?
    [Laughter.]
    The Chairman. OK. All right. OK.
    Let's make the final question, because you've been 
incredibly patient as we've wandered in and out, on--there are 
two things that I'd like to get comments on.
    One is, I totally agree with you--and, I think, Mr. 
Coulter, you've made this comment; others did, also--is the 
whole transparency factor. People--in order to support an E-
Rate 2, as I call it, people have to trust--you know, because 
there will be costs--it won't necessarily come from the Federal 
Government, et cetera; or, you know, legislated costs, that 
kind of thing--but--and also, it--things take time. In other 
words, one of the reasons that we have to get at it right now 
is because the payoff doesn't come for quite a while that we're 
training people for the future. Now, we've trained people, 
already, on E-Rate system, as it has been, and they've met with 
great success. But, what we're talking now is a whole new 
level.
    So, I would be interested in two things from anyone who 
wants to answer this, provided one of them is Mr. Coulter, and 
that is the importance of transparency for the trust of the 
American people and also for the efficacy or the willingness of 
people to adapt to the E-Rate Program, take advantage of it 
because they do trust it. That's number one.
    Number two, as a businessperson, I'd like you to say a few 
words--I mean, we--you know, we keep reading about this 
hundreds of thousands or--whatever, tens of thousands, a 
hundred-thousand jobs that are available right now in the 
Silicon Valley which we can't fill because we don't have the 
people trained, technically, for it. And that's, you know, 
outrageous and enraging and all the rest of it. But, the point 
is, it doesn't make any difference; we've got to solve that 
problem.
    Would--could you go a little bit into--and anybody else who 
wants to--into, one, the question of making it transparent so 
that people can't bring up little nics and nacs, which are, in 
fact, as Dr. Abshire has been talking about, are getting 
cleaned up, a lot of them, as the program goes along, because 
they have no choice; and, second, the cost to the American 
economy, to American business, of not having people available?
    Mr. Coulter. So, let me start on those two.
    One of the things I hope the FCC would do in the upcoming 
process is to turn E-Rate from, not just a process to get 
important money into the system, but as a process to save 
money. So, if schools have data, I think they can use it to go 
save money in the process by figuring out best practices, by 
figuring out who to buy from, et cetera. So, it's taking a 
purchasing cooperative data and making it available to everyone 
in a way that can push down costs. So, scale and data and 
technology are important to pushing down costs. E-Rate can 
provide scale and data. So, let's make it transparent.
    We have--Education Superhighway, who we've worked with, has 
done a lot of work. They don't have the E-Rate data, but 
they've gone out and recreated it by asking at individual 
schools. And they found, often even within the same district, 
people are paying four times different for certain services 
because they just don't know. So, we can solve a lot of 
efficiency and drive a lot of costs out of the system, 
generally----
    The Chairman. And who will make that clear to them, that 
they can pay the same rate?
    Mr. Coulter. Well, if the information is--you know, around 
our companies, if someone buys something somewhere, it's 
immediately valuable--it's immediately available online, and 
everyone can see it. So, why not have an online purchasing data 
part of E-Rate, which will allow schools to have information 
they need to minimize costs?
    In my day job, when I'm not working on these issues, we 
look to hire the people you're talking about, people who are 
innovative and STEM-trained. And some of the areas that 
educational technology have been already shown to be most 
productive is within STEM and math. The numbers that struck me 
in this process are 31, 23, 17--or 31 in math, 23 in science, 
17 in reading. That is just unacceptable. And if we don't 
invest, it's going to get worse. So, we need to focus on that 
31 and 23 and the 17, but we need to create new jobs.
    You know, what gives me hope in this is today--someone 
challenged me, recently, to come with anything in the Internet 
that had been created by somebody under--over 30. Right? And I 
was really pretty challenged. Basically, most of the new things 
in the Internet are from people under 30. Those are students 
that were brought up in schools that you connected to the 
Internet. So, I don't know if there's a direct correlation, but 
I suspect there might be. So, if we continue to stress access 
to technology in our school, I think we will continue to drive 
innovation and a technology-enabled workforce. And there are a 
few things more important we can do.
    The Chairman. Let me just close this by thanking you and 
just saying that, just before I came over here, I was at the 
National Youth Science Camp meeting, which, happily, is in West 
Virginia every year. And it takes the two top science students 
from each state--now, how they pick that, I do not know and I 
do not care----
    [Laughter.]
    The Chairman.--and they each come to--they all come to 
Washington, and they have a series of experiences here. So, we 
had a lunch today, and a businessperson who's an expert in 
cybersecurity spoke. And it was stunning for me, as it is every 
year, just to look at these young people--just to look at 
them--to listen to the questions they had to ask. One, that 
they were--they could just get up and ask a question so 
fluently, so literally, so unabashedly. Nobody was shy. They--
there wasn't a decent sound system, so they just made their own 
sound system, causing them no problems whatsoever. And I kept 
saying to myself, this is the hope of America. And then I knew 
I was having this hearing, and it just makes this hearing so 
much more important, because if they're that good coming out of 
an E-Rate Program and a schooling system, thus far, imagine how 
good they might be 10-15 years from now.
    So, on that lofty note, I want to genuinely thank all of 
you. You've been wonderful. I mean, I'd invite you home----
    [Laughter.]
    The Chairman.--to have dinner. But, I can't cook.
    [Laughter.]
    The Chairman. And I'm not going to give Dr. Abshire a 
hotdog.
    [Laughter.]
    The Chairman. So, thank you for coming.
    Thank you, Senator Markey, for gracing our Commerce 
Committee. To be quite honest with you, that's one of the big 
things that will have happened to me for the next several 
years, is the fact that you wanted to be on this committee, and 
it was at the top of the list, because the person who was 
whipping it, who is on this committee, came up to me and I saw 
your ranking, and Commerce was at the top. And here you are.
    And so, all of us are grateful, as we are to each of you 
and for all the work you do, and the people who go through it 
with you. Right?
    So, with that, I think what I'll do is close the hearing.
    [Whereupon, at 4:55 p.m., the hearing was adjourned.]
                            A P P E N D I X

                             National Education Association
                                      Washington, DC, July 16, 2013
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senator:

    On behalf of the three million members of the National Education 
Association (NEA), we offer our views of support for strengthening and 
expanding the E-Rate program ahead of tomorrow's Senate Commerce 
Committee hearing, ``E-Rate 2.0: Connecting Every Child to the 
Transformative Power of Technology.'' Since its creation in 1996, the 
E-Rate has had overwhelming success in connecting our Nation's schools 
and classrooms to the Internet. The program continues to be a vital 
source of assistance in maintaining connectivity and enhancing 
learning.
    NEA is a strong supporter and advocate of the E-Rate program, as it 
has helped bridge the digital divide for countless students by 
providing them access to the Internet and providing them the 
opportunity to develop the skills needed to compete in a digital age. 
The program has been successful at connecting nearly all our Nation's 
schools to the Internet. In fact, it has been so successful that merely 
accessing the Internet is not enough. Students and educators not only 
depend on access to the Internet, they require high-capacity broadband 
connectivity.
    NEA believes that additional investment in the E-Rate program is 
needed to help bolster the broadband infrastructure of our Nation's 
schools. Without high-capacity broadband connectivity that can support 
multi-user school environments, educators and students will not be able 
to engage in enhanced learning, distance education and use existing 
applications, as well as support future applications. The E-Rate 
program could serve as the conduit to enhance the broadband 
infrastructure of our Nation's schools as it has had a good track 
record of providing ongoing Internet connectivity to schools.
    However, it is important to note that the demand for the E-Rate 
program continues to outpace the discounts available. The additional 
investment to bolster high-capacity broadband infrastructure should not 
supplant current E-Rate funding. In FY 2012, program requests reached 
an all-time high of $5.2 billion in discounts, roughly double the 
amount available. In light of education funding cuts and the damaging 
effects of sequestration on education budgets, the need for the E-Rate 
program has never been higher.
    NEA believes that the time is now for critical investment in the E-
Rate. Accessing the Internet is simply not enough. Our classrooms must 
be built upon a broadband infrastructure that not only meets current 
needs but also supports 21st century teaching and learning. The 
increasing use of technology in the classroom will transform the role 
of educators allowing the educational process to become even more 
student-centered.
    Educators know that the E-Rate program is key to student success 
and ensuring access to technologies that better prepare our students 
for college and 21st century careers. We look forward to working with 
the Committee to strengthen this vital program.
            Sincerely,
                                               Mary Kusler,
                                  Director of Government Relations.
                                 ______
                                 
                                                    Verizon
                                   Basking Ridge, NJ, July 17, 2013

Hon. John D. Rockefeller IV,
Chairman,
Senate Commerce Committee,
Washington, DC.
Hon. John Thune,
Ranking Member,
Senate Commerce Committee,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Thune:

    On behalf of Verizon, I write to thank you for scheduling a hearing 
on July 17, entitled, ``E-Rate 2.0: Connecting Every Child to the 
Transformative Power of Technology.'' This is a timely and important 
topic, and is deserving of the Committee's full attention.
    We agree that the time has come to modernize the E-Rate program to 
make sure that its statutory goals are met, and that students have the 
advanced tools they need to be successful in the communications age. 
Providing students and teachers across the country with high-speed 
broadband connectivity is an essential component in ensuring America's 
continued global competitiveness.
    ConnectED challenges the Federal Communications Commission to 
modernize and leverage the existing E-Rate program, so that our schools 
are connected with broadband speeds of no less than 100 Mbps and a 
target of 1 Gbps. While the details around the program still need to be 
developed and we recognize that many policy challenges will need to be 
met along the way, we applaud your leadership and the leadership of 
President Obama in setting the laudable goal of connecting all students 
with next-generation broadband in their schools.
    Verizon is doing its part to prepare students for success in the 
21st Century by promoting the technology transformation of the 
educational system. For example, the Verizon Foundation is committed to 
improving teaching and learning, particularly through the use of mobile 
technologies to support Science, Technology, Engineering and Math 
(STEM) education.
    Last year, we also launched the Verizon Innovative learning Schools 
(VILS) program to provide grants to Title 1 schools for teachers' 
professional development. Results of the program show that the 
effective integration of technology in classroom curriculum, coupled 
with on-going training for teachers can have a positive impact on 
student learning.
    VlLS is just one of dozens of examples that show how advanced 
technology in the classroom can transform the learning process for 
students and teachers alike. By reviewing and modernizing the E-Rate 
program, we believe we can do even more to promote digital learning for 
all of our students.
    We look f01ward to working with you on this important mission.
            Sincerely,
                                         Craig L. Silliman,
                              Senior Vice President--Public Policy.
                                 ______
                                 
 Prepared Statement of John D. Harrington, CEO, Funds For Learning, LLC
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to submit this statement for the record as part of the 
Committee's hearing today entitled E-Rate 2.0: Connecting Every Child 
to the Transformative Power of Technology. I want to thank Senator 
Rockefeller for his leadership in making the E-Rate program a success 
and all the members of the Committee for the continued strong interest 
in and support of this Federal program that is so enormously important 
to our Nation's schools and libraries.
    Funds For Learning, LLC (FFL) is a regulatory compliance firm that 
specializes in the E-Rate program. FFL has been providing services, 
including online management and compliance tools, to the E-Rate 
community since the fall of 1997, when the Federal Communication 
Commission (FCC) was making initial preparations to launch the program. 
Our primary responsibility to our clients is to ensure that they remain 
compliant with the rules, regulations and administrative requirements. 
We use our website to keep the public informed about program 
developments and to help promote competition for E-Rate eligible 
services by making it easier for service providers to access 
competitive bidding information on USAC's, the universal service 
administrator's website.
    Since the program's early days, FFL has taken an active role in 
trying to help shape the program's policies and procedures for the 
better. In 2003, for example, the FCC invited the president of our firm 
to participate in a public forum to discuss potential rule changes to 
strengthen E-Rate program compliance and oversight. Also in 2003, USAC 
invited another FFL officer to be a member of its Task Force on the 
Prevention of Waste, Fraud and Abuse. In 2011, we took the initiative 
to petition the FCC to direct USAC to fund more requests for internal 
connections support, and the FCC responded with the Funds For Learning 
Order, which directed USAC to, among other things, ``make funding 
commitments for priority two services at the 80 percent percent 
discount level for funding year 2010.''
    We, too, believe in the transformative power of technology. That is 
why we fully support the Chairman's goal of bringing ``the promise of 
next-generation broadband connectivity to more schools and libraries.'' 
In survey results that FFL released last October, only 10 percent of 
schools described their current communications networks as ready for 
the future. Obviously, much work needs to be done.
    E-Rate funds can and should be used to help our country reach this 
important goal. To make this possible, however, the E-Rate program 
must, as the Chairman has suggested, be strengthened. To strengthen it 
sufficiently, we believe, the FCC must take the following two steps 
and, equally important, take them simultaneously: (1) at least double 
the size of the E-Rate fund--since current demand for funding is 
already more than twice the amount available--and (2) equitably limit 
how much funding any given applicant may receive in one funding year.
    More money is needed. In 1998, schools participating in the E-Rate 
program reported annual telecommunications and Internet expenses of $15 
per student. Now, in 2013, that number has more than tripled to greater 
than $50 per student. Yet, during that same period, E-Rate funding 
levels have barely increased.\1\
---------------------------------------------------------------------------
    \1\ FFL has prepared a detailed analysis of the FY2013 demand for 
discounted telecommunications and Internet access by schools. A copy of 
this analysis is being submitted to the Committee along with this 
statement.
---------------------------------------------------------------------------
    Looking ahead, there is every reason to believe that schools (and 
libraries) will continue to increase their use of advanced 
communications. Schools are planning to connect more students--and more 
devices--with faster Internet connections, and these schools are 
looking to the E-Rate program for additional support.\2\ Given the 
current growth in demand, and assuming the FCC continues to use a 
``discount threshold'' system to rank funding applications, FFL 
estimates that 84 percent of libraries and 71 percent of schools risk 
being disqualified from receiving any E-Rate discounts by 2015. For a 
program that includes ``Universal Service'' in its title, it is 
unimaginable--and unacceptable--that we would continue down this 
current course.
---------------------------------------------------------------------------
    \2\ 58 percent of respondents to the FFL survey believed that their 
telecommunication and Internet expenses would rise over the next five 
years. The survey results are being submitted to the Committee along 
with this statement.
---------------------------------------------------------------------------
    More money is certainly imperative, but more money alone is not 
going to be enough to address this situation. We doubt that there will 
ever be enough E-Rate funding to satisfy what every school and library 
``wants.'' But if the FCC, for the first time in the E-Rate program's 
nearly 17-year history, requires applicants to operate under E-Rate 
funding budgets and stops handing them ``blank E-Rate checks,'' it will 
incentivize them to drive harder bargains with service providers for 
eligible services and provide the motivation they need to consider and 
plan their E-Rate purchases more carefully. No public or private 
organization, none that we know of anyway, operates without a budget or 
receives a blank check every year to purchase as much as it wants. But 
that is exactly how E-Rate applicants are treated and, as the program's 
history plainly shows, that simply does not work.
    Under an equitable budget system, it is true that some schools and 
libraries might not get what they ``want,'' but more than likely, and 
especially if the FCC makes more funding available, the vast majority 
of schools and libraries will get what they ``need''--or at least some 
reasonable amount very close to that.\3\ Under our E-Rate 2.0 
``budget'' proposal, which we have already shared with the FCC, and 
which I have attached to this statement, an estimated 87 percent of 
applicants would qualify in FY 2014 for total E-Rate discounts that 
were equal to or greater than their FY 2013 telecommunications and 
Internet funding requests combined. Furthermore and unlike today, 100 
percent of applicants would enjoy greater freedom and flexibility to 
use their discounts on any service or equipment that the FCC included 
on its eligibility list and, in addition, have them delivered to any 
eligible building in their systems that they decide needs it.
---------------------------------------------------------------------------
    \3\ We have data to support this and would be pleased to share it 
with the Committee upon request.
---------------------------------------------------------------------------
    Under FFL's E-Rate 2.0 proposal, unlike under many other proposals 
to ``fix'' the E-Rate program, the FCC would not have to try to fix 
what many applicants, especially those who work very hard to comply 
with program rules, believe is not actually broken--the discount matrix 
or the eligible services list. Nor would there be any need to modify in 
any material respect how the program operates. That being said, FFL's 
E-Rate 2.0 ``budget'' proposal has the added advantage of being 
eminently adaptable to other ``fixes.'' Our solution framework and the 
various other proposals being discussed are neither mutually exclusive 
nor even slightly at odds. Any additional funding ``realized'' as a 
result of any programmatic change would easily ``plug into'' our 
proposed framework, resulting in increased annual budgets across the 
board.
    Under FFL's E-Rate 2.0 proposal, only the following three 
adjustments to the E-Rate program would be necessary:

  1.  Increase annual E-Rate funding to $4.5 billion permanently, with 
        an ongoing adjustment for inflation. Increasing the amount of 
        funding allows more applicants to enhance their network 
        connectivity.

  2.  Restore the original technology-neutral E-Rate framework by 
        removing the ``Priority System'' funding cap. Restoring 
        technology-neutral funding priorities gives applicants the 
        flexibility to choose the most cost-effective solutions that 
        they conclude they need to meet their own unique, local needs.

  3.  Place reasonable limits on the annual amount of E-Rate discounts 
        available to any single applicant. Placing limits on the total 
        discounts available to individual applicants encourages 
        thoughtful, cost-effective decisionmaking, stops large-spending 
        applicants from creating dramatic, annual funding shortages, 
        and helps to ensure that E-Rate discounts are applied only to 
        what each applicant needs the most.

    More specifically, this is what FFL is proposing:

  1.  Do Not Alter the Current Discount Matrix or Eligible Services 
        List or the Form 470, Form 471, PIA Review, or Payment Process. 
        Leverage applicants' existing training and experience, and 
        avoid reinventing the wheel.

  2.  Eliminate Unlimited E-Rate Discounts by Creating a Graduated 
        Budget Matrix Based on Economic Need. Create a graduated budget 
        matrix that provides equitable, per student and per patron (or 
        other variable) discount limits for schools and libraries at 
        different discount levels. 90 percent-discount applicants would 
        receive the highest percapita budget amounts and 20 percent-
        discount applicants the lowest.

  3.  Tie Annual Budget Amounts to Geographic Location Too. Develop the 
        new budget matrix by taking into account a variety of factors, 
        such as urban, rural, or remote rural location, and anything 
        else that will help to foster the equitable distribution of a 
        finite amount of funds.

  4.  Guarantee an Adequate, Minimum Funding Amount to Every Applicant. 
        Ensure that every applicant regardless of its size and location 
        receives a meaningful, minimum amount of funding in its annual 
        E-Rate budget. Higher discount-rate and remote-rural applicants 
        would receive proportionally higher minimum amounts, 
        respectively, than lower discount rate and urban applicants.

  5.  Permit applicants to allocate some or all of their annual budgets 
        to any consortium application in which they wish to participate 
        (except for state networks) and, for state network consortium 
        applications, set aside a specific amount of annual funding.

  6.  Reset Budget Amounts Annually. Every year, well before the window 
        application period opens, the Commission would set the per 
        school student and per library patron (or other variable) 
        budget amount for the next funding year.

  7.  Make Funding Specific, Predictable, and Sufficient. Assure 
        applicants that their E-Rate budgets will remain relatively 
        constant from one year to the next, subject only to 
        fluctuations in the size of the populations they serve and any 
        additional funding that might become available.

  8.  Permit Applicants to Set Their Own Priorities. Permit applicants 
        to allocate their annual E-Rate budget entirely as they see fit 
        among eligible services in any category and to any of the 
        eligible buildings in their school districts and library 
        systems--regardless of what any particular site's discount rate 
        may be--as was the Program's intent originally. Note: site 
        specific services would continue to receive discounts at 
        whatever the specific site's discount rate might be, 90 
        percent, 80 percent, 70 percent, and so on. Thus money spent to 
        buy eligible services for a 90 percent school will stretch an 
        applicant's budget much farther than money spent to buy the 
        same services for a 60 percent school. Note further: these are 
        the kinds of decisions that should, and under this framework 
        would be, made locally.
Benefits of FFL's Proposed E-Rate 2.0 Framework
    The FFL proposal is a data-driven, yet practical solution, based on 
a recommendation of the 2003 USAC Waste, Fraud, and Abuse Task Force. 
Placing a limit on the discounts received by any one applicant is a 
minimal change to the existing system, but this minor alteration will 
produce the following benefits:

  <bullet> Increases accountability, flexibility, and predictability

  <bullet> Builds on successful aspects of current E-Rate Program

  <bullet> Creates predictable and more reliable annual funding 
        commitments

  <bullet> Enables USAC to issue funding decisions more quickly

  <bullet> Promotes efficient use and equitable distribution of E-Rate 
        funding

  <bullet> Encourages technology planning and prioritization

  <bullet> Enables applicants to set their own priorities

  <bullet> Avoids ``one-size-fits-all'' technology mandates

  <bullet> Provides all applicants access to some support

  <bullet> Maintains a sliding scale of support for all applicants, 
        with the highest discounts and most support going to applicants 
        with the highest documented need.

  <bullet> Encourages accurate funding requests by applicants

  <bullet> Reduces waste and abuse

  <bullet> Eliminates need for the much-maligned and seemingly 
        ineffective 2-in-5 rule

  <bullet> Enables applicants to set their local priorities

  <bullet> Reduces excessive and/or frivolous funding requests

  <bullet> Reduces or removes incentives to replace equipment too soon 
        or to gold plate networks

  <bullet> Eliminates incentives to game the current funding priority 
        system

  <bullet> Protects against ``mega'' funding requests

  <bullet> Limits waste/fraud/abuse potential per entity

  <bullet> Accommodates future increase(s) to fund without retooling 
        the program

  <bullet> Works with all other changes being discussed in the E-Rate 
        community

  <bullet> Reduces or eliminates the need for other programmatic 
        changes

  <bullet> Could facilitate individual applicant ``rollover'' one year 
        to next and/or multi-year funding commitments

  <bullet> Allows for the addition of new services to the eligible 
        services list without ``breaking the bank''
            Respectfully submitted,
                                        John D. Harrington,
                                           Chief Executive Officer,
                                               Funds For Learning, LLC.
                              Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                           Sheryl R. Abshire
    Question 1. Rural Service. As a library specialist and veteran who 
e-mailed me from Hibbing, Minnesota this week pointed out, the role of 
libraries is more than just a resource with books, they are a resource 
for services and information that help keep our communities strong, 
vibrant and connected. This is extremely true in rural areas where 
``anchor institutions'' like schools, libraries and health clinics are 
the first places to get new broadband services, which tends to lead to 
better commercial services being available to residents. Ms. Abshire--
Can you share how E-Rate in the past has improved the expansion of 
connections within communities and how you envision modernization would 
link up communities in the future?
    Answer. Increased connectivity to the schools in Calcasieu Parish 
has provided a benefit to the entire community. Various initiatives 
that have provided last-mile buildout have supported the ability to 
access higher-speed connections both for the schools and the community 
at large.

    Question 2. STEM--Schools. I am a strong supporter of increasing 
technology in the classroom. If we want our students to go on to be the 
next scientists, engineers, and innovators of tomorrow, they need early 
exposure to advanced technology in the classroom today. Ms. Abshire--
Can you talk about how investments in broadband infrastructure and 
innovative programs can help expand our students' exposure to cutting-
edge technology and training?
    Answer. Increased investment in broadband infrastructure is 
absolutely critical to supporting access to cutting-edge technology and 
training programs. High speed broadband connections can support virtual 
fieldtrips, learning videos such as Khan Academy, interactive science 
experiments, and much more. Schools have even conducted live forums 
with astronauts at the International Space Station.

    Question 2a. Ms. Abshire--What type of impact does access to hands 
on interactive learning through connected devices have on student 
interest in STEM subjects?
    Answer. Access to hands on interactive learning through connected 
devices and high speed broadband connectivity engages students in 
collaborative, project-based learning in ways that were not possible 
just a few years ago. Additionally, with high-speed broadband 
connectivity students in rural areas whose schools may not offer an 
advanced science or math course now have the opportunity to engage in 
interactive online learning that will prepare them to pursue STEM 
majors and eventually STEM careers.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Sheryl R. Abshire
    Question 1. I have heard from Arkansas teachers that the E-Rate 
program has complex procedures and reporting requirements. Has this 
been your experience? How would you like to see the E-Rate application 
process simplified?
    Answer. The E-Rate application process has been modernized 
significantly since the program's inception in 1998. When the E-Rate 
program began, it was a paper application based program. Last year, 
when Calcasieu Parish filed its application, we did not use any paper--
our application was filed online. Many applicants have followed suit 
and are filing their applications online as well, although the paper 
filing option remains if applicants wish to utilize that option. Over 
the years, the Universal Service Administrative Company (USAC) has made 
great progress in continuously improving the online application 
process. For example, application processes that used to take myself 
and my administrative assistant two weeks to accomplish, now take 
approximately 4 hours. This is not to say that further improvement 
regarding the application process cannot and should not be made and I 
support continued efforts to simplify and streamline the application 
process while maintaining program integrity. For example, I have 
supported the concept of an Evergreen 470 application, which would 
allow for multi-year applications for services that are in a multi-year 
contract. Additionally, encouraging--but not requiring consortia 
applications--and making further improvements to the applicant online 
experience could further reduce burden to applicants.

    Question 2. In your testimony, you said the increased demand, 
coupled with the cap on E-Rate's funds, will lead to a de-facto 
elimination of Priority 2 funding as those requests are not fulfilled 
until Priority 1 commitments have been funded. In addition to more E-
Rate funding, how would you envision modernizing the Priority 1/
Priority 2 funding mechanism?
    Answer. The central issue for E-Rate truly is the funding shortage. 
Demand for bandwidth in schools has drastically changed since 1998 with 
the increased use of digital tools, online learning and communication, 
devices, and online assessments that can provide individualized 
feedback and personalize learning. The current demand figure is likely 
tamped down demand as many districts below the 90 percent discount 
level no longer even apply for Priority 2 (internal connections) 
funding since they are unlikely to receive such funds. This is why I 
believe we need a permanent increase in the E-Rate cap that at least 
meets current program demand and remains focused on the core mission of 
the program. Although not perfect, the Priority 1/Priority 2 system 
provides an important data point to track demand for E-Rate services 
and helps USAC continue to ensure the integrity of the program and that 
all applicants receive at least some support.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Sheryl R. Abshire
    Question 1. Mr. Coulter's testimony notes that ``five years ago, 
the national implementation of educational technology in a large-scale 
fashion would have been prohibitively expensive with $1,000 work-
stations, shrink-wrapped sub-par software and torn up walls to wire 
school buildings. Today, thanks to the plummeting costs of tablet 
computers, innovative cloud-based software and enterprise Wi-Fi 
technology, implementation is affordable and achievable.'' He also 
acknowledged that ``E-Rate currently supports operating expenditures 
but does not incentivize long-term investment in fiber.'' What do you 
recommend we do to better focus E-Rate on long-term investments?
    Answer. In Calcasieu Parish, we have relied on strong leadership to 
conduct appropriate needs assessment and technology planning so that we 
make prudent investments for our technology needs of today and our 
needs in the future. In the future, the use of multi-year applications 
and consortia applications may even further improve the efficiency and 
long term functioning of the E-Rate program.
    While I am aware of proposals to prioritize one technology over 
another and understand that there may be some long term value in doing 
so, I would urge policymakers to consider two of the bedrock core 
values of E-Rate before establishing new priorities: (1) the program 
has always been technologically neutral and has never picked technology 
winners or losers; and (2) the program has always been locally driven, 
allowing applicants to choose services and technologies that make the 
best sense for their needs and budgets. Moreover, I would urge 
policymakers to consider carefully the economic ramifications on the 
program overall and on applicants individually of prioritizing 
potentially expensive technologies over more economical ones.

    Question 1a. It seems to me that some of the E-rate eligible 
services, such as paging, are outdated. Should the list of eligible 
services be revisited? If so, are there any services that you believe 
should be removed? Are there any that you believe are missing from the 
list?
    Answer. While I do believe that some careful pruning of the list 
may be in order, I would urge the FCC to be very careful not to 
eliminate services that remain valuable despite their age and that help 
provide some form and substance to the increased bandwidth that all 
applicants seek. I am mindful of my district's own experiences after 
Hurricane Rita when E-Rate supported infrastructure and e-mail systems 
allowed Calcasieu Parish to stay connected--to learning and each other. 
Talk of eliminating support for relatively inexpensive services, like 
e-mail and collaboration tools, all of which facilitate parents, 
teachers and students communicating and collaborating, strike me as 
penny wise and pound foolish.

    Question 1b. Is it possible to incentivize long-term investments 
without increasing the overall cost of the E-Rate program?
    Answer. It is critical that the long-term sustainability and health 
of the E-Rate program be a top priority. While investment in fiber can 
be the best and cost-effective solution for high-speed broadband 
connectivity for some districts, it is also important that all 
schools--small, big, urban, suburban, and rural--retain the flexibility 
they need to make the technology decisions that work best for their 
circumstances and that the program stay true to its statutory mandate 
to set rules that are competitively (and technologically) neutral.

    Question 1c. How could E-rate be modified to enable the deployment 
of enterprise Wi-Fi? Might this help to lower overall costs or to 
provide services that currently fall beyond the funding cap?
    Answer. There is no question that wireless access in our Nation's 
schools is rapidly growing in importance. For instance, the Calcasieu 
Parish School network currently supports 35,000 network devices over a 
Wide Area Network (WAN) connection that delivers a 100 mbps connection. 
Additionally, the network contains 3,000 wireless access points which 
have become increasingly important as Bring Your Own Device (BYOD) 
programs and 1:1 device initiatives continue to be implemented to 
enhance the digital learning experience. It may make sense for the 
Commission to consider moving wireless access point eligibility from 
Priority 2 to Priority 1 in order to allow applicants greater 
opportunity to improve their existing wireless access. However, the 
Commission should consider the impact that such a move would have on 
available funds.

    Question 2. There is very little data available on the capacity and 
speed of current school networks. Would it be beneficial to require 
schools who apply for E-rate funding to provide data on the speed and 
capacity of their networks? If not, why not?
    Answer. Data is crucial to ensure the continued longevity and 
success of the E-Rate program and to ensure that we are providing 
access to educational opportunity for students no matter what part of 
the country they live in or where they attend school. Specifically, 
data regarding speed and capacity of applicants' broadband networks 
would inform the creation of reasonable and flexible bandwidth goals or 
targets for the E-Rate program as a whole. At the same time, any data 
collection must minimize the burden on applicants and be in sync with 
the overall goal of streamlining the administration of the E-Rate 
program.

    Question 2a. Should a minimum bandwidth or speed level be 
implemented? If so, what should this level be based on (i.e., number of 
users/school, demand for bandwidth)?
    Answer. Bandwidth targets should be an important aspect of any E-
Rate modernization effort. It is no longer sufficient to note the 
existence of the connection itself as the future of digital learning 
depends on the depth of the connection. As schools continue to 
integrate digital content, devices, online learning and communication 
portals, and online assessments, high-bandwidth connections will be 
critical. Any goals or targets, though, need to be based on demand and 
data and must take into account the varying needs of rural, urban, and 
suburban schools and libraries rather than a one-size-fits-all 
approach. My district of Calcasieu Parish Schools covers 1,036 square 
miles in southwest Louisiana and includes urban, suburban and deeply 
rural areas, all of which have varying needs that should be determined 
at the local level. Additionally, I am leery of any goals that become 
mandates, where applicants are denied additional funding upon reaching 
such goals or required to spend their own money to meet goals that do 
not necessarily reflect their own needs.

    Question 2b. How can this data be plugged into the National 
Broadband Map?
    Answer. The National Broadband Map is an important initiative that 
provides data regarding the level and type of high-speed Internet 
services that are available and in use across the country. Currently, 
one can search by various categories, such as congressional districts, 
and see a wide variety of information including broadband speeds and 
subscription levels for homes, businesses, K-12 schools and libraries, 
and more. One can also search for community anchor institutions within 
25 miles of a particular address and find the type of technology and 
subscribed speed if such data is available. Additional readily 
available and searchable information regarding current broadband 
capacity of schools and libraries would further the goals of the 
National Broadband Map and universal service.

    Question 3. In the past, E-Rate funded connections have been 
audited to ensure that only school/library traffic was riding on the 
subsidized connection, which resulted in high usage during the typical 
school day and unused capacity during evenings, weekends, and school 
vacations. Should E-Rate 2.0 include provisions that could support 
home-based broadband connectivity for students? If not, why not?
    Answer. As digital learning continues to expand at school, access 
to the Internet at home is increasingly important for students to stay 
connected, conduct research, and complete homework assignments. 
However, the E-Rate program's central purpose is ensure that schools 
and libraries have access to advanced telecommunications and 
information services and there are limited resources available to 
accomplish that goal. Although I support efforts to increase at home 
broadband access, demand for currently eligible E-Rate services for 
2013 was $4.986 billion dollars, or more than double the $2.25 billion 
annual cap that was set for the program back in 1998. Demand for 
bandwidth in schools has drastically changed since 1998 with the 
increased use of digital tools, online learning and communication, 
devices, and online assessments that can provide individualized 
feedback and personalize learning. The current demand figure is likely 
tamped down demand as many districts below the 90 percent discount 
level no longer even apply for Priority 2 (internal connections) 
funding since they are unlikely to receive such funds. Even with the 
inflation adjustment and roll-over funds, there may not be enough funds 
to fund Priority 2 projects at the 90 percent discount level. This is 
why I believe we need a permanent increase in the E-Rate cap that at 
least meets current program demand and remains focused on the core 
mission of the program.

    Question 3a. Do you believe E-Rate funded connections could be 
leveraged during these ``down'' periods to provide for load balancing 
and added technology availability for the campus/community? If so, do 
you have any suggestions regarding how this type of function could be 
utilized without a large increase in costs or in concerns about the 
accountability of the program?
    Answer. In 2010, the FCC made permanent a rule that allows 
schools--if they so choose--to open their doors after hours so that the 
community at large can utilize the schools broadband connections that 
are supported by the E-Rate program. Schools around the country have 
leveraged this opportunity to provide a place for students to complete 
assignments, provide digital literacy classes and other community 
services, and provide access to the online world that hosts government 
services, job applications, and distance education. Under this rule, E-
Rate supported services must still be used primarily for educational 
purposes and students must have first priority in the use of E-Rate 
supported services, use of E-Rate supported services by the community 
at large may only occur after school hours on school premises, and 
schools may not request more E-Rate support than is needed to support 
educational purposes for the student population. This rule change 
struck the appropriate balance between ensuring the statutory objective 
of the E-Rate program--that schools and libraries have access to 
advanced telecommunications and information services for educational 
purposes--and the important aim of facilitating access to those 
services to the community at large during nights, weekends, and school 
vacations. This careful balance ensures that the program and its 
resources are prudently allocated first to the school for the benefit 
of its students and that program accountability and integrity is 
maintained.

    Question 4. On June 6, 2013, the Administration unveiled a new 
initiative called ConnectED, which intends to connect 99 percent of 
America's students to the Internet through high-speed broadband and 
high-speed wireless within 5 years. Do you have any recommendations for 
the FCC or Congress in terms of how E-Rate can be better aligned to 
support curriculum or technology training goals?
    Answer. E-Rate has been incredibly successful in providing nearly 
all classrooms with a basic connection to the Internet. In the future, 
the main obstacle to continue success is the severe funding shortage 
that currently exists in the E-Rate program. This is why I am 
advocating for a permanent increase to the E-Rate cap that at least 
meets current demand. The current cap was set back in 1998, before 
tablets, smartphones, and many of the digital learning opportunities of 
today existed. In order to support the use of these digital learning 
tools and to provide students with the 21st century skills they will 
need to succeed in our global economy, schools will need high-speed 
broadband connectivity moving forward.

    Question 4a. Could Elementary and Secondary Act (ESEA) Title II 
funds, typically allocated for teacher training, be used in a different 
manner to ensure teachers are trained to integrate educational 
technology into their instruction?
    Answer. Ongoing, embedded teacher training--or professional 
development/professional learning--is critical for digital learning to 
be successful in the classroom. Technology professional development 
supports teachers in learning new ways to use technology to redesign 
curriculum, individualize instruction, increase student engagement, 
incorporate technology into the classroom, and utilize online 
assessment data to personalize learning. The current Title IIA, much 
like the E-Rate, is undergoing a funding crisis as it continues to 
absorb sequestration cuts. Thus, it is hard to repurpose funding from a 
pool that is already spoken for and is shrinking.
    As an alternative, I support funding the existing Title IID or 
currently unpassed legislation to revamp it--The Enhancing Education 
Through Technology Act of 2013 (S. 1087)/The Transforming Technology 
through Technology Act (HR 521). The current program and both bills 
include a strong emphasis on technology professional development. In 
the past, when districts used to receive EETT funding, they were 
required to spend at least 25 percent of their grants on professional 
development--however; many districts reportedly allocated significantly 
higher percentages of their grant funds towards professional 
development activities. New education technology legislation--with a 
focus on education technology professional development--is a critical 
partner to E-Rate's connectivity support.

    Question 4b. Is Title I participation the ``right'' basis for 
subsidy calculations or should it be based on technology need and the 
actual dollars necessary to reach a desired speed/capacity level and 
sustain it over time?
    Answer. The E-Rate discount matrix--which allocates a discount for 
E-Rate eligible services based on the percentage of students who 
qualify for free-and-reduced-lunch--has allowed all schools across the 
country to connect to the Internet and build their network 
infrastructure. The program has always focused on ensuring that no 
matter how low-income your students or how rural or remote your 
location, E-Rate support would help connect your classrooms and 
libraries. No matter what the Commission decides, I believe truly that 
poverty and rurality must remain a significant factor in calculating 
support.
    In terms of reaching national targets, accounting for bandwidth 
targets may make sense. However, significant data collection to 
determine existing levels and determine appropriate targets would be 
required before changing the formula.

    Question 4c. How do we effectively harness the opportunities 
enabled by technology to train or retrain individuals to enter sectors 
that will experience high growth?
    Answer. Comprehensive technology planning, leadership, ongoing 
professional development for educators, and a wide array of digital 
learning opportunities for students supported by robust connectivity 
will provide students with the skills they need to succeed in 21st 
century careers.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                             Linda H. Lord
    Question 1. During the E-Rate hearing, we were told that schools 
apply for far more E-Rate funds than are available. Speaking as the 
State Librarian, are libraries facing a similar gap between demand and 
availability? Are they receiving any Priority 2 funding? What other 
considerations should be taken into account for libraries?
    Answer. Libraries face the same issues as schools in the lack of 
adequate funding to meet applicant demand for Internet services. In 
reality most libraries that fall under the 80 percent discount band no 
longer apply for Priority 2 funding since there is not enough funding 
to fulfill the applicant requests below even the mid-80 percent range. 
In fact in Funding Year 2013, applicant demand for Priority 1 services 
alone eclipsed the total amount of funds available. In 2013 applicants 
requested $2.00 for every $1.00 available. Libraries across the country 
have seen a dramatic rise in Internet use and in providing services 
that require high bandwidth connections. In 2012, 62 percent of 
libraries reported they were the only source of free public access to 
computers and the Internet (in Arkansas it is 58 percent). This is 
especially important for rural communities where the number rises to 70 
percent. With so many critical life tasks only online, the public 
library is a lifeline for many communities and the residents they 
serve.
    We expect the demand for high-capacity applications and services to 
continue and libraries are feeling a crunch similar to that faced by 
schools. While library bandwidth speeds are improving, only about 9 
percent reported that they had Internet speeds of 100Mbps or greater 
(only 5 percent of rural libraries). This is simply unsustainable given 
the reliance of communities across the country on their public library.
    One idea is to enable libraries to own their own wide area networks 
(WANs) where it is the most cost effective solution. This will help 
libraries plan for long-term cost savings. Amortizing the cost of 
network deployment over 4-5 years will help keep the annual cost lower 
and may encourage more investment, especially in rural areas that need 
greater bandwidth even when costs tend to be higher.
    The following information is from the state E-Rate coordinator in 
Arkansas.

        ``Arkansas has 222 public libraries and 58 percent participate 
        in the E-Rate program. While the vast majority of libraries 
        technically receive broadband Internet access, they may be 
        getting only 1.5 Mbps for the entire library.

        ``For FY 2013, 130 of the 222 Arkansas public libraries applied 
        for E-Rate. Of the applicant libraries, 38 (29 percent) were at 
        the 90 percent discount level. Eighty-two applicant libraries 
        (63 percent) qualified for an 80 percent discount. Only ten 
        applicant libraries (8 percent) were below the 80 percent 
        discount level. If all 222 Arkansas public libraries applied, I 
        believe that the same discount percentage distribution would 
        occur.

        ``Since FY 2010, only five libraries have applied for P2, and 
        none have received the funding. All five libraries were at the 
        80 percent discount level. In FY 2011 and FY 2012, P2 funding 
        was not available at the 80 percent discount level, resulting 
        in denials for Baxter County Library and Central Arkansas 
        Library System. In FY 2010, Columbia County Library System 
        cancelled their P2 application during review due to the very 
        long and tedious PIA [Program Integrity Assurance] review 
        process. Columbia County Library determined that pursuing P2 
        funding was a negative return on their investment. It required 
        too much time to navigate the application review process when 
        weighed against of the amount of money requested. Columbia 
        County Library's experience illustrates perfectly why many 
        Arkansas public libraries do not apply for P2. The P2 
        application and review process is too much work, especially if 
        the discount percentage rarely drops below 90 percent. The 
        delay in P2 funding is also a problem for potential applicants. 
        The poorest libraries need to know if they will receive P2 
        funding before they start large internal connections projects. 
        They cannot afford the cost of the projects without E-Rate 
        support.
        The difficult, multi-step application process stops a number of 
        libraries from applying for E-Rate discounts. The most rural 
        and economically challenged libraries do not have enough staff 
        to devote to the E-Rate application filing process. If the 
        application process is simplified and streamlined, I feel that 
        more Arkansas public libraries will apply for E-Rate.''
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                             Linda H. Lord
    Question 1. Rural Service. As a library specialist and veteran who 
e-mailed me from Hibbing, Minnesota this week pointed out, the role of 
libraries is more than just a resource with books, they are a resource 
for services and information that help keep our communities strong, 
vibrant and connected. This is extremely true in rural areas where 
``anchor institutions'' like schools, libraries and health clinics are 
the first places to get new broadband services, which tends to lead to 
better commercial services being available to residents. Ms. Lord--Can 
you share how E-Rate in the past has improved the expansion of 
connections within communities and how you envision modernization would 
link up communities in the future?
    Answer. Generally, when an anchor institution, like a library, is 
connected to broadband that paves the way for further broadband build-
out in the community which ultimately benefits the entire community. In 
a rural state like Maine our small communities are the backbone of our 
economy and the need for connectivity that supports our small 
businesses and entrepreneurs is great. It is also critically important 
that our rural residents can connect to services that may not be 
readily available in more remote areas. Our libraries are the lifeline 
for our rural communities. In one village, we had a gentleman who is a 
video producer and uses the library to upload video files to send to 
his clients all over the world because his Internet at home is not fast 
enough to allow for such large uploads. In Maine this story is not 
uncommon, with many libraries reporting that home businesses stay alive 
by using the library Wi-Fi connection. At the state library we provide 
our patrons with Skype for connecting to family and friends and our 
video conferencing service is tremendously popular. My example of 
school students exploring a Smithsonian program virtually will become 
more commonplace as technologies advance. I envision a growing need for 
such high-capacity services. Libraries will continue to be an important 
hub in rural communities.

    Question 2. Jobs and Employment. Minnesota has an unemployment rate 
of 5.3 percent--this is two points below the national average. However, 
we also know that many veterans and new graduates in my state and 
around the country continue to have issues securing good jobs either in 
their home towns or wherever they chose to live. Ms. Lord--What do you 
see as both the role of libraries in assisting those in these 
demographic groups, as well as others, with job seeking resources? What 
do you view as the future of libraries in partnerships to accommodate 
job training courses either at the facilities offering computer 
training courses, or accommodating more online education opportunities?
    Answer. Librarians now consider the provision of public Internet 
services to job seekers the most important service they provide to 
their communities. Ninety percent of libraries provide access to jobs 
databases, a number which has been steadily growing in recent years. 
The majority of libraries also provide civil service examination 
materials. They also provide software and other resources so that 
patrons can create resumes and other necessary materials for gaining 
employment. Patrons develop and expand digital literacy skills, search 
for and apply for jobs online, and complete professional certifications 
and continuing education courses using the public access computers and 
library Internet or Wi-Fi with their own devices. Along with specific 
resources for job seekers, 90 percent of libraries offer some type of 
formal or informal technology training. Often these classes and 
supports take the form of developing skills needed for today's 
workforce.
    According to a 2010 report form the Institute of Museum and Library 
Services, 30 million library users went to the library specifically for 
employment related activities like searching and applying for a job, 
building a resume, and interviewing. Out of these visits, about 16 
percent of the people were eventually hired. Many libraries partner 
with local workforce agencies to help extend their career and 
employment services in what are known as One-Stop Career Centers. The 
vital role libraries have in promoting workforce development was 
formally recognized in 2010 by a partnership between IMLS and the 
Department of Labor Employment and Training Administration. The 
partnership particularly recognizes not only the Internet access, but 
also the role of the librarian who serves as an ``information 
navigator.'' Other libraries focus on small business development, 
providing tools for entrepreneurs to start a business or to further 
market a budding one.
    Libraries are dedicated to addressing the needs of specific 
populations in their communities and routinely structure programs that 
are tailored to seniors, non-English speakers, youth, as well as 
Veterans. As I mentioned in my testimony, Maine has a videoconferencing 
service that we have used recently with the lawyers in libraries 
program for a session devoted to Veterans' benefits. An attorney 
specializing in Veteran's benefits was ``live'' in the host library and 
the session was available to any patron of the seven participating 
libraries. Beyond this valuable service that allows our rural 
communities to gain access to legal advice on topics critically 
important, I would like to share a few more Maine examples of work we 
do to support our Veterans. We know that Veterans often have 
significant challenges in securing employment and a number of our 
libraries tailor their workforce programs to focus on Veterans. The 
Augusta Career Center recently had a workshop for Veterans that walked 
the participants through the resources available through the state 
library's Information Commons, specifically focusing on employment 
skills and resources. Equally important to library services are 
programs that encourage lifelong learning as we see this as 
foundational to being prepared for future work and life opportunities. 
A creative program that supports this concept was held in the Camden 
Public Library. The library just finished a 10-week writer's group 
series called ``Veteran's for Peace''. The workshop was run by a 
Veteran who was also a retired writing teacher. I heard that those who 
attended appreciated the opportunity to talk and write about their war 
experiences with a group that understood them and their background. I 
know that similar examples are replicated in libraries across the 
country.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                             Linda H. Lord
    Question 1. Mr. Coulter's testimony notes that ``five years ago, 
the national implementation of educational technology in a large-scale 
fashion would have been prohibitively expensive with $1,000 work-
stations, shrink-wrapped sub-par software and torn up walls to wire 
school buildings. Today, thanks to the plummeting costs of tablet 
computers, innovative cloud-based software and enterprise Wi-Fi 
technology, implementation is affordable and achievable.'' He also 
acknowledged that ``E-Rate currently supports operating expenditures 
but does not incentivize long-term investment in fiber.'' What do you 
recommend we do to better focus E-Rate on long-term investments?
    Answer. Libraries and their connectivity needs vary state by state 
and community-by-community so it is very important to promote solutions 
that are flexible enough to meet local needs. But I can tell you that, 
when a library adds incremental capacity, it often discovers that its 
broadband usage surges to the new maximum capacity immediately by 
patrons using bandwidth-intensive applications. There is no ``quick 
fix'' and libraries need to plan their broadband for the long-term. 
Generally fiber is going to be the best long-term investment (where it 
is economical and not cost prohibitive because once installed it is 
relatively easy to expand capacity to meet growth in demand). Enabling 
the ownership of wide area networks (WANs) by E-Rate applicants where 
it is the most cost effective solution will help applicants think about 
long-term cost savings (such as a 4-5 year return on initial 
investment). Amortizing the cost of network deployment over 4-5 years 
will help keep the annual cost lower and may encourage more investment, 
especially in rural areas that need greater bandwidth even though costs 
tend to be higher.

    Question 1a. It seems to me that some of the E-Rate eligible 
services, such as paging, are outdated. Should the list of eligible 
services be revisited? If so, are there any services that you believe 
should be removed? Are there any that you believe are missing from the 
list?
    Answer. We have an important opportunity to focus on moving 
libraries from simple connectivity to high-capacity broadband. In my 
role as chair of ALA's E-Rate Task Force, I can tell you that we are 
looking carefully at legacy services that may not directly support 
broadband connectivity, such as Plain Old Telephone Service (POTS). 
While many small libraries apply only for POTS and there are areas 
where alternatives are either unavailable or cost prohibitive, it is 
vitally important that libraries seek ways to increase their broadband 
connectivity. We do believe that it will be critical to develop a 
phase-out process of such legacy services so that applicants can 
transition as smoothly and cost-effectively as possible. We are also 
reviewing the eligible services list to make sure libraries are able to 
receive discounts on services that are necessary for broadband 
connectivity.

    Question 1b. Is it possible to incentivize long-term investments 
without increasing the overall cost of the E-Rate program?
    Answer. Incentivizing long-term investments (such as construction 
costs for fiber builds amortized over several years) does not 
necessarily end up costing the program more, and in the case of WAN 
ownership likely will result in savings. Spending wisely is a good 
start and should be a focus of the program for both applicants and 
providers. However, savings through prudent purchasing will not solve 
the chronic underfunding of the program when applicant demand already 
hovers at double the funds available.

    Question 1c. How could E-Rate be modified to enable the deployment 
of enterprise Wi-Fi? Might this help to lower overall costs or to 
provide services that currently fall beyond the funding cap?
    Answer. It is possible that providing greater funding for Wi-Fi 
service inside the building may reduce the need to purchase other more 
expensive wireless services. This is an issue that the FCC is currently 
exploring in its E-Rate reform proceeding.

    Question 2. There is very little data available on the capacity and 
speed of current school networks. Would it be beneficial to require 
schools who apply for E-Rate funding to provide data on the speed and 
capacity of their networks? If not, why not?
    Answer. Because I can only speak from a library perspective, I 
cannot speak to whether or not schools should be subject to this 
requirement. I will only point out that the ALA has conducted several 
surveys of the broadband capabilities of libraries, which are available 
at www.plinternetsurvey.org.

    Question 2a. Should a minimum bandwidth or speed level be 
implemented? If so, what should this level be based on (i.e., number of 
users/school, demand for bandwidth)?
    Answer. One success of the program is that it has always been based 
on the needs of the applicant. We want to encourage libraries to be 
forward thinking and plan for future bandwidth needs and goals can be 
aspirational in that regard. ALA is looking at several options for 
setting a library bandwidth target that take into account the diverse 
nature of libraries in different rural and urban settings, with 
different services areas, and that accounts of desktop computers as 
well as patron and library mobile devices. Rather than a mandated 
bandwidth speed, I think it more productive to determine targets with 
benchmarks along the way that encourage applicants to make decisions 
based on projecting future connectivity needs while also acknowledging 
current concerns like the cost of fiber in some areas.

    Question 2b. How can this data be plugged into the National 
Broadband Map?
    Answer. ALA has worked with NTIA to improve the data for libraries, 
and I would encourage the FCC to add any new data elements to the map 
that are related to libraries and schools so that the public can have 
access to accurate and current broadband availability information.

    Question 3. In the past, E-Rate funded connections have been 
audited to ensure that only school/library traffic was riding on the 
subsidized connection, which resulted in high usage during the typical 
school day and unused capacity during evenings, weekends, and school 
vacations. Should E-Rate 2.0 include provisions that could support 
home-based broadband connectivity for students? If not, why not?
    Answer. Because the program is so underfunded and cannot meet 
current demand from applicants for services currently eligible, I would 
be extremely reluctant to support new programs, however important they 
might be. E-Rate is fundamentally about connecting libraries and 
schools, and I would like the focus to remain on this so that both can 
continue to provide the services they do for K12 students and the 
general public.

    Question 3a. Do you believe E-Rate funded connections could be 
leveraged during these ``down'' periods to provide for load balancing 
and added technology availability for the campus/community? If so, do 
you have any suggestions regarding how this type of function could be 
utilized without a large increase in costs or in concerns about the 
accountability of the program?
    Answer. Schools can currently allow the public to use their E-Rate 
supported Internet after hours and of course libraries are the ``after 
school hours'' facility. At this time I believe that we should be 
primarily concerned about addressing the funding shortfall and the 
additional burden on the already oversubscribed program. There are 
likely to be many issues with oversight and reporting that would have 
to be weighed before initiating such a program within E-Rate.

    Question 4. On June 6, 2013, the Administration unveiled a new 
initiative called ConnectED, which intends to connect 99 percent of 
America's students to the Internet through high-speed broadband and 
high-speed wireless within 5 years. Do you have any recommendations for 
the FCC or Congress in terms of how E-Rate can be better aligned to 
support curriculum or technology training goals?
    Answer. The E-Rate program is fundamentally about connecting 
libraries and schools with telecommunications and broadband services. I 
do not believe that educational or training benchmarks and goals should 
be hinged to the E-Rate program. If libraries and schools have the 
bandwidth they need to support educational opportunity for patrons and 
students, they will be best equipped to incorporate the best 
technologies into the curriculum and give our students and the general 
public the technology skills they need to be productive.

    Question 4a. Could Elementary and Secondary Act (ESEA) Title II 
funds, typically allocated for teacher training, be used in a different 
manner to ensure teachers are trained to integrate educational 
technology into their instruction?
    Answer. Yes, school librarians should be included as eligible to 
participate in ESEA funded training. In many schools today, school 
librarians are key to creating opportunities for teachers' meaningful 
use of technology, as well as increasing teachers' capacity for 
integrating the use of technology tools into specific learning tasks 
and curricula. These librarians are integral to the creation of digital 
media and content for both student and teacher use in and out of the 
classroom and school building. By including school librarians in 
training opportunities supported by ESEA funds, they will be better 
equipped to develop appropriate uses of technology tools that build on 
educational standards resulting in more students attaining their 
educational goals. Furthermore, school librarians with proper training 
will also be able to work with other school professionals to integrate 
educational technology into the classroom.

    Question 4b. Is Title 1 participation the ``right'' basis for 
subsidy calculations or should it be based on technology need and the 
actual dollars necessary to reach a desired speed/capacity level and 
sustain it over time?
    Answer. The American Library Association is currently investigating 
the best poverty calculation tool that most accurately reflects the 
poverty level of the library service area. At the same time the E-Rate 
program, because it is a discount program, allows applicants to base 
their requests for services on their local technology needs and through 
the competitive bidding process applicants must be judicious in 
selecting the most cost effective solutions.

    Question 4c. How do we effectively harness the opportunities 
enabled by technology to train or retrain individuals to enter sectors 
that will experience high growth?
    Answer. Librarians report that supporting job seekers, including 
training for the 21st century workforce is the most important service 
they provide their communities. There is a great example in Carson 
City, Nevada that highlights what can be possible with partnerships and 
a drive to use technology to innovate and revitalize workforce 
opportunities. The public library has set up a 4,000-square-foot branch 
in a downtown storefront. The branch anchors the Business Resource 
Information Center (BRIC), a catalyst for a major economic renewal in 
the state capital. The library branch helps entrepreneurs with market 
research, business planning classes, computers, and electronic 
resources such as sophisticated business-focused databases. The library 
is part of the Knowledge + Discovery Center that has state-of-the-art 
digital media labs to train students in high-tech skills and a business 
incubation facility to encourage more entrepreneurs to build on what 
are currently six acres of parking lots.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Pryor to 
                              Patrick Finn
    Question. In your testimony, you said that E-Rates rules and 
funding decisions between Priority 1 and Priority 2 services are 
outdated. If this distinction is fully eliminated, is there a danger 
that, while some schools will receive support for their internal 
connections, others will not receive support for basic Internet access? 
How do you envision removing the Priority 1/Priority 2 distinction?
    Answer. Networks operate as a whole and so it is just as important 
to have internal connections as it is to have Internet access. The 
current Priority system often leads to many schools only receiving E-
Rate funding for Internet access and nothing for internal connections. 
Indeed, if nothing is changed, it is likely that there will be no 
funding for any school for internal connections in the future. We must 
migrate to a system where both aspects of connecting students and 
teachers are equally funded. By removing the Priority system, all 
eligible requests will be treated the same, with the exception of the 
overall school discount level. Between making the program more 
efficient and providing the necessary funds, the E-Rate should be able 
to support both aspects of networking in all schools.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                              Patrick Finn
    Question. Rural Service. As a library specialist and veteran who e-
mailed me from Hibbing, Minnesota this week pointed out, the role of 
libraries is more than just a resource with books, they are a resource 
for services and information that help keep our communities strong, 
vibrant and connected. This is extremely true in rural areas where 
``anchor institutions'' like schools, libraries and health clinics are 
the first places to get new broadband services, which tends to lead to 
better commercial services being available to residents. Mr. Finn--In 
modernizing the E-Rate program, could we expect to see additional 
deployment and improvement to broadband services in rural areas for 
other businesses and consumers?
    Answer. Libraries are a critical community resource and can often 
be the only way that people without Internet access at home can 
connect. Strengthening library networks is just as important as 
schools. As the E-Rate program is modernized and most schools and 
libraries are connected with very high speed connections, the 
infrastructure capacity that is brought to a location to connect the 
school or library will also be available to other businesses and 
consumers. Having a crucial first large scale customer in a particular 
location can be the impetus for the investment of a fiber or other high 
speed connection to a community.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                              Patrick Finn
    Question 1. Mr. Coulter's testimony notes that ``five years ago, 
the national implementation of educational technology in a large-scale 
fashion would have been prohibitively expensive with $1,000 work-
stations, shrink-wrapped sub-par software and torn up walls to wire 
school buildings. Today, thanks to the plummeting costs of tablet 
computers, innovative cloud-based software and enterprise Wi-Fi 
technology, implementation is affordable and achievable.'' He also 
acknowledged that ``E-Rate currently supports operating expenditures 
but does not incentivize long-term investment in fiber.'' What do you 
recommend we do to better focus E-Rate on long-term investments?

    Question 1a. It seems to me that some of the E-rate eligible 
services, such as paging, are outdated. Should the list of eligible 
services be revisited? If so, are there any services that you believe 
should be removed? Are there any that you believe are missing from the 
list?

    Question 1b. Is it possible to incentivize long-term investments 
without increasing the overall cost of the E-Rate program?

    Question 1c. How could E-rate be modified to enable the deployment 
of enterprise Wi-Fi? Might this help to lower overall costs or to 
provide services that currently fall beyond the funding cap?
    Answer. Schools need to deploy modern networks that are capable of 
meeting the needs of current educational applications and materials. 
The E-Rate should be focused on supporting services and internal 
connections that meet that need. Outdated services should be removed 
from the program and replaced by more cost effective applications. 
Technology like Wi-Fi are already used extensively in schools and will 
certainly be the backbone of most internal networking in the schools. 
Wi-Fi is the most efficient method of connecting devices in classrooms 
and will allow the most widespread access to the overall capacity of 
connectivity that is brought to schools. Even with the use of the most 
efficient technology, it is still necessary to fund the program at 
levels to support today's technology, rather than funding levels that 
were set for 1998 technology.

    Question 2. There is very little data available on the capacity and 
speed of current school networks. Would it be beneficial to require 
schools who apply for E-rate funding to provide data on the speed and 
capacity of their networks? If not, why not?

    Question 2a. Should a minimum bandwidth or speed level be 
implemented? If so, what should this level be based on (i.e., number of 
users/school, demand for bandwidth)?

    Question 2b. How can this data be plugged into the National 
Broadband Map?
    Answer. Data relating to the speed of school networks can be very 
useful in determining whether we are adequately meeting the educational 
needs of our students. This data could be collected easily without a 
meaningful increase in the administrative burden to E-Rate applicants.
    Minimum bandwidth levels should be adopted to ensure that all 
students have the opportunity to benefit from modern education methods. 
Cisco has just released a White Paper that discusses bandwidth levels 
in depth. A copy of the paper is attached with this response.

    Question 3. In the past, E-Rate funded connections have been 
audited to ensure that only school/library traffic was riding on the 
subsidized connection, which resulted in high usage during the typical 
school day and unused capacity during evenings, weekends, and school 
vacations. Should E-Rate 2.0 include provisions that could support 
home-based broadband connectivity for students? If not, why not?

    Question 3a. Do you believe E-Rate funded connections could be 
leveraged during these ``down'' periods to provide for load balancing 
and added technology availability for the campus/community? If so, do 
you have any suggestions regarding how this type of function could be 
utilized without a large increase in costs or in concerns about the 
accountability of the program?
    Answer. The use of networking technology in education does not stop 
with the school day, so it is important the school networks are built 
to support remote use by students. If properly implemented, school 
networks will see significant afternoon and evening traffic due to 
student use, but it certainly makes sense for any excess capacity to be 
made available for public use in a manner similar to public libraries.

    Question 4. On June 6, 2013, the Administration unveiled a new 
initiative called ConnectED, which intends to connect 99 percent of 
America's students to the Internet through high-speed broadband and 
high-speed wireless within 5 years. Do you have any recommendations for 
the FCC or Congress in terms of how E-Rate can be better aligned to 
support curriculum or technology training goals?

    Question 4a. Could Elementary and Secondary Act (ESEA) Title II 
funds, typically allocated for teacher training, be used in a different 
manner to ensure teachers are trained to integrate educational 
technology into their instruction?

    Question 4b. Is Title I participation the ``right'' basis for 
subsidy calculations or should it be based on technology need and the 
actual dollars necessary to reach a desired speed/capacity level and 
sustain it over time?

    Question 4c. How do we effectively harness the opportunities 
enabled by technology to train or retrain individuals to enter sectors 
that will experience high growth?
    Answer. In the areas in which Cisco has expertise on networking and 
education, we have provided our recommendations on how best to 
modernize the E-Rate system in our White Paper which is attached to 
this response.
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            James G. Coulter
    Question 1. Considering your work on the LEAD Commission and your 
background with Dartmouth and Stanford, are there lessons that our K12 
schools can learn from colleges and universities to leverage their 
funds to increase connectivity? Similarly, once connected, how can K12 
schools ensure their dollars are being spent effectively to connect the 
individual students to the Internet and digital learning tools?

    Question 1a. I come from a rural state where our more rural and 
lower income schools have struggled to keep up technologically. In your 
research for the LEAD Commission, did you get a sense of the relative 
benefits that rural students receive as digital learning tools are 
brought into the classroom? How could E-Rate be improved to further 
reflect your findings with the Commission?
    Answer. There are a number of lessons that can be learned from 
colleges and universities that have effectively leveraged funds, 
through collaborative efforts such as buying through research and 
education networks, with both regional providers and national 
providers, such as Internet2. These efforts have resulted in colleges 
being able to provide significantly more bandwidth at lower costs than 
can generally be found in the commercial marketplace.
    Rural areas have a tremendous amount to gain if our country 
implements a program to bring improved bandwidth to all our country's 
schools. Rural areas also have a lot to lose if we fail to do so.
    In February 2013, the Pew Internet & American Life Project, which 
explored middle and high school teacher usage of technology at home and 
in the classroom, found that the lowest income students were faced with 
the most challenges when trying to bring digital learning resources 
tools to the classroom.\1\ There is demonstrated demand for the 
implementation of technology in U.S. classrooms; however, the current 
rate of adoption is unacceptably slow and uneven. Digital learning must 
be a national priority to ensure that every child, regardless of socio-
economic status, has access to the same high-quality, 21st century 
resources. Without equitable technology implementation in the classroom 
we risk further exacerbating the digital divide. This is particularly 
relevant for rural communities as they generally are behind urban 
communities in terms of the bandwidth available in their communities.
---------------------------------------------------------------------------
    \1\ National Writing Project, Pew Research Center, The College 
Board, How Teachers Are Using Technology at Home and in Their 
Classrooms, February 28, 2013 http://www.pewinternet.org/Reports/2013/
Teachers-and-technology.aspx
---------------------------------------------------------------------------
    Technology has the ability to be an incredible equalizer for 
traditionally under-served communities. Unfortunately, uneven 
technology adoption in our Nation's schools risks exacerbating existing 
socio-economic inequality. Today, effective use of technology has the 
unique ability to reverse this trend by improving learning and 
equipping students with 21st century skills needed to be competitive in 
today's global economy. For rural students it can mean access to the 
all kinds of advanced or specialized courses that without such 
technology, students in rural areas would not have access to. It can 
mean the same kind of personalized feedback and curriculum that today, 
only wealthier students in urban areas have access to. For all 
students, digital technology can be a tide that lifts all boats, but 
given the data and relative position of rural communities, rural 
communities have the most to gain by moving educational opportunities 
to the digital platform and widely distributing the bandwidth necessary 
to take advantage of those opportunities.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                            James G. Coulter
    Question. STEM--Schools. I am a strong supporter of increasing 
technology in the classroom. If we want our students to go on to be the 
next scientists, engineers, and innovators of tomorrow, they need early 
exposure to advanced technology in the classroom today. Mr. Coulter--
What type of impact does access to hands on interactive learning 
through connected devices have on student interest in STEM subjects?
    Answer. There is certainly anecdotal evidence that digital learning 
is particularly useful for STEM subject matters as it allows students 
to move at their own pace, enabling more naturally gifted students to 
move faster than traditional classrooms would allow, and providing the 
kind of feedback that allows other students to master the fundamentals 
before moving on to more advanced materials. It also allows students 
from across the country, including rural areas, to have access to the 
best instructional materials in advanced and specialized courses that 
are often not otherwise available in many schools around the country.
    This is, as the question implies, an important issue of 
international competitiveness. As the LEAD Commission Report noted, 
many other countries are advancing digital learning in schools through 
collective national efforts to clear the pathway for scalability. For 
example, South Korea has 100 percent of schools connected to the 
Internet, 100 percent of teachers trained in digital learning and 70 
percent of curriculum involving e-learning as a result of four national 
``master plans'' for digital learning. South Korea is also moving 
toward all digital textbooks by 2015.\2\ In Thailand, about 850,000 
tablets have already been distributed throughout urban and rural 
classrooms and, by the end of 2014, the government plans to distribute 
handheld computers to 13 million school children at a cost of about 
$100 each--a total of $1.3 billion--and then replace them every two 
years.\3\
---------------------------------------------------------------------------
    \2\ Digital Trends, South Korean school textbooks will be all 
digital by 2015, July 5, 2011.
    \3\ Tablets Thrust Thai Classrooms into Digital Era, http://
www.foxnews.com/world/2013/06/18/tablets-thrust-thai-classrooms-into-
digital-era/#ixzz2WnNdU2b3
---------------------------------------------------------------------------
    Earlier this year, Turkey's Prime Minister toured the U.S. to 
identify a technology provider that will supply 11 million tablets to 
Turkish students by 2015.\4\ These countries and others believe the 
earlier they put technology in the hands of students and make it an 
active part of their education the better prepared those students will 
be to participate in an increasingly tech savvy workforce.
---------------------------------------------------------------------------
    \4\ See Countdown begins for Turkey's high-tech Fatih Project (May 
20, 2013), http://www
.invest.gov.tr/en-US/infocenter/news/Pages/200513-turkey-fatih-project-
tender-processstart.aspx
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                            James G. Coulter
    Question 1. Mr. Coulter's testimony notes that ``five years ago, 
the national implementation of educational technology in a large-scale 
fashion would have been prohibitively expensive with $1,000 work-
stations, shrink-wrapped sub-par software and torn up walls to wire 
school buildings. Today, thanks to the plummeting costs of tablet 
computers, innovative cloud-based software and enterprise Wi-Fi 
technology, implementation is affordable and achievable.'' He also 
acknowledged that ``E-Rate currently supports operating expenditures 
but does not incentivize long-term investment in fiber.'' What do you 
recommend we do to better focus E-Rate on long-term investments?
    Answer. In 1996, Congress, on a bipartisan basis, instructed the 
FCC to assure that the tools of modern communications were brought to 
every classroom in the country. Since 1996, changes in communications 
technology have caused nearly every enterprise to change how it obtains 
and uses communications technology. It is appropriate, therefore, that 
the FCC take a hard look at how the E-Rate program distributes funds to 
assure that the money is spent to maximize its long-term impact, and 
this is one of the most important questions involved with the current 
FCC proceeding.
    We believe that proceeding will demonstrate a consensus that the 
current system does not do a good job providing schools an incentive to 
invest efficiently in what are long-term assets. The LEAD Commission 
looks forward to evaluating various proposals designed to do so. For 
example, there are likely to be proposals that improve transparency, so 
as to create a more efficient market for long-term investments. Others, 
we believe, will advocate for benchmarks or targets to realign 
incentives for long-term investments. Another proposal worthy of 
consideration is the creation of a capital investment fund to reflect, 
as most enterprises do, the difference between using funds for capital 
expenses and operating expenses. At this time, the LEAD Commission is 
not firmly wedded to any particular tactic for focusing funding on 
long-term investments but looks forward to evaluating all the proposals 
before the FCC. We are confident the process will reveal a number of 
good ideas for improving how funds are used.

    Question 1a. It seems to me that some of the E-Rate eligible 
services, such as paging, are outdated. Should the list of eligible 
services be revisited? If so, are there any services that you believe 
should be removed? Are there any that you believe are missing from the 
list?
    Answer. I agree that some services are outdated and the list of 
eligible services should be revisited. As a preliminary matter, the FCC 
should consider whether all currently eligible services that are not 
part of the broadband infrastructure should at a minimum be de-
prioritized and possibly removed from the eligible services list; 
priority one could include both services and equipment related to 
broadband, such as Internet access, WAN Connectivity, LAN equipment, 
Wi-Fi equipment, and potentially firewalls and content filters. It may 
also prove important to include those costs, which, as noted above, 
enable long-term investments so as to lower the ultimate cost.

    Question 1b. Is it possible to incentivize long-term investments 
without increasing the overall cost of the E-Rate program?
    Answer. When evaluating costs, it is always important to remember 
the cost is both a function of amount and time. That is, one can spend 
less in a given year but if one spends that amount over more years, the 
overall cost of the program could be greater than it should be. So 
here, the focus should be how do we provide the necessary bandwidth 
upgrade to the greatest number of students in the shortest amount of 
time at the lowest cost, rather than an artificial, and misleading 
focus on a single short-term metric.
    Further, there are ways to incent long-term investments that do not 
lead to increasing the overall cost, and in the long run, reduce costs. 
As noted above, one proposal worth considering is to carve out a 
portion of the program funds for a capital investment fund. This could 
be done with some of the unused rollover funds and could be 
supplemented with the funds saved by eliminating certain currently 
eligible services, also as noted above.

    Question 1c. How could E-rate be modified to enable the deployment 
of enterprise Wi-Fi? Might this help to lower overall costs or to 
provide services that currently fall beyond the funding cap?
    Answer. Enterprise Wi-Fi is already an eligible service. The 
problem is that under the current system, it is a Priority 2 service 
and therefore, few schools receive funding for it. This problem could 
be solved either by making it a Priority 1 service or by making it part 
of an E-Rate capital investment program. Either would both improve the 
quality of the service and the efficiency of the investment.

    Question 2. There is very little data available on the capacity and 
speed of current school networks. Would it be beneficial to require 
schools who apply for E-rate funding to provide data on the speed and 
capacity of their networks? If not, why not?
    Answer. Yes. It should be done through passive monitoring, in a way 
similar to the FCC's Measuring Broadband America program. This will 
improve the FCC's ability to manage the program and focus funds on the 
schools that most need the upgrades.

    Question 2a. Should a minimum bandwidth or speed level be 
implemented? If so, what should this level be based on (i.e., number of 
users/school, demand for bandwidth)?
    Answer. We believe that the FCC should establish a minimum 
bandwidth level that reflects both the current need for the greater 
bandwidth to deliver today's digital materials as well as building 
capacity for future needs. We look forward to reviewing the comments in 
the FCC proceeding to evaluate the dimensions of those minimums. Based 
on the extensive research by the LEAD Commission, which is consistent 
with a number of other studies conducted by other groups, we believe 
the initial target for a Wide Area Network connection should be 1 
gigabit and that every school with more than 100 students should have a 
fiber connection capable of providing that capacity.

    Question 3. How can this data be plugged into the National 
Broadband Map?
    Answer. It is very easy to plug the information into the Map. The 
FCC can have its mapping team write an application programming 
interface (API) that would allow the National Broadband Map to pull the 
data.

    Question 4. In the past, E-Rate funded connections have been 
audited to ensure that only school/library traffic was riding on the 
subsidized connection, which resulted in high usage during the typical 
school day and unused capacity during evenings, weekends, and school 
vacations. Should E-Rate 2.0 include provisions that could support 
home-based broadband connectivity for students? If not, why not?
    Answer. The FCC should consider whether to make home connectivity 
an eligible service but at a lower priority level so that it does not 
interfere with ensuring that schools have the connectivity and 
infrastructure they need. Further, if the FCC includes home-based 
connectivity, it should consider a cap on the amount of the 
reimbursement per student.

    Question 4a. Do you believe E-Rate funded connections could be 
leveraged during these ``down'' periods to provide for load balancing 
and added technology availability for the campus/community? If so, do 
you have any suggestions regarding how this type of function could be 
utilized without a large increase in costs or in concerns about the 
accountability of the program?
    Answer. The FCC should consider allowing experimentation concerning 
community off-hour usage and it should also consider a broader program 
allowing such usage. The amount of capacity subsidized by E-Rate funds, 
however, should be based on the usage during the school day.

    Question 5. On June 6, 2013, the Administration unveiled a new 
initiative called ConnectED, which intends to connect 99 percent of 
America's students to the Internet through high-speed broadband and 
high-speed wireless within 5 years. Do you have any recommendations for 
the FCC or Congress in terms of how E-Rate can be better aligned to 
support curriculum or technology training goals?
    Answer. The curriculum and technology training goals are very 
important and all levels of government should coordinate as to how to 
best achieve them. There are a number of programs designed to address 
these goals. However, the E-Rate program is currently oversubscribed 
and is likely to remain so. We believe it should stay focused on 
providing the necessary foundation of infrastructure and its mandate 
should not be expanded to include these other goals.
    As the LEAD Commission discusses in our recent Report Paving a Path 
Forward for Digital Learning in the United States (Sept. 2013) 
(submitted herewith), we believe the government should act to develop 
safe, effective and efficient ways for teachers, school principals, 
school districts and states to evaluate and purchase comprehensive, 
high quality digital learning products. To foster that acceleration, 
the LEAD Commission recommends the following:

  <bullet> Evolve State and District Purchasing Cycles to the Digital 
        Age. Currently, many states and districts live with multi-year 
        purchasing cycles dictated by the traditional textbook 
        ``edition'' model. In a world of constantly changing digital 
        delivery, states and districts need to adopt more flexible, 
        timely procurement processes.

  <bullet> Create an Independent Certification Program. An independent, 
        non-governmental certification program that identifies 
        approved, high-quality curriculum and content solutions is 
        needed in the market. It would help support a safe purchasing 
        process and incentivize school districts to accelerate the 
        transition to digital learning.

  <bullet> Increase Innovation and Research Funds. The marketplace 
        would benefit from the availability of capital to fuel both new 
        innovations and research to better understand and verify the 
        effectiveness of new advances. Capital targeting entrepreneurs, 
        businesses and researchers would not only help bring new, more 
        effective products to market, but also foster greater 
        competition. We have seen variations of this model work 
        successfully with the National Institutes of Health, InQTel and 
        DARPA . . . why not in education?

    Question 6. Could Elementary and Secondary Act (ESEA) Title II 
funds, typically allocated for teacher training, be used in a different 
manner to ensure teachers are trained to integrate educational 
technology into their instruction?

    Question 6a. Is Title 1 participation the ``right'' basis for 
subsidy calculations or should it be based on technology need and the 
actual dollars necessary to reach a desired speed/capacity level and 
sustain it over time?

    Question 6b. How do we effectively harness the opportunities 
enabled by technology to train or retrain individuals to enter sectors 
that will experience high growth?
    Answer. The LEAD Commission does not have specific recommendations 
at this time as to the specific Federal funding allocations. On the 
training side, the LEAD Commission Report has demonstrated a need and 
suggested a framework for improvements. The LEAD Commission believes 
digital learning is not about ``one to one'' learning between a student 
and a device; it is about ``one to one to one'' learning involving a 
teacher, a student and a device. A common perception is that teachers 
are anti-technology, but LEAD's polling shows that 96 percent of 
teachers believe that the integration of technology in teaching and 
learning is important to the education of America's students. Yet only 
18 percent of teachers believe they are receiving the necessary 
training to use technology to its fullest potential in the classroom. 
For technology to be properly deployed, teachers need to be empowered 
to embrace and use it effectively in the classroom.
    The LEAD Commission strongly recommends establishing a program to 
empower 100 percent of teachers on use of information and 
communications technology over the next three years. The creation of 
``master teachers'' to help train other teachers in best practices 
could be crucial to scaling this program (a practice used successfully 
in other countries). Funding for teachers' professional development 
would utilize portions of existing Federal dollars available for 
teacher training.

                                  <all>

</pre></body></html>
